<html>
<title> - [H.A.S.C. No. 112-7]FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                          [H.A.S.C. No. 112-7]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

          BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE

                               __________

                              HEARING HELD

                           FEBRUARY 17, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                      U.S. GOVERNMENT PRINTING OFFICE
  64-863                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6d7a654a697f797e626f667a2469656724">[email&#160;protected]</a>  




                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                Cathy Garman, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Megan Howard, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, February 17, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request from the Department of the Air 
  Force..........................................................     1

Appendix:

Thursday, February 17, 2011......................................    45
                              ----------                              

                      THURSDAY, FEBRUARY 17, 2011
FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                      DEPARTMENT OF THE AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Donley, Hon. Michael B., Secretary of the Air Force..............     4
Schwartz, Gen. Norton A., USAF, Chief of Staff, U.S. Air Force...     6

                                APPENDIX

Prepared Statements:

    Donley, Hon. Michael B., joint with Gen. Norton A. Schwartz..    53
    McKeon, Hon. Howard P. ``Buck''..............................    49
    Smith, Hon. Adam.............................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................    94
    Mr. Coffman..................................................    98
    Ms. Giffords.................................................    98
    Mr. Griffin..................................................    99
    Mr. Larsen...................................................    98
    Mr. McKeon...................................................    93
    Mr. Reyes....................................................    94
    Mr. Scott....................................................    98
    Mr. Smith....................................................    93

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   111
    Ms. Castor...................................................   117
    Mr. Coffman..................................................   119
    Mr. Conaway..................................................   117
    Mr. Forbes...................................................   105
    Mr. Franks...................................................   116
    Ms. Giffords.................................................   113
    Mr. Griffin..................................................   121
    Mr. Kissell..................................................   115
    Mr. Lamborn..................................................   119
    Mr. Langevin.................................................   109
    Mr. LoBiondo.................................................   112
    Mr. McKeon...................................................   103
    Mr. Palazzo..................................................   122
    Mr. Runyan...................................................   121
    Mr. Smith....................................................   104
    Ms. Sutton...................................................   118
    Mr. Turner...................................................   113
    Mr. Wilson...................................................   110
    Mr. Wittman..................................................   119
 
FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                      DEPARTMENT OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 17, 2011.
    The committee met, pursuant to call, at 1:00 p.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good afternoon, ladies and gentlemen. Thank 
you for joining us today as we consider the President's fiscal 
year 2012 budget request for the Department of the Air Force.
    Secretary Donley, General Schwartz, it is good to have you 
back before the committee today.
    We appreciate all you do, and we are truly grateful for 
both of you for your many years of service to our Nation.
    Last year at this time, we talked a bit about your vision 
for the Air Force and specifically the need for a short-term, 
fix-it sort of perspective to a longer-term view that seriously 
addresses national security risks in a very challenging global 
environment.
    At that time, I remarked that I believe the Air Force is at 
a critical juncture, one that will prove to be historic, and I 
cautioned that we must be wise in the path we chose. I stand by 
those remarks today.
    There is no doubt that we must take our Nation's financial 
position into account, and I appreciate the fact that Secretary 
Gates and the Department have identified savings from lower 
priority programs and efficiencies that can be reinvested into 
force structure and modernization. However, we must be cautious 
moving forward that we do not take short-term savings at the 
risk of our longer-term security.
    This year's budget request for the Air Force reflects a 2-
percent reduction in real growth from the fiscal year 2011 
budget request. The Air Force's operation and maintenance 
accounts, military construction accounts, and procurement 
accounts are all funded below the levels requested last year, 
despite inflation and despite rising fuel costs.
    This committee needs to clearly understand the risks 
associated with these reductions. I understand that the Air 
Force identified over $33 billion in efficiencies to support 
this budget, but it is unclear to me how much of that funding 
was retained and reinvested in the future of the Air Force.
    I am also very concerned that many of these efficiencies 
are cost-avoidance initiatives and not clear-cut savings, and 
as such, they may not actually materialize. We have seen this 
from the Air Force before. The most recent examples being a 
2006 attempt, before your time, to cut 40,000 personnel in 
order to fund procurement efforts and then the end-sourcing 
initiatives from the last budget cycle; neither of those worked 
out so well. We cannot and must not allow shortsighted budgets 
drills to drive our national security priorities and planning.
    The Air Force can't continue business as usual. We must 
find cost savings through innovation and competition. Just last 
week as an example, I was briefed on an innovative approach, a 
business model that could significantly reduce the cost of 
space launch. And I think you have been informed of that. We 
will talk about that.
    Echoing my remarks from yesterday's hearing, this Congress 
must finish work on defense appropriations legislation that was 
left unfinished in the 111th Congress. We have been working on 
that now all night, the last few nights, and I guess we hear we 
are going to be working all night tonight now and maybe 
tomorrow. Given our promise that we were going to be done by 
three o'clock today, we had two promises that conflicted: One 
was openness and letting everybody participate; the other was a 
schedule. The schedule fell to the openness and letting 
everybody participate. So with all the work we have done the 
last few nights, I am told that there is more left to do than 
what we have already done.
    So you are going to miss that afternoon flight, as we all 
are.
    Echoing my remarks from yesterday's hearing, as I just 
talked about, I am very concerned about the implications to our 
troops of funding the Department of Defense at fiscal year 2010 
funding levels in a year-long continuing resolution. One thing 
we all agree on and that is we, it would be devastating to the 
Defense Department, to our military, to the troops, to have a 
year-long CR [Continuing Resolution]. We definitely need--
desperately need to get this appropriations bill done for the 
military. Our men and women in uniform deserve more from this 
body.
    Gentlemen, I look forward to our discussion today and 
hearing more from you on your vision, your strategic goals and 
your 2012 budget request.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 49.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I start by agreeing 
with you on two critical points: Number one, the need to get a 
Defense Appropriations bill this year and not rely on a CR. I 
have heard from all the Services as well as many contractors 
who are in limbo on a number of different very important 
products and a number of--important programs, sorry--if we 
don't get that done.
    So, hopefully, we will do that. Hopefully we will do it 
sooner rather than later, but one way or the other we will move 
through the process and get that done.
    And also I want to agree with the chairman that as we look 
at the budget constraints that we face with our overall budget 
and within the Department of Defense as well that we make sure 
not to jeopardize our national security needs and priorities as 
we do that.
    Now Mr. McKeon had alluded to the promise of we will get 
you out of here around three and we will have a completely open 
process. Occasionally those promises do conflict. And making 
sure that we meet all of our requirements within the tight 
budget environment that we have is not going to be easy. But I 
do believe, based on the testimony from Secretary Gates and 
Admiral Mullen yesterday, that both of them and all of you are 
doing a very good job of doing that in an efficient, 
responsible way.
    I think the initial take, finding $178 billion in 
efficiencies now, as Secretary Gates said yesterday, the great 
quote, he said the outyears are when everybody's dreams come 
true. To some degree, that applies even directly to the $178 
billion figure that he gave us. So there is going to be more 
work required, but I honestly believe that all the services and 
the Secretary have really gone in and scrubbed the budget, and 
they are looking for places where we can find efficiencies, get 
more out of the money we are spending, rethink our requirements 
and what we truly need to get the job done.
    So I applaud you for that effort.
    And I know in the Air Force, it is particularly challenging 
because you have significant programatic upgrades that are 
being required. You know, the tanker contract, which we are all 
hopeful, after a long and tortured history, we will get that 
going and get it done.
    I know General Schwartz, Secretary Donley, you have worked 
very, very hard to make that happen, and we appreciate that.
    The Joint Strike Fighter, of course, is a huge program for 
the Air Force. Going forward, it needs to get straightened out. 
The expanding number of UAVs [Unmanned Aerial Vehicles] and 
other ISR [Intelligence, Surveillance, and Reconnaissance] 
platforms, there is a lot that you need to get done in order to 
meet the requirements that we are asking of you. And you are 
working on it and doing a good job.
    And then also the personnel, as many may not be aware, I 
mean, starting back in 1990 with the Desert Shield program, the 
Air Force has actually been more or less at war for over 20 
years now, and that has placed an incredible strain on the 
force and the equipment. And we need to make sure that we are 
protecting our airmen and their families as we go forward on 
that.
    With that, I look forward to your testimony. I want to 
thank both General Schwartz and Secretary Donley for their 
outstanding leadership in the Air Force. And I look forward to 
your testimony and your answers to our questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 51.]
    The Chairman. Thank you.
    We have with us today the Honorable Michael B. Donley, 
Secretary of the Air Force, and General Norton A. Schwartz, 
Chief of Staff of the U.S. Air Force.
    Gentlemen, we look forward to your testimony.

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE

    Secretary Donley. Thank you, Mr. Chairman.
    Chairman McKeon, Ranking Member Smith, members of the 
committee it is a pleasure to be here today representing more 
than 690,000 Active Duty, Guard, Reserve and civilian airmen. I 
am also honored to be joined today by my teammate and a 
tireless public servant, our Chief of Staff, General Norty 
Schwartz.
    I would first like to recognize the unfortunate absence of 
Congresswoman Giffords today. The Air Force knows and respects 
Representative Giffords for her strong support of our men and 
women in uniform and especially for the airmen who serve at 
Davis-Monthan Air Force Base and live in the Tucson community. 
We certainly wish her a speedy recovery and look forward to her 
return to this committee.
    Today, I am pleased to report that America's Air Force 
continues to provide the Nation unmatched global vigilance, 
reach and power as part of the joint team with an 
uncompromising commitment to our core values of integrity, 
service before self, and excellence in all we do.
    The Air Force is requesting $150 billion in our baseline 
budget and $16 billion in the overseas contingency operations 
supplemental appropriation to support this work.
    Our budget request represents a careful balance of 
resources among the Air Force core functions necessary to 
implement the President's National Security Strategy and 
between today's operations and investment for the future.
    Before discussing our fiscal year 2012 budget request, I 
would like to address some unfinished business from fiscal year 
2011 and also set in context the changes in your Air Force over 
the past several years.
    As you alluded to, Mr. Chairman, operating without a 
defense appropriations bill in fiscal year 2011 is having a 
significant impact on the Air Force. A decision to extend the 
continuing resolution at fiscal year 2010 levels through the 
remainder of this year would delay our ability to reach the 
Secretary of Defense's directed goal of 65 MQ-1 [General 
Atomics Predator unmanned aerial vehicle] or 9 combat air 
patrols by 2013 in support of current operations in 
Afghanistan. It would cause a production break and a likely 
increase in the unit cost of the wideband global communications 
satellite, the Joint Air-to-Surface Standoff Missile, F-15 
[McDonnell Douglas/Boeing Eagle fighter jet] radar 
modernization and other programs.
    Deeper reductions to our modernization programs would be 
required to fund over $3 billion in must-pay bills for urgent 
operational needs in Afghanistan and Iraq, for military health 
care, and the military pay raise of 1.4 percent which Congress 
authorized but has not funded.
    Without fiscal year 2011 appropriations, we face delay or 
cancellation of some depot maintenance, weapons system 
sustainment and other day-to-day activities in order to 
prioritize our most critical needs under the lower funding 
levels in a full-year CR.
    Finally, fiscal year 2011 appropriations are also required 
for 75 military construction projects now on hold which support 
ongoing operational needs and improve the quality of life for 
airmen and their families. Passing a fiscal year 2011 Defense 
Appropriation bill is essential to avoid these severe 
disruptions. And we appreciate the efforts that are currently 
under way to resolve this situation.
    Over the past decade, the Air Force has substantially 
reshaped itself to meet the immediate needs of today's 
conflicts and position itself for the future. While we have 
grown in some critical areas, it has been at the expense of 
others. We have added intelligence, surveillance, and 
reconnaissance capacity with 328 remotely piloted aircraft and 
over 6,000 airmen to collect, process, exploit and disseminate 
intelligence. We have added over 17 aircraft and nearly 2,400 
airmen to bolster Special Operations capacity so necessary in 
counter insurgency. We have added over 160 F-22s [Lockheed 
Martin/Boeing Raptor fifth-generation stealth fighter jets] and 
120 C-17s [Boeing Globemaster transport aircraft] to our 
inventory and funded over 30 satellites and added 2,200 airmen 
for critical nuclear and cyber operations and acquisitions 
support.
    In the same period, however, we retired over 1,500 legacy 
aircraft. We have cancelled or truncated procurement of major 
acquisition programs, shed manpower in career fields less 
critical to the fight, and deferred much-needed military 
construction in order to balance these capabilities within the 
resources available.
    In all, during the past 7 years, the size of the Active 
Duty Air Force has been reduced from 359,000 in 2004 to 
approximately 333,000 today. And the Air Force's baseline 
budget, when adjusted for inflation and setting aside the 
annual wartime supplemental appropriations, has remained flat.
    Looking ahead, we face a multiyear effort to recapitalize 
our aging tanker, fighter, bomber and missile forces to 
continue modernizing critical satellite constellations, meet 
dynamic requirements in cyber domain and replace aging air 
frames for pilot training and presidential support.
    We continue to recognize the requirement for fiscal 
restraint and are committed to remaining good stewards of every 
taxpayer dollar, improving management and oversight at every 
opportunity. The fiscal year 2012 budget request incorporates 
over $33 billion in efficiencies across the Future Year Defense 
Plan, which will be shifted to higher priority combat 
capability, by reducing overhead costs, improving business 
practices and eliminating excess, troubled or lower priority 
programs. By consolidating organizational structures, improving 
processes in acquisition and procurement, logistics support and 
streamlining operations, we have been able to increase 
investment in core functions, such as global precision attack, 
integrated ISR, space and air superiority, reducing risk by 
adding tooth through savings in tail.
    We are fully committed to implementing these planned 
efficiencies and have already assigned responsibilities to 
senior officials and put in place the management structure to 
oversee this work and track progress on a regular basis.
    Having faced the need to reshape our force structure and 
capabilities within constrained manpower and resources over the 
past several years, we do not view the current need for 
efficiencies as a singular event but as an essential and 
continuing element of prudent management in the Air Force.
    Our investment priorities remain consistent with minimizing 
risk and maximizing effectiveness and efficiency across the 
full spectrum of potential conflict. Proceeding with the new 
KC-X [next-generation aerial refueling tanker aircraft] tanker 
aircraft, implementing the Joint Strike Fighter restructure, 
meeting the combatant commander's need for more ISR, investing 
in the long-range strike family of systems, including a new 
penetrating bomber, and enhancing space control and situational 
awareness, all remain critical capabilities both for today's 
and for tomorrow's Air Force.
    In addition to these investments, we will continue to 
address challenges in readiness, in particular the slow but 
persistent decline in materiel readiness most notable in our 
nondeployed forces, and the personnel challenges across 28 
stressed officer and enlisted career fields, both of which are 
the result of today's high operational tempo.
    And of course, we will continue to support our Active Guard 
and Reserve airmen and their families with quality housing, 
health care, schools and community support.
    With respect to health care, I would like to convey the Air 
Force's support for DOD's [the Department of Defense's] TRICARE 
reforms that will modestly increase premiums for working age 
retirees, premiums that have not changed since they were 
initially set in 1995. Going forward, we must continue to seek 
and develop reforms in the benefits that our men and women in 
uniform earn to make them economically sustainable over the 
long term.
    Mr. Chairman, good stewardship of the United States Air 
Force is a responsibility that General Schwartz and I take very 
seriously, and we remain grateful for the continued support and 
service of this committee, and we look forward to discussing 
our proposed budget. Thank you.
    [The joint prepared statement of Secretary Donley and 
General Schwartz can be found in the Appendix on page 53.]

  STATEMENT OF GEN. NORTON A. SCHWARTZ, USAF, CHIEF OF STAFF, 
                         U.S. AIR FORCE

    General Schwartz. Mr. Chairman, Congressman Smith and 
members of the committee, it is a privilege to be here today 
with Secretary Donley representing the men and women of the 
United States Air Force.
    Congresswoman Giffords' absence saddens us today, but her 
spirit compels us to continue our work.
    And our airmen continue to inspire us with their dedication 
and service and impress us with their many accomplishments. 
Quietly and proudly serving alongside their Army, Navy, Marine 
and Coast Guard teammates, airmen every day act on behalf of 
the American people as stewards of the Nation's trust and 
defenders of her security.
    This budget request, fully appreciating the extraordinary 
fiscal condition that our Nation faces, supports our airmen and 
continuing efforts to structure the force for maximum 
versatility across the full spectrum of operations for today's 
requirements and tomorrow's challenges.
    Because of budgetary pressures, I echo Secretary Donley's 
concerns about operating under a continuing resolution. And 
extending far beyond March 4 without a 2011 appropriations 
bill, we will have to reduce flying hours, delay or cancel some 
weapons systems sustainment and depot maintenance activity, and 
disrupt other day-to-day operations, all of which will 
adversely affect readiness and impact our brave men and women 
who are preparing to serve or are serving in harm's way.
    Consistent with the 2010 National Security Strategy in the 
Quadrennial Defense Review, our national military objectives 
are to counter violent extremism; defeat and deter aggression; 
strengthen international and regional security; and shape the 
future force. Airmen are committed to the task of leveraging 
air and space power with all of its inherent versatility in 
presenting to the President and our national leadership a range 
of strategic options to meet those objectives, even while the 
Nation continues to grapple with substantial deficits and 
related national debt.
    To counter violent extremism, airmen continue to make vital 
contributions to our Nation's strategic objective of 
disrupting, dismantling and defeating Al Qaeda and its 
affiliates in Afghanistan and elsewhere, thereby inhibiting 
their return to former sanctuaries. More than 37,000 airmen, 
approximately 6 percent of the force, are forward-deployed 
worldwide. Of this group, nearly 30,000 are continuing on a 
rotating basis to contribute to operations in the United States 
Central Command area of responsibility, including 10,000 airmen 
in Afghanistan providing close air support to U.S. and 
coalition ground forces, air lift and air refueling, personnel 
rescue and air medical evacuation from hostile battle space, 
and training and exercises to develop our partner Air Force.
    An additional 57,000 total force airmen, or about 11 
percent of our force, are forward-stationed overseas providing 
capabilities in direct support of our combatant commander 
requirements.
    And from home stations here in the United States, 
approximately 218,000 airmen, or 43 percent of the force, 
provide daily support to worldwide operations, standing nuclear 
alert, commanding and controlling our satellites, analyzing 
intelligence, surveillance, and reconnaissance data and much, 
much more.
    To deter and defeat aggression, we maintain vigilance 
across the entire spectrum of conflict while we employ 
multirole systems with capabilities that can flex to different 
warfighting requirements. At the upper end of the continuum, we 
continue to provide two of the Nation's three arms of nuclear 
deterrence with steadfast excellence, precision and 
reliability. And across the remainder of the operational 
spectrum, we will continue to leverage air and space power 
capabilities that are vital to the Nation's ability to sustain 
a robust conventional deterrent.
    This requires the ability to rapidly project power through 
the global commons and globally interconnected domains of air, 
space and cyberspace. Therefore, in addition to leveraging air 
power, we will also magnify our efforts to reinforce our cadre 
of space and cyber professionals. We will continue to ensure 
precision navigation and timing, secured satellite 
communications, timely missile warning and global environmental 
sensing for our joint teammates, while we enhance our space 
situational awareness that is vital to attributing space-borne 
threats and protecting our systems and capabilities.
    We will also continue to support the whole-of-nation 
efforts to team with international partners in reinforcing 
norms for space and cyber activities. And ultimately, 
developing a broader range of options to ensure our Nation's 
access to and freedom of action in both domains.
    To strengthen international and regional security, the Air 
Force will translate air power's inherent ability to traverse 
vast distances with unmatched speed, ensuring that U.S. forces 
are globally available yet through inherent versatility can be 
tailored in scale to be regionally focused.
    Through a whole-of-nation approach and with mutually 
supporting strategies toward this objective, the U.S. Air Force 
and the joint team will underwrite defense, diplomatic and 
developmental efforts to help address the root causes of 
radicalism and aggression and not just through violent 
manifestations. For instance, nearly 300 airmen are deployed as 
members of the Iraq training and advisory mission, supporting 
the development of counterpart capabilities in over 400 
specialties.
    Similarly, our airmen supporting the combined air power 
transition force not only advise Afghan airmen; they help to 
set the conditions for a viable and self-sustaining Afghan Army 
Air Force to meet a range of security requirements.
    Ultimately, these and other coordinated efforts to build 
international partner capacities can help to prevent lower 
intensity problems from escalating into full-scale crises.
    Finally, to shape the future force, we will work to ensure 
readiness, training and equipage while contending with serious 
budgetary pressures. Our systems and capabilities must be 
evermore adaptable to be employed across the full range of 
operations while agile command-and-control capabilities and 
shared interoperability with our joint and coalition partners.
    But flexible air, space and cyber capabilities require 
resilient airmen. They are the lifeblood of our Air Force, to 
whom we owe our fullest commitment, particularly our Wounded 
Warriors and their families. And during this time of sustained 
and frequent deployments, we will bolster our capacity to 
provide assistance to our airmen in managing both the obvious 
and the less obvious challenges of returning home from war.
    Since the first of July, 2010, we have made considerable 
progress in this regard with the establishment of the 
Deployment Transition Center at Ramstein Air Base in Germany, 
where nearly 1,200 personnel attended programs to decompress 
and begin a healthy reintegration into family and unit of 
assignment. We intend to continue this progress.
    And as deployment tempos remain high, we will further 
strengthen our efforts to develop core components of the Air 
Force Resiliency Program in its ongoing assessment of the 
fitness of our force. This will inform our efforts as we 
continue to improve quality of airmen and family services and 
support from child education to base fitness centers to 
transition assistance programs.
    In closing, I would also, Mr. Chairman, like to affirm my 
personal support for the efforts to better control DOD health 
care costs.
    I respect and I celebrate the service and sacrifice of our 
retirees. They are, and they always will be, honored members of 
the Air Force family. But I do believe that the current 
proposals are both modest and responsible.
    Mr. Chairman and committee members, the Air Force remains 
steadfastly committed to providing global vigilance, reach and 
power for America.
    Thank you for your continued support of the United States 
Air Force, for our airmen, and of course, for our families. I 
look forward to your questions, sir.
    [The joint prepared statement of General Schwartz and 
Secretary Donley can be found in the Appendix on page 53.]
    The Chairman. Thank you, gentlemen.
    You both talked about the importance of an appropriation 
bill that would fund the Department of Defense for the rest of 
this year. We find ourselves in an awkward situation, not 
having done the work last year and so now we are trying to 
finish it up and at the same time start our work for this year.
    We are 5 months into the year. We have on the floor right 
now a CR which contains a cut of $16 billion over the request 
for this year, which leaves about $2 billion more than was 
spent in fiscal year 2010. The Secretary was here yesterday and 
reaffirmed his strong position for the one engine for the F-35 
[Lockheed Martin Lightning II fifth-generation stealth fighter 
jet]. And he was successful, a vote on the floor last night 
eliminated the second engine. In so doing, the amendment that 
was passed takes the $450 million and takes it out of the 
defense budget, puts it into payment against the debt, so that 
$2 billion is now about $1.5 billion.
    And we also have other amendments on the floor today that 
will be proposing further cuts in defense. The problem, as I 
see it, as we start our work for next year not having done the 
work last year is, where do you see yourself starting? You have 
presented a budget, and we don't really have a starting number 
because we don't know where we are going to be. It could 
actually even be less than was spent last year.
    So when you talk about the things we did in the 
authorization bill at the end of last year that gave a raise to 
our troops, I don't know if you had that in your budget, but it 
would put us in a real quandary, I am sure, as we move forward, 
along with many of the other things that you have mentioned.
    The $33.3 billion in savings for efficiencies I have a 
couple of questions on. First of all, how do you intend to 
track the realization, now those were over 5 years so it is not 
all in this budget that you are proposing, but I would like to 
know how you intend to track the realization of those savings 
and what you expect to spend those savings on that gives us 
modernization and does a better job for us than the things that 
you have realized in the savings? If you could respond to 
those. Thank you.
    Secretary Donley. Thank you, Mr. Chairman.
    To one of the initial comments you made concerning the pay 
raise, the fiscal year 2012 budget assumes a 1.6 pay raise for 
military personnel. There is no pay raise assumed for civilians 
for fiscal year 2012 or fiscal year 2013 in the President's 
budget. So that is the status of our pay proposals.
    To the subject of efficiencies, yes, as I indicated, we did 
propose and get approved $33 billion in savings across the 
Future Years Defense Program. For the Air Force, those were 
broken up into about 12 different categories of activities, 
ranging from energy, IT [Information Technology] consolidation, 
consolidation of headquarters, infrastructure, and acquisition, 
changes in our acquisition process going forward.
    Those were not cost-avoidance kinds of assumptions. Those 
dollars were assumed in our out-year program and were tracked 
in particular accounts. So we can track where we are against 
that database. So for each of those 12 areas, we have 
identified a senior officer or SES [Senior Executive Service], 
a civilian, to be the champion for that work. They have all 
come in with initial plans for how they intend to achieve those 
savings across the future year plan. We had lots of discussion 
on these matters before settling on the targets in the 
categories.
    So I think we have had several months of work on this now 
under our belt, and we have champions for each of those 12 
categories, and we have an oversight process, which will bring 
them back to our Air Force council on a regular basis to report 
progress.
    Just on the flip side, we have been able to fully fund and 
normalize funding for the EELV, the Evolved Expendable Launch 
Vehicle family of launchers, which had been underfunded. And we 
put over $3 billion against that in the FYDP [Future Year 
Defense Plan]. We have been able to start work on a new 
penetrating bomber. We have put dollars into enhanced F-15 
radars, and we have done a number of other proposals as well.
    Chief.
    General Schwartz. I would just mention one more, sir, to 
give you a sense of how we are also trying to normalize the 
contingency accounts versus the base budget in that we brought 
the MC-12 [Beechcraft twin-engine turboprop aircraft] 
operational costs, that is intelligence, surveillance, and 
reconnaissance light aircraft, from the contingency account 
into the base budget. And so that was enabled through these 
efficiencies, and that is real capability that will stay with 
us and should stay with us, rather than perhaps retiring it at 
the conclusion of the current engagements.
    The Chairman. Let me thank you for that.
    Let me just ask a question. If we had gotten our work done 
last year by--let's say if we had gotten it done before the 
year end, September 30, you had money that would have been in 
there for a pay increase for last October 1 to the coming 
September 30. If, in fact, we end up with what is on the floor 
today and there are no further changes, and it ends up at 
$533.5 billion, something like that, which is considerably 
under what your request was for this year that would have been 
done for last year, what does that do to the raise that we had 
voted for the troops for the year that we are halfway through?
    Secretary Donley. Well, sir, the current picture that I 
think I have painted but I would like to make sure that you 
understand is that we have broken acquisition programs as a 
result of staying at a fiscal year 2010 level. And I 
articulated the particular programs that have been affected by 
the extension of a CR.
    But we also have bills to pay on the operations side, 
health care bills to pay. The pay raise is being, 1.4 percent 
approved by Congress last year, is being paid out to our----
    The Chairman. Starting last October.
    Secretary Donley. Starting last October, it simply means 
that our personnel account, the last payroll of this fiscal 
year is uncovered. So we cannot make payroll for the last pay 
period this fiscal year. And because we have those operational 
costs in front of us that are must-pay bills, we will dig 
further into our modernization accounts. We will break programs 
further to get the resources reallocated toward the must-pay 
operational bills. That is our site picture if we had to extend 
a full-year CR at fiscal year 2010 levels.
    The Chairman. And that extends across all the Services. So 
there is jeopardy about how they are going to be paid at the 
end of the year.
    Secretary Donley. That is correct. One thing I would like 
to offer for your consideration, the lower the number is for 
fiscal year 2010, the more flexibility that the Department 
needs to move funding across accounts because we have to make 
some massive adjustments in our budget mid-year, so we would 
need special consideration to do that.
    We think the better approach is to fund what is required 
for fiscal year 2011. But if that is not feasible for some 
reason, we have got to have flexibility to cover these costs.
    The Chairman. And if someone is assuming that these cuts 
that we are talking about won't affect the troops, they are 
probably mistaken.
    Secretary Donley. Absolutely.
    The Chairman. If you would consider not getting your pay 
raise affecting the troops.
    Secretary Donley. Well, we would have to make significant 
changes in our budget in order to make sure that last pay 
period is covered.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, gentlemen. I have two sets of questions. 
Actually I am working with Congresswoman Giffords' staff to 
make sure that her questions and concerns are addressed during 
the hearing, and I am doing that myself, so I have some for her 
district and then a couple on broader issues as well.
    As you mentioned in your opening remarks, Davis-Monthan Air 
Force Base is in her district. Her staff in her notes that they 
gave me said that she always refers to it as the best Air Force 
base in the Nation. I am in a bit of an uncomfortable spot to 
say that, seeing as how McChord Air Force Base is in my 
district. I guess technically it is a joint base now. So best 
joint base. Best Air Force base; that is Congresswoman 
Giffords' opinion at any rate. And it is a great place. I am 
going to have the opportunity to go down there and visit it at 
the end of March.
    And the one question she had about the base there is a 
consolidation of the Air and Space Operation Centers the 612th 
is at Davis-Monthan and the 601st is in Florida. I just wanted 
to do to know what the process was going to be for that 
consolidation and also what impact that might have on the Air 
Forces Southern Command's capabilities in this area?
    I will take a quick comment on that and then also if you 
could submit something to her office for the record, that would 
be great, too.
    General.
    [The information referred to can be found in the Appendix 
on page 98.]
    General Schwartz. Congressman, we would be happy to do 
that.
    Just quickly, this is one of the efficiencies that gained 
us the 33-plus billion in savings we identified earlier. The 
fundamental logic of this was that our Air Operation Center, we 
had one aligned for each of the ten combatant commands. And 
that is the right alignment. But it turned, the reality was 
that we were never able to man those centers to 100 percent.
    And as we looked at this, we had to ask ourselves, are 
there ways to be more efficient, to economize? And there were 
two locations that came to mind. One was in Europe where the 
617th supports AFRICOM [U.S. Africa Command], and the 603rd 
supports EUCOM [U.S. European Command], and they are 
essentially at the same location but now separate. And it made 
clear sense to consolidate there.
    Likewise, domestically, as you are well aware, during the 
Haiti operation, it was the 601st AOC [Air Operations Center] 
that actually did most of the work for Southern Command during 
the Haiti contingency. And that certainly raised the specter in 
our own minds, might it be possible to consolidate those two 
missions in a way that would serve both NORTHCOM [Northern 
Command] and SOUTHCOM [Southern Command]? We think that is the 
case.
    We have a strategic basing process, sir, that we will go 
through, establish criteria, objective criteria, and evaluate 
both Davis-Monthan and Tyndall, the current locations of both 
of those Air Operations Centers for which is the best location 
to consolidate. And that decision will be taken later this 
spring or early summer.
    Mr. Smith. Right. Thank you.
    And the only other area for Congresswoman Giffords is on 
energy. That has been a major focus of hers. The largest 
consumer of energy in the United States is the Department of 
Defense, so anything we can save there is great. Obviously, the 
Air Force fuel is a major, major issue, and I know you have 
launched a number of efficiencies and alternative programs. Can 
you give us some idea of the savings you envision being able to 
do in that area.
    Secretary Donley. Sir, we have, in part of our efficiencies 
and savings package, we have assumed about $700 million in 
savings across the Future Year Defense Program.
    Mr. Smith. How is that achieved? Just quickly what are the 
big programs that drive the savings?
    Secretary Donley. There are a number of pieces to it.
    Some of it is investing in energy projects which will make, 
help us manage our energy assets more carefully and more 
closely. It involves bringing into the flying units, especially 
the large aircraft operated by Air Mobility, Air Force Mobility 
Command, the--more efficiency and flight profiles by bringing 
in commercial best practices that are used in commercial 
airliners today; more, better aids to navigation, those sorts 
of issues that will improve flight profiles.
    It also involves investing in renewables. We have about 400 
projects across the Air Force that are working on energy 
efficiency. Well over 50 of those are focused on renewable 
sources of energy. And certainly, in the Southwest, solar is 
big.
    It also involves investing in early demolition of aging 
infrastructure that we don't need so we can get it off our 
books and take a away future bills by eliminating excess 
buildings, for example. Those are the highlights.
    Mr. Smith. I think it is also important to point out the 
technology on alternative fuels is getting to the point where 
you can fly, even very complicated, very sophisticated Air 
Force airplanes, with alternative fuels. Now there is a scale 
problem. You have to make sure you have enough of it to be 
sustainable. But there is great promise I think in those areas.
    Thank you.
    I just have a couple of questions of my own.
    General Schwartz, you had a fairly colorful way recently of 
describing the difficulties in our Air Force acquisition 
program. I won't repeat that here in public, but I will say 
that I completely agree with the sentiment that we have had a 
major, major problem in a variety of different areas of going 
for too much in our acquisition programs, and that certainly 
hasn't been peculiar to the Air Force. It has happened across 
the services, but it has cost us an enormous amount of money 
and left us with not as much to show for it as it should have.
    One particular area in space, we have had a major challenge 
on that in terms of figuring out what the right mix of 
satellites is and launch vehicles. But broadly speaking, can 
you elaborate a little bit? Because that is a critical point. 
If we are going to save money, get the best equipment to our 
troops, we are going to have to be smarter about how we do 
this. Could you perhaps elaborate a little bit on what you see 
there?
    General Schwartz. Sir, there are a couple of areas where 
there is real promise. The way we buy satellites today is one 
at a time and just to meet the need, so just-in-time delivery 
of satellites means that you build one; you wait 4 or 5 years, 
and you build another one, and so on. And it entails not only 
stop-start of workforce but nonrecurring engineering and all 
expenses that are associated with not having a continuous 
workload. And so one of our efforts which we intend to 
undertake is an effort both with AEHF [Advanced Extremely High 
Frequency], the advanced communication satellite and SBIRS 
[Space-Based Infrared System]--that is the early-warning 
satellite--to suggest that we will build satellites in blocks, 
more than one, to get up the learning curve to earn the 
efficiencies that that brings along with it.
    And likewise, on the launch side, instead of buying two 
this year and eight the next year, to suggest that we will try 
to stabilize that as well, and to do this across the 
Government, not just DOD. But DOD, the NRO [National 
Reconnaissance Organization] and NASA [National Aeronautics and 
Space Administration] together, instead of competing against 
ourselves, we will go to the providers for these services to 
together.
    These are the kinds of efforts that we think will yield 
efficiencies. It will need your support, sir, because there 
are, particularly on satellite side, there will be a need for 
traditional appropriations, some advanced appropriation, and so 
on. And so we will have to discuss that with you.
    Mr. Smith. We will be very, very happy to support that. And 
I think it is a critical issue across the DOD. And essentially 
the best way it was ever put to me is when I was serving on the 
Intel Committee and we were talking about satellites, you can 
sort of imagine what you want. So it is like, well, we will 
build this one, and then next time we will be able to do all 
this other stuff, and then someone said a computer model will 
build, will beat an actual piece of equipment every day of the 
week, but it is just a computer model. It is a vision off in 
the future that may or may not come to pass and may or may not 
do what we need. So I applaud you on that.
    Two final things. One I will just take for the record. I am 
curious what your thoughts are on how the joint basing 
arrangement is going. I think it is working great out at Joint 
Base Lewis-McChord. You have got two colonels out there, Army, 
Air Force, who are working very closely together, doing a great 
job. But I am curious if you could submit for the record when 
you get a chance what we can do to make that work better. I 
think it is a very positive step in the right direction.
    [The information referred to can be found in the Appendix 
on page 93.]
    Just a quick comment on the JSTARS [Joint Surveillance 
Target Attack Radar System] upgrade, Joint STARS [Surveillance 
Target Attack Radar System] upgrade program. This is an ISR 
platform based off of a 707 air frame now, and you are looking 
at ways to upgrade that capability. Sort of two ways to go: One 
is just figure out a way to make the 707s that you have work 
better; two would be to upgrade the platform to the 737. I am 
curious what you think is the best approach and when you going 
the make a decision on that.
    General Schwartz. Sir, there are a couple of options. We 
currently have direction, both from within the Department and 
in language to pursue a re-engining effort for the E-8 JSTARS 
platform, and subject to appropriations, we will be acquiring 
up to four ships sets to accomplish both test and validation of 
that modification to give us information on what a re-engining 
effort on the E-8 would mean for the long-term future. We have 
an analysis of alternatives underway which will conclude late 
this spring, which is not just looking at re-engining of JSTARS 
and perhaps improving the radar that is inherent in that 
platform. But as you suggested, the P-8 is an option, the Navy 
airplane, and there are others. The Block 40 Global Hawk is a 
possibility. Likewise, there are business class jet 
applications that are also a possibility.
    And so this study is looking at those to discern, what is 
the best blend to deal with the Ground Moving Target Indicator 
mission, the GMTI mission. That is where we are at sir.
    Mr. Smith. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much, both of you, for your 
service.
    General Schwartz, as you know, in 1979, the Chief of Staff 
of the Air Force wrote Congress asking the Congress to support 
funding for the alternate engine for the F-35.
    Why did the Chief of Staff feel a need to ask for funding 
over and above the President's budget that year for funding for 
an alternate engine?
    General Schwartz. Sir, I will tell you my view of the 
alternate engine. It begins by stating that this is not 1979. 
The reality is that engines have matured considerably both in 
terms of design, in terms of manufacture, in terms of material, 
in terms of durability and so on, and reliability.
    My view is simply this, that competition in the ideal is 
desirable. I agree with you, sir.
    Mr. Bartlett. Having said that, sir, I would like to put a 
little chart up on the screen. I believe that your staff had 
that yesterday. I hope that it has been shown to you. You can 
look at look on the screen to see it.
    Last year, the Air Force provided a graphic to the 
committee based on a committee request for information on the 
Air Force experience with a primary and alternate engine for 
the F-16 [General Dynamics Fighting Falcon fighter jet]. How 
would you interpret the F-16 major accident trends for both the 
primary and alternate engines?
    General Schwartz. Again, the F-100 engine was, in the early 
days, was an immature platform. And my point here is that the 
engines we are using today are much more mature, much more 
reliable, as we have demonstrated in the F/A-18 [McDonnell 
Douglas/Boeing Hornet fighter jet], in the F-22, and, you know, 
certainly in the big airplanes. But in terms of the high-
performance engines, as you note on your chart, sir, that the 
loss rate due to engine malfunctions has declined precipitously 
over the last 30 years. That is a factor in our recommendation 
not to pursue an alternate engine.
    Mr. Bartlett. But, sir, for these two engines, I note that 
it is just a positive correlation, which does not necessarily 
mean a cause-and-effect relationship, but there certainly is a 
positive correlation between the introduction of the alternate 
engine and the drastic reduction of the mishap rate.
    Mr. Secretary, last year the GAO [Government Accountability 
Office] provided the committee with a graphic on its analysis 
of the average procurement unit cost per engine for both 
engines of the F-16. The F-16 primary alternate engine 
manufacturers began competing in the mid 1980s. How would you 
describe price trends before and after the introduction of the 
alternate engine for the F-16? And I think that chart is up on 
the screen for you, too.
    Secretary Donley. Mr. Bartlett, I would like to look at 
this more closely and give you an answer for the record.
    [The information referred to can be found in the Appendix 
on page 94.]
    Mr. Bartlett. Well, sir, as you look at the chart, it is 
pretty obvious that the price came down. As a matter of fact, 
the GAO indicated in its 2007 report on the alternative engine 
that prices for the F-16 engine decreased by an average of 21 
percent over the four years they analyzed it.
    Again, sir, this is just a positive correlation. It does 
not necessarily mean a cause-and-effect relationship.
    But if you have enough of these circumstantial evidences, 
positive correlations, you begin to get a picture of that.
    I have one more brief question.
    Secretary Donley, in 2009, the Secretary of Defense 
cancelled the CSAR-X combat search and air rescue program, 
stating that the department was conducting a review of DOD-wide 
assets that could conduct this mission. At that time, the CSAR-
X was the number two Air Force acquisition priority. What is 
the status of this review? And does the Air Force plan on 
restarting the CSAR-X program?
    Secretary Donley. We are currently looking at the 
requirements for a future CSAR platform in conjunction with the 
HH-60 [Sikorsky Pave Hawk CSAR helicopter] loss replacement 
program that has been underway during the current conflicts. 
And also the replacement of other UH-1 [Bell utility 
helicopter]--of UH-1 capabilities across the Air Force, in 
particular in support of the missile fields and the nuclear 
mission, and a few other UH-1 units across the Air Force.
    Our goal is to see if we can get those requirements aligned 
so that we can get a cost-effective solution to our vertical 
lift challenge in all of those areas. But I think the chief can 
amplify a little bit for you.
    General Schwartz. Sir, our goal here is to approach this as 
a minimally developmental effort. In other words, to secure a 
vertical lift capability that is largely off the shelf that we 
could modify to do both the combat rescue mission, rescue 
hoist, so on and so forth, as well as the nuclear site support 
mission, which would mean fewer modifications.
    Fundamentally, though, the approach, as opposed to CSAR-X, 
which was a highly developmental effort, we are looking at 
being less ambitious and approaching this as a minimally 
developmental effort.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Mr. Conaway. [Presiding.] The gentleman's time has expired.
    The gentleman from Texas, Mr. Reyes, is recognized 5 
minutes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, gentlemen, welcome. Thank you for being here with us.
    Just 2 weeks ago, I was with the chairman and another 
member of the committee in Afghanistan. We actually got an 
opportunity to fly the Osprey, which is the equivalent of the 
CV-22 [Bell-Boeing tilt-rotor aircraft] for the Air Force; and 
I had an opportunity to ask some of the crew members how it was 
going, how it was flying, what their thoughts were. And they 
seemed to love it, they seemed to think that it was performing 
well, that it gives the Marines capabilities that they don't 
have, or they didn't have, with the CH-46 [Boeing Vertol Sea 
Knight transport helicopter].
    And since the Air Force Special Operations Command has the 
CV-22, I'm curious, in spite of the crash that occurred in 
Afghanistan where we, unfortunately, lost four crew members, 
I'm curious to know your assessment of the CV-22. And if you 
have any information as to the operations that are ongoing in 
Afghanistan, that would probably be very useful for us.
    General Schwartz. Congressman, the airplane does things 
that a conventional helicopter could never imagine doing, and I 
have some experience in this area. In our case, it succeeded 
the MH-53J Pave Hawk helicopter or Pave Low helicopter, I'm 
sorry, a very good machine in its own right. But what this 
combines is the capacity to go vertical in tight spaces as well 
as have a block speed that's like a turboprop; and so you can 
get to locations quickly and operate in a vertical dimension, 
which is unlike any other platform that we've ever operated. It 
is performing well; and there is great confidence, not just by 
the air crew, sir, but also by the shooters, by the people who 
get to the target via this mode of transportation.
    The only thing I would mention is that we have experienced 
greater-than-expected wear on engines. In part, this is due to 
the environment in Afghanistan; in part, it's because we think 
we need a particle separator apparatus on the airplane. But the 
bottom line is we're working the engine issues with both Rolls, 
who is the manufacturer, and Boeing, who is the prime, and 
we'll fix that in time.
    Mr. Reyes. Is there a process in place that gives feedback 
in terms of perhaps some of the concerns that some Members of 
Congress--and I ask this because we just had a vote on this a 
couple of days ago, and members are asking questions about the 
operation of the aircraft, the feasibility and that. So I'm 
curious to know if there is a way that you can provide the 
crews and the feedback from those involved in the operation of 
this aircraft to us.
    General Schwartz. Sir, we would be happy to gather the sort 
of anecdotal testimony, if you will, from the operators and 
maintainers; and we'll put that together for you.
    [The information referred to can be found in the Appendix 
on page 94.]
    Mr. Reyes. Thank you.
    Mr. Chairman, I was referring to the Osprey that we flew in 
in Afghanistan. We talked to the crews, and it seemed to be 
performing up to the expectations. But I think, in lieu of that 
vote that we took earlier, I think it would be beneficial to 
get some feedback for Members of Congress so that they could 
see.
    Thank you, and I yield back. Thank you, gentlemen.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    It's my understanding that next week perhaps we're going to 
get an announcement on the tanker, the long-overdue tanker. But 
I've also heard the rumor that the Air Force has decided to 
issue or the DOD has decided to issue a stop-work order 
immediately after the announcement because of an anticipated 
protest from whoever loses. Please tell me that's not so.
    Secretary Donley. Sir, we have resources available to put 
against the engineering and manufacturing development contract 
that will go with the source selection on the tanker, and we 
will modulate the funding for that based on where we are in the 
process.
    Mr. Rogers. There's going to be a no stop-work order issued 
then.
    Secretary Donley. We're going to modulate the funding for 
EMD [Engineering and Manufacturing Development] based on where 
we are in the process. We will be just days after this source 
selection process and just days into a signature of a contract, 
so there's going to be no appreciable effect on the ramp, if 
you will, in the immediate days after the decision.
    Mr. Rogers. I just know I'm sure you have a full 
appreciation of the fact that everybody on this committee wants 
to see that tanker start being built. Talking about the best 
Air Force base in America, Maxwell--I'm sorry. I was mistaken. 
It's the best Air Force in the world--are you aware of the dorm 
problems they're having for the visiting students that is 
grossly underavailable and in some of the dorms that we've got, 
they are pretty antiquated? I know that everybody in a blue 
uniform in here has been to Maxwell if they're an officer, so 
you're probably familiar what I'm talking about.
    Secretary Donley. I have seen the dorms at Maxwell. I'm not 
aware of the current problem. But we do have a dormitory master 
plan across the Air Force that has tiered the requirements and 
the sequence of our investments for dormitories. I'm sure it is 
in that mix.
    Mr. Rogers. I hope you will. I know you've got a lot of 
things to do, but if you could visit that plan and just look 
and see if you do have something in the near future to address 
the shortage that we've got at Maxwell, I would appreciate it. 
And then just have one of your staffers let me know like what 
outyear you see that target being hit.
    And then, lastly, can you talk to me a little bit about 
your future planning for professional military education 
efforts, specifically at Air University in Montgomery?
    General Schwartz. Sir, we certainly don't anticipate any 
change. I mean, as you're well aware, we have everything from 
Air and Space Basic, to Squadron Officer School, to Air Command 
and Staff, to Air War College, the School of Advanced Air and 
Space Studies. I mean, it is--you know, I didn't end up going 
there because I didn't qualify, but it is the intellectual 
capital of the Air Force. Those courses are essential. And we 
also do more near-term activity there, including one commander 
courses, group commander courses, preparing people to lead. So, 
Congressman, there will be--there's no expectation of altering 
the footprint of education and training activity at Maxwell.
    Mr. Rogers. Excellent. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, again, for being before us.
    Space is increasingly congested, competitive, contested, 
and the level of funding for the space situational awareness, 
or SSA as we all know it, is 27 percent lower than the fiscal 
year '11 request level, and it's also lower than the fiscal 
year '10 request. So my questions to you are, does this reflect 
a decrease in our focus on SSA, and how do the recent 
agreements with France and Australia support progress on SSA?
    Secretary Donley. Well, Ms. Sanchez, space situational 
awareness is a foundation in the space domain, and it is a 
mission of growing importance not just to the Air Force but to 
the joint community as well as we turn our attention to this 
domain, as you described the words out of the national security 
space strategy.
    Immediate funding for space situational awareness was 
impacted by a programmatic decision that we made this year not 
to proceed with SBSS [Space Based Space Surveillance] Number 
Two. We had launch of SBSS One last year. It has been 
successful. But the cost and the capability that we intended to 
get from SBSS Two did not match, in our view. So we cancelled 
that SBSS Two. We are now in the process of evaluating what 
comes after and seeing if we can develop more cost-effective 
solutions going forward.
    So that was really the main driver in the change in SSA 
funding, but it reflects no diminishment of our interest in 
this mission there. It is a very important one going forward, 
and I think the reference you made to the international 
agreements recently signed with both Australia and France is 
evidence of that.
    Part of our strategy going forward is to do this work more 
effectively with international partners and also commercial and 
industry partners where we can. So part of our emphasis in the 
space community is to recognize that we cannot do all this work 
alone and to build the necessary partnerships that will support 
our interests and our pocketbooks going forward.
    Ms. Sanchez. General, are you fine with that answer?
    General Schwartz. Yes. I would only add that, on the Space 
Fence side, there was no change. In 2015, the so-called Space 
Fence, the ground--the surface surveillance capability of space 
will proceed as was previously programmed.
    And, in addition, there is an aspect of this that has to do 
with the space operation center out at Vandenberg and the 
capacity to understand the potential for collisions and so on 
and so forth and be able to share that both with industry 
partners as well as appropriate international partners, too.
    Ms. Sanchez. My other question has to do with the 
industrial base, the space industrial base. Obviously, as a 
Californian, I'm very interested in that.
    We continue to tell our people don't worry about losing 
jobs in factories, making televisions, because, you know, we're 
putting more money into education, we're doing the new, new 
thing. A part of that is, of course, the space industrial base. 
So my question is, can you talk a little bit about what the 
plan is for sustaining the space industrial base and making 
sure that we take full advantage of commercial space industry 
resources as well? Because it seems--I mean, these things cost 
quite a bit of money. How do we make that more cost-effective 
and really continue to be a leader when it comes to these 
assets of space?
    Secretary Donley. I think, as the chief discussed a little 
bit earlier, we have sort of two--several lines of work under 
way to focus on this challenge. We do recognize the importance 
of this base. We do recognize the challenges that it has faced 
in the way that the military and other parts of our government 
have bought both launch services and satellites.
    So, on the launch side, we've added money to EELV to 
normalize that program in the out-years, focused on trying to 
stabilize the industrial base and also our costs going forward. 
So we have worked closely with the National Reconnaissance 
Office and with NASA based on some work done by the Defense 
Science Board to identify the minimum number of launches that 
need to be covered each year.
    That number is about nine; and between the Department of 
Defense, NRO, and NASA we have coordinated on a memorandum of 
understanding that will provide for our continuing coordination 
going forward to fund that minimum level. We need to go work on 
the cost and the pricing that go with that.
    But, fundamentally, on the launch side, what we have done 
is to decouple our approach to launches and to payloads. And in 
prior years we had focused on not buying--always having the 
launcher tied to the payload. And so when we had payload delays 
the requirements for launchers, as the chief described earlier, 
went up and down wildly. And this perturbated the industrial 
base and cost us more money. So our approach now is to buy the 
launchers independently, ensure we have a stable base going 
forward, and hold for later decision the timing of when the 
launchers and the payloads get married up together.
    That explains sort of the launch side.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    I know that you are both aware that the ECSS [Expeditionary 
Combat Support System] program is a major part of an important 
initiative known as the Expeditionary Logistics for the 21st 
Century, a strategy that is expected to result in a 10-percent 
cost savings of at least $12 billion when fully fielded over 
the Future Years' Defense Programs for the Air Force.
    The program is currently undergoing a Critical Change 
Report, CCR, process that has extended beyond the original 
forecasted completion date and certainly is questioning the 
program's funding. I know that both of you are aware that one 
of the reasons why the program is undergoing a CCR is because 
it experienced an 18-month delay due to contract protests and 
an additional 9-month replanning delay, neither of which were 
caused by the program itself. Further delay, obviously, would 
result in some interruptions in the program.
    I would like, if you would please, for both of you to 
comment on the status of the program. I think we certainly have 
had a significant amount of comment, positive comments that 
have been made about the program and what it will accomplish on 
behalf of the Air Force in the past; and I would like to know 
the status.
    And then, as you gentlemen are aware, I'm the chairman of 
the Strategic Forces Subcommittee; and, in looking at the 
budget, I have several questions. I'll give them to you all at 
once.
    With respect to the new bomber, obviously, from the 
perspective of my subcommittee, we're very curious as to 
whether or not the first lot of these new bombers will be 
nuclear capable and nuclear certified.
    With respect to the issue of dual-capable aircraft, does 
the fiscal year '12 request contain funding to make the Joint 
Strike Fighter nuclear capable?
    And with respect to ICBMs [intercontinental ballistic 
missile], does the fiscal year '12 request contain funding for 
an ICBM follow-on study?
    And then with respect to cruise missiles, does the fiscal 
year '12 request contain funding for a follow-on air launched 
cruise missile and will it be nuclear capable?
    Gentlemen.
    General Schwartz. Sir, why don't you let me give that a 
try; and then you can fill in the blanks.
    Sir, on the expeditionary combat support system, it is an 
enterprise resource planning system, it's an ERP, and it's an 
important one. It is something that all of you here who 
understand big business know that, to really be able to monitor 
the numbers, you've got to have a system like this. But they 
are hard. They are difficult to implement, and they're 
difficult to fuel, and they are not cheap. And you know we have 
struggled a bit to try to get this up and running.
    We have now two modules which are running. One has to do 
with transportation and vehicle management. The second one has 
to do with inventory management at the installation level. The 
third one is a harder one that has to do with supply chain 
management.
    And so we have looked at this extensively; and it's our 
view that this is something, as hard as it is, that we have got 
to stick with. And so you will be hearing that from the 
Department. I think that we request Congress' forbearance to 
press on, even though our performance to date has been 
lackluster, to be candid.
    I would only mention, in addition, that this is part of our 
strategy for achieving a capability to be audit-ready. You 
can't be audit-ready if you can't smash the numbers, and this 
is one of the vehicles for doing that, sir.
    The second thing, on the bomber. It will be nuclear-
capable. It probably won't be nuclear-certified at the outset. 
F-35 DCA dollars--that's dual-capable aircraft dollars, sir--
are not in the '12 program. That is a decision that's further 
out. It's probably '14, as opposed to '12.
    On the ICBM, we currently have a mission analysis under way 
that will lead to a formal analysis of alternatives in '13; and 
that's when it will be funded.
    And, finally, on the ALCM [air launch cruise missile], 
there's about $800 million in the '12 proposal for a follow-on 
air launch cruise missile; and, likewise, there's an analysis 
of alternatives under way that will conclude in '13.
    Mr. Turner. And will that follow-on be nuclear-capable for 
the cruise missile air launch?
    General Schwartz. Clearly. The purpose for the follow-on 
air launch cruise missile is the nuclear capability, yes, sir.
    Mr. Turner. Excellent. Thank you so much.
    The Chairman. Thank you so much.
    Ms. Bordallo.
    Ms. Bordallo. Thank you so much, Mr. Chairman and 
Secretary; and, General Schwartz, thank you for appearing today 
and service to our country.
    I represent Anderson Air Force Base, one of the finest and 
most scenic Air Force bases in the country.
    Just a comment first, gentlemen. I remain extremely 
supportive of the C-27J [Alenia Spartan military transport 
aircraft] program, but I remain deeply concerned about the 
program cut from 78 aircraft to 38. So I hope that we will 
continue to examine the lack of rationale for these cuts and 
work toward ensuring that we have a truly functional tactical 
airlift capability.
    Now, my first question is for either witness. As you know, 
the Navy signed a record of decision on the Guam military 
buildup back in September of last year. As the Department 
continues its planning with regards to land acquisition, I 
remain skeptical that deals can be reached on Guam without 
significant changes to the Navy's plans. Further, the footprint 
of the Marines on the east coast of Guam to accommodate firing 
ranges is inconsistent with local land use. A contiguous Marine 
base is not likely attainable, and the land issues involved in 
achieving a base are daunting. So, as such, to what extent is 
the Air Force working with the Guam Oversight Council and the 
Department of the Navy to utilize some of Anderson Air Force 
Base for Marine basing requirements? What type of challenges or 
impacts should the committee be aware of if some marines are in 
the main cantonment area and some are on Anderson?
    General Schwartz. In fact, Congresswoman, they will be on 
Anderson. On the west side, Marine aviation will have its own 
area that they will use.
    At the same time, however, I think it's important to 
recognize--and I know you appreciate this--that Anderson is a 
strategic location and that what we need to do is not think 
about trying to dense-pack Anderson, but, rather, we also need 
to consider what likely contingencies might unfold and what 
might have to fall in on Anderson in the event of such a 
contingency. So we want to make as much of Anderson available 
as is prudent but not so much that we constrain future 
contingency operations. This is the tension.
    Ms. Bordallo. I understand.
    General Schwartz. And something that we do need to keep in 
mind.
    With respect to the contiguous nature of the Marines and so 
on, again, our approach has been to be as supportive as 
possible. And what we have asked the Navy and the OSD [Office 
of the Secretary of Defense] folks that are working this 
problem is to consider all the Federal properties, not new 
properties but existing Federal properties, for potential bed-
down locations for the Marine Corps presence.
    Ms. Bordallo. Very good. Thank you, General.
    My second question is for either the Secretary or the 
General. Can you update this committee on the progress of 
filling Air National Guard units with missions, particularly 
flying missions, that were lost to the result of BRAC [Base 
Realignment and Closure] 2005 decisions? What is the progress 
on this issue? I remain concerned that there are still Air 
Guard units with bridge missions and that we continue to 
hemorrhage flying capabilities out of these units, and I hope 
you can continue to work with me on a flying mission for Guam. 
We are missing a key capability out there.
    Secretary Donley. Well, we continue to work those issues 
location by location. The simple fact is that many of the units 
that have been in the fighter business over the years, the 
fighter force structure has been shrinking over time. So we are 
looking at alternative missions going forward.
    We've used the MC-12s to work through those issues. We've 
used the C-27s to work through those issues. The MQ-1, MQ-9 
[General Atomics Reaper unmanned aerial vehicle] bed-down 
issues all have been part of our considerations as we take--
where we do have new capability and new resources coming into 
our force structure.
    But the one-for-one replacement models are simply not 
feasible going forward anymore. So we're having to--as we shed 
legacy aircraft or missions, we have to bring in the new 
capability and find homes for those; and we certainly want the 
Guard and Reserve to be part of that work.
    Ms. Bordallo. Thank you very much.
    Mr. Chairman, I have further questions, but I would like to 
have them entered into the record. And I yield back the balance 
of my time.
    The Chairman. Thank you very much.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    Gentlemen, welcome today. Thank you for coming. Secretary 
Donley, General Schwartz, thank you for your service to our 
country.
    First of all, I want to comment or just thank you for the 
fact that we are moving forward now finally on the new-
generation penetrating bomber. It's good to see that finally up 
and going.
    But I am concerned about some long-range issues and 
certainly in terms of our nuclear strength. While our nuclear 
enterprise strength today is strong, there's one area of 
concern that I have, and that has to do with the weapon storage 
area. As you know, following very serious instances in 2006 and 
2007 involving nuclear weapons in key components, the Air Force 
embarked on a top-down review of the nuclear mission; and a 
number of investigations and reports explored the root causes 
that led to the atrophy and decline in the nuclear enterprise.
    One of the common conclusions of those reports was a 
negative impact on nuclear readiness that resulted from the 
closure of the Barksdale WSA [weapons storage area] in 2007. 
With respect to that decision, let me paraphrase from Dr. 
Schlesinger's report: The closure of the weapon storage area at 
Barksdale was a significant mistake with a negative operational 
impact. It created the requirement for bombers to train and 
exercise from their home station--far from their home station, 
resulting in operational complications. Nuclear munitions 
training and proficiency were severely impacted owing to the 
inability of training weapons to stimulate the real thing--to 
simulate the real thing. Only from a global nuclear deterrence 
perspective do the ramifications of this become clear.
    The task force strongly encourages the Air Force to revisit 
the Barksdale WSA closure decision. We arrived at that decision 
in 2008 to recertify the Barksdale WSA. That was part of the 
Air Force's nuclear roadmap, which included the establishment 
of Global Strike Command, which of course since has been stood 
up at Barksdale, and an Air Force directorate to coordinate 
nuclear issues. And the Air Force went as far as requesting $73 
million in funding for the project in the fiscal year '10 
budget request. However, the project has not moved forward, and 
I do not see any funding for it in this year's budget.
    Just to encapsulate, the nuclear weapons are at Minot, many 
of the nuclear bombers are at Barksdale, and a potential 
adversary know this. And the whole idea was not to centralize 
all of our weapons, of course, in one WSA in Minot and to at 
least put some at Barksdale. So my question is, first of all, 
for General Schwartz, does the Air Force still intend to move 
forward with this project?
    General Schwartz. No, sir, we don't. And it is true that 
the initial assessment in the 2008 timeframe was that was the 
right thing to do. But when we ultimately discovered that it 
was a multi-hundred-million-dollar undertaking to make that 
come true, given the other demands to deliver the precision and 
reliability throughout the enterprise, we decided that that was 
not sustainable.
    And I acknowledge Dr. Schlesinger's view, and we have 
talked to him about that then and since. But the evidence that 
we have collected to this point in time through evaluations, 
inspections, and so on--I don't deny that the optimal solution 
would be to have two WSAs. But the reality is that we had other 
more pressing matters to attend to--reliability on the 
aircraft, reliability on the missile systems, and so on--that 
required investment that out-prioritized the WSA.
    Dr. Fleming. Do we, sir, have any mitigating concepts, 
anything else that might obviously solve that problem for us?
    General Schwartz. We think we have. We have implemented 
that.
    As you're aware, we move the airplanes and the crews from 
Barksdale to Minot on a regular basis. They have access to 
actuals. But, of course, at home, at Barksdale, they have 
access to trainers. And so the bottom line is that we think 
that--and so far the evidence we have collected in terms of 
observing proficiency, professionalism, and so on--is that the 
current solution is workable.
    Dr. Fleming. If I could quickly ask, is that a final 
decision or is it possible this could be opened up in the 
future?
    General Schwartz. I would say that in this business no 
decision is really ever final. But it would require Jim 
Kowalski and Global Strike Command to come to the conclusion 
that this was essential for them to maintain the level of 
proficiency that's required, and that has not yet occurred, 
sir.
    Dr. Fleming. Thank you very much, and I yield back.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman; and thank you, Mr. 
Secretary and General, for joining us here today.
    First, on behalf of my constituents, I want to express my 
gratitude for the hard work, courage, and sacrifice of the men 
and women of the Air Force. These aren't easy times for those 
who serve, and on behalf of Georgia's Fourth District I thank 
you all for your service.
    I would like to focus for a moment on Air Force 
procurement, because dysfunction in this area is of serious 
concern.
    Secretary Donley, there were 12 years between the launch of 
Sputnik and the landing of Apollo 11 on the moon. It's taken 
nearly that long to develop and procure a new tanker for the 
Air Force, and on the spectrum of programs that the Air Force 
is developing the KC-X is one of the least technically 
challenging. Respectfully, I think our collective inability to 
develop new military systems in a timely manner is a national 
embarrassment and a huge strategic weakness. We on this 
committee bear responsibility for that, but so does leadership 
at the Pentagon.
    Secretary Donley, why has KC-X development and selection 
taken so long and when do you foresee that we will finally be 
able to deploy?
    Secretary Donley. Well, as you alluded to, sir, the current 
KC-X source selection is actually the third attempt of the Air 
Force in about the last 9 years or so; and the first were 
marred by irregularities that caused them to be thrown out, 
essentially. So we're--but we think we're back on track. We've 
worked very hard to focus on strengthening our acquisition 
workforce, and putting the right KC-X team together for us has 
been the acid test from the very beginning.
    In bringing back the tanker program from the last GAO 
protest which was sustained in 2008 and caused us to go back to 
the drawing board, we've worked very carefully inside the Air 
Force acquisition system and with our colleagues in OSD to put 
together the right team of people with the right experience and 
gravitas to oversee this very important program.
    It is an important program to us. The average age of the 
tankers, as you suggested, is about 48, 49 years old; and that 
explains why it is our highest acquisition priority at this 
point in time.
    I would say I couldn't agree with you more on the challenge 
to our acquisition system at a strategic level of taking so 
long and having to pay so much for the new systems that we buy. 
There is no doubt that what we are procuring across the board 
in our Air Force represents significant increases in capability 
for our Air Force and will stand us in very good stead going 
forward. But sometimes the costs, the prices we pay for that 
are certainly more than we would like. And the increases in 
costs, combined with the length of time that it takes, works us 
into a spiral where it takes longer and longer to get these new 
systems field; and I do agree with you that this is a strategic 
problem for the United States.
    In the case of the tanker and several other of the programs 
that were referenced today, the bomber programs, for example, 
those programs like the KC-135 [Boeing Stratotanker] were built 
in numbers 30, 40 years ago when the United States spent 8 
percent of gross national product on defense. And while we do 
not need to build as many as we had in the '50s and '60s, we 
are now trying to recapitalize those forces on a much smaller 
base of the Nation's economic strength. So we're more in the 
neighborhood of 4 percent of GDP [Gross Domestic Product], 
instead of 8 percent of GDP. So these programs are getting 
spread out and taking much longer than we would like.
    Mr. Johnson. Okay. Point well taken.
    A question to General Schwartz. Is less than 200 F-22s 
enough to ensure U.S. air superiority for the next three 
decades?
    General Schwartz. Sir, the short answer is we at the time 
made a case for somewhat more than 187 aircraft, but that 
decision is behind us. We now need to move on. We need to get 
the F-35 into the fleet. And 187 F-22s, provided we do the 
improvements that are in the program, the F-22 improvement 
program is probably one of the six or seven largest procurement 
efforts we have under way. That's to bring it up to weaponize 
it the way it needs to be weaponized and improvements for 
reliability and maintainability and so on.
    The bottom line is it's a smaller fleet than we would like 
to have had. That's behind us. The object now is to make sure 
that the airplanes we have can kick ass and that we can keep 
them in the air.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman; and, Mr. Secretary 
and General Schwartz, thanks so much for your service to our 
country.
    First of all, General Schwartz and Mr. Secretary, I want to 
thank you so much for achieving some cost efficiencies through 
consolidating commands. I think it's a great initiative on your 
part. And I want to ask you what further opportunities you see 
in terms of streamlining the top of the United States Air Force 
through consolidating commands or efforts to bring down cost.
    General Schwartz. There are a couple. In addition to the 
Air Operation Center effort that we talked about earlier, you 
know, we asked ourselves, for example, when you have two 
headquarters at the same location you have to ask yourself if 
that makes sense in the current environment. I mean, there were 
reasons for it, having the focus and so on, you know, one 
headquarters does management stuff, the other headquarters does 
operational stuff. But we came to the conclusion that that was 
no longer sustainable.
    So in the case of Third Air Force, for example, at Ramstein 
in Germany, where we have a major command headquarters, U.S. 
Air Force's in Europe, we're going to collapse that.
    The same thing is true at Hickam, where we have 13th Air 
Force, and Pacific Air Force is at the same location, is going 
to do that.
    In San Antonio, where we have the Air Education and 
Training Command and 19th Air Force, we're going to collapse 
that.
    You know, this wasn't really a stroke of brilliance. I 
mean, this was just recognizing that what was once a good idea 
was probably no longer affordable. And, importantly, it was 
probably less a function of dollars than it was about how 
precious manpower is right now; and we needed to free up 
uniform manpower to do the missions that are most pressing, 
like the 4,500 folks we put in the intelligence, surveillance, 
reconnaissance or 2,000 people into nuke or 1,000 into aircraft 
maintenance, that sort of thing.
    Mr. Coffman. Thank you, General Schwartz.
    Mr. Secretary, anything additional to add to that?
    Secretary Donley. Just to add that sometimes the 
opportunities are available on the business side as well. So 
another area of significant efficiencies for us is in the IT 
world where there is significant coordination going on across 
the services to collapse the number of data centers that we 
have operating across the Department and to get more efficient 
in the way we share IT resources and conduct our business in 
that manner.
    Mr. Coffman. Thank you.
    The Unmanned Air Vehicles, we're across the board in all of 
our branches of the military. We're becoming more and more 
reliant upon those platforms to do everything from tactical 
strikes to ISR. But the development is fairly fragmented. And I 
know there's been efforts in the past for the United States Air 
Force to take the lead in this issue. Can you tell me, if the 
United States Air Force did have the lead on UAVs, what kind of 
potential savings might there be in terms of the development of 
these platforms?
    General Schwartz. Sir, I don't think it would necessarily 
be substantial. And I have to tell you that this is an 
emotional issue that--I just don't know if it's worth it to go 
down this path.
    What Gary Roughhead and I from the Navy are doing I think 
is representative of what adults working together can achieve. 
He has BAMS [Broad Area Maritime Surveillance unmanned aerial 
vehicle], which is a version of our Global Hawk. And the 
question we asked each other is why should we have two 
different V posts for these airplanes? Why should we have two 
different training engines for these birds? Or, for that 
matter, why base them at different locations?
    And we've come together to do that ourselves without the 
Air Force asserting its dominion over remotely piloted aircraft 
across the department. I, frankly, think that's a better 
strategy to do this; and certainly the budget challenges we 
face are motivating us to do this.
    Mr. Coffman. Well, I think you mentioned satellites, that 
you're working across jurisdictional lines across branches of 
the Service and other governmental agencies in terms of the 
development of the satellites, and that's leading to a savings. 
It would seem to me that if we could derive a savings on the 
development of these satellites we could also derive a savings 
on a better coordination with the development of UAVs and one 
Service taking the lead on it.
    General Schwartz. I think better coordination is required. 
You're absolutely right on that, sir. And we're endeavoring, 
particularly between the Navy and the Air Force, to do that.
    Mr. Coffman. Just one last question. For the record, if you 
could update us on those States that aren't--on the F-16s for 
those States that have F-16s for their Air Guard and where the 
process is on the F-35, obviously, specifically, in my case, to 
Colorado.
    I yield back, Mr. Chairman.
    [The information referred to can be found in the Appendix 
on page 98.]
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. I'm running around 
here today.
    And certainly, Mr. Secretary and General, good to have you 
here, and thank you so much for your service.
    I wanted to ask you about end strength and the fact that 
we're obviously pleased that you do such a great job in 
recruitment and retention, but that creates some real 
management problems for you. Could you talk a little bit more 
about that? And I think there was a concern that while you're 
looking to have both voluntary and nonvoluntary--what's the 
word--separations, right?
    Secretary Donley. Incentives.
    Mrs. Davis. Yes. That's a nice way of putting it. But 
separations at the same time in the fiscal year '12 budget 
you're looking to increase by 600. Why that kind of 
discrepancy?
    Secretary Donley. Just quickly on the 600. The increase in 
Active Duty end strength by 600 is driven by the results of the 
Authorization Act last year which denied the Department's 
request to convert officers associated with a defense health 
program from military to civilian. That was our--we requested 
to do that. The Congress denied us that. So we reverted them 
back to uniformed slots. So that's the reason for that change.
    What you've alluded to more broadly is our current and most 
immediate personnel challenge in the Air Force, which is that, 
given the state of the economy, airmen are not leaving the Air 
Force at normal rates of attrition and so we are operating 
above our authorized end strength, particularly for officers. 
We recognized this problem last year, and we did take action, 
both voluntary and involuntary, to get ahead of this problem, 
but we did not make enough progress. We made only enough 
progress really to tread water, and the problem has gotten even 
more difficult this year. So we do have force management 
actions planned for later this year and into fiscal year '12 
that will get our end strength down to the authorized levels.
    General Schwartz. I would just comment that this is 
painful. I mean, here we are in the middle of the war, and 
we're trying to encourage people to move on, but we have to do 
it. We cannot operate above our end strength, given the other 
pressures that we have. Because, obviously, we have to take 
resources from elsewhere to make that work.
    So I think the key thing here, ma'am, is that we are asking 
for certain authorities which go back to the case of the '90s 
when we had a similar situation and the Congress gave us 
temporarily certain authorities that enabled us to better 
manage the reductions that we seek to achieve. And, again, we 
would do this with compassion and with precision, but we need 
to do it.
    Mrs. Davis. How do you work with families through this 
then? Is it different from other transitions that families go 
through?
    General Schwartz. I think it's similar. You know, we have 
transition assistance programs. Clearly, it's more difficult, 
though. If someone leaves voluntarily, the psychology is 
completely different than when we ask someone to leave 
involuntarily.
    And so the important thing we're trying to do is indicate, 
as difficult as this is and it was a tough decision for the 
Secretary to take, that this is for the future of our Air 
Force, and we need you to move on, and we'll do all we can to 
make it as soft a landing as possible, but that we have to do 
it.
    Secretary Donley. Ma'am, if I may just add for a moment, 
with respect to the additional authorities that we need, we're 
still working with the Office of the Secretary of Defense to 
put together that package. We are hopeful that that will get 
over here to the Congress soon. Understanding the normal 
legislative cycle, we have flagged this as something that we 
would like to ask your consideration of early and to identify a 
legislative vehicle against which we can tag these authorities 
early in the year, hopeful that perhaps we could get the 
authorities in place before midyear as we start making--going 
into boards and such later this summer. If we do not miss--if 
we do not get the authorities this year, we'll miss a cycle. 
We'll pick it up next year, but it would be better if we had it 
earlier.
    Mrs. Davis. And you're saying this is a majority of people 
or officers that are in the services and not in specialty 
positions then, because you've had special authority to 
recruit.
    General Schwartz. We are being careful about limiting or 
sort of protecting certain categories of officers. For example, 
we are protecting certain nurse specialties because they're in 
very short supply and they're essential. But we're protecting 
Catholic chaplains for the same reason, but it's very few, 
because we are serious about trying to get this behind us.
    The Chairman. Thank you very much.
    Mr. Scott.
    Mr. Scott. Thank you Mr. Chair, Mr. Secretary, General.
    As I've traveled and looked at the bases and listened, 
whether it's the Air Force or another agency, and talk about 
the procurement process and running bases, EPA [Environmental 
Protection Agency], OSHA [Occupational Safety and Health 
Administration], disgruntled voters, is there any way to 
calculate the cost of these burdens on our operational 
capabilities as a country in protecting our citizens?
    Secretary Donley. Well, Mr. Scott, certainly we can try to 
put an estimate together of that. It is the policy of our Air 
Force to be environmentally responsible and to provide safe and 
healthy working conditions for our employees, so we want to 
understand how well we're doing on that and we need to monitor 
that inside our Air Force. But I don't think I've seen any 
estimates on the overall cost of that across our Air Force, but 
we could see if we can get you some more information on that 
front.
    [The information referred to can be found in the Appendix 
on page 98.]
    Mr. Scott. Don't spend a bunch of money. The tanker is more 
important right now.
    I would like to move, gentlemen, if I could, to the airlift 
capabilities of the Air Force long-term with no more purchases 
of the C-17. What effect does that have on our capabilities 
going forward, as much as we're flying the plane?
    General Schwartz. I think we collectively--I certainly have 
this view--came to the conclusion that the 224 C-17 wasn't as 
much--wasn't as valued as the first KC-X was going to be. That 
is sort of the situation we're in, and it's a question of 
marginal value to defense overall. And so I think where we are 
with a mix of C-17s, 223, 222 of them, and the remainder C-5s 
[Lockheed Galaxy transport aircraft], some of which will be 
reengined, some of which currently are not, satisfies the peak 
demand that we forecast for a crisis power projection scenario. 
I think that is a moderate risk force for us, and it allows us 
to devote the resources to procuring the new tanker that we 
need at 15 a year.
    Mr. Scott. If I could, moving to the Middle East, how close 
is our relationship, Air Force to Air Force, with Israel?
    General Schwartz. Very close, sir.
    Mr. Scott. Is there any room for improvement there or is 
that something where we work hand in hand daily?
    General Schwartz. You have to ask Ido Nehoshtan what he 
thinks, but I believe that he and I, as individuals and 
certainly as two Air Forces, are very close together. We share 
our secrets, frankly, you know, our tactics and techniques, and 
so on and so forth, consistent with policy; and I think that 
Ido would tell you that we are his best partner.
    Mr. Scott. General and Mr. Secretary, we would like to have 
you at Warner Robins, Robins Air Force Base, as my guest and 
the people's guest down there on short order.
    And, with that, I will yield the rest of my time, Mr. 
Speaker.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I'll just mention the tanker and leave it at that. I'm not 
sure I need to say anything more. Where am I from? Thank you.
    Page 12 of your testimony discusses electronic warfare as 
well, but that's something else I'm obviously very interested 
in. On the C-130 [Lockheed Martin Hercules transport aircraft] 
to compass call, or craft conversion, will that result in these 
new compass call--these converted C-130s being strictly compass 
call mission or will these be on call for a compass call? How 
do you envision that?
    General Schwartz. The conversion of the additional compass 
call airplane will be a dedicated asset.
    Mr. Larsen. It will be a dedicated asset.
    General Schwartz. It will be a dedicated asset.
    Mr. Larsen. And these will be active Air Force assets, not 
Reserve, not National Guard?
    General Schwartz. That's correct. One of the things under 
consideration is having an associate relationship, but that's 
not yet final, by any means. So, initially, that converted 
aircraft will be Active Duty.
    Mr. Larsen. And then MALD [Miniature Air Launched Decoy] 
and MALD-J [Miniature Air Launched Decoy-Jammer] are in 
production?
    General Schwartz. MALD and MALD-J certainly are in the 
program. The MALD version is in production. J will come along 
here. It is fully funded, because it is one of those aspects of 
our electronic attack effort that goes along with the long-
range strike family systems.
    Mr. Larsen. And increment two, what's the timeline for 
that?
    General Schwartz. Sir, I'll take that for the record, with 
your permission.
    [The information referred to can be found in the Appendix 
on page 98.]
    Mr. Larsen. Great. On page 20, you talk about your regional 
partnerships. I had a chance to be out in Air Force Pacific 
last May and had a chance to talk with Admiral Owens about the 
things we are doing. It's great. Do you have a particular 
regional focus in your regional partnership?
    General Schwartz. In fact, one of the things we've done is 
in our contingency response groups we have attempted to focus 
them along combatant command lines. And what that allows us is 
to specialize on the language skills on the sort of cultural 
awareness and what have you and it's very good.
    Obviously, the one that's in Europe focuses on that area, 
the one at Anderson and the Pacific focuses on the Asian 
region, and the CONUS [continental United States] one splits. 
But I think clearly this is an area where we are committed.
    As you know, in the budget we have a proposal for a light 
lift platform, a new start in '12 with the Congress' consent on 
a light strike platform. But, fundamentally, this is about 
enabling other Air Forces that are not as sophisticated as ours 
or our near-peers to build their capacity to defend their own 
airspace.
    Mr. Larsen. So will the light lift and light strike be 
strictly for partners?
    General Schwartz. That is our proposal sir. It would be for 
training our air advisors, and it would be for introducing a 
less complex, a more readily simulated platform into these 
partner Air Forces that can neither afford nor maybe have the 
technical capacity to operate F-16s, for example.
    Mr. Larsen. Sure.
    With regards to DELV [delivery], I understand there's a 
pretty significant increase in that over '11 or '10, or 
whichever budget you're operating under today. We should be 
taking care of that tonight, I think. One step closer.
    But the effort by the Air Force to increase access to space 
by making these launch vehicles more affordable and reliable is 
important. But I have concerns from some folks how the Air 
Force is--how is the Air Force ensuring that companies such as 
Space X, which is going to be part of that new industrial base 
that's out there on satellites, as well as there's other 
competitors out there, too, that are not traditional larger 
contract competitors, how are they being given access to 
contract competition as a way of promoting lower cost for that 
program or any other satellite programs?
    Secretary Donley. We are working through the issues of what 
certification will be required for commercial partners to enter 
the space launch work. So there is more to follow on that.
    NASA has had more of the lead in that. They are further 
along. I met with the National Reconnaissance Office the other 
day on some of these subjects. We are also tracking NRO and 
with NASA in terms of developing criteria for certification 
going forward.
    Mr. Larsen. I would just note, these folks might be new to 
this, and so I think you need to keep that in mind, as well.
    Secretary Donley. They are, but, you know, we are very 
focused on mission assurance. And as I think the chief has 
mentioned previously, we don't necessarily want to take a $2 
billion satellite and put it on top of a launcher that is a 
first-time effort for someone.
    Mr. Larsen. Right.
    Secretary Donley. Thanks.
    Mr. Larsen. Thanks a lot.
    The Chairman. That is something I would want to talk to you 
about. You mean first time for the Air Force, not necessarily 
first time.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    And Secretary Donley, General Schwartz, great to have you 
back with us. We appreciate your service to our Nation.
    Secretary Donley, let me begin with you. I want to talk a 
little bit about our ability to project power, and specifically 
in light of China's efforts of anti-access. As you know, their 
efforts there are continuing to emerge. And it concerns me, 
when you look at our alliances and our security partnerships in 
those regions, about our ability to project power into the 
future, especially in how it affects our ability in areas like 
the Western Pacific and where we are going in the future.
    Let me ask this. As we look at our ability to project 
power, I know we have the next-generation bomber coming on line 
some years into the future, you do have scheduled, though, to 
retire the B-1 [Rockwell Lancer strategic bomber], and retiring 
the B-1 as excessive of requirements. It seems like to me, 
though, that there is a gap between the retirement of the B-1 
and the introduction in a serviceable form of the next-
generation bomber.
    Can you elucidate a little bit for us about how we are not 
going to lose the ability to project force during that period 
of time when we are retiring the B-1 and as we are bringing the 
next-generation bomber on line?
    Secretary Donley. Our bomber forces are managed very 
carefully inside of our force structure. We recognize the aging 
challenges, the maintenance challenges that go with each of the 
platforms, which comes from a completely different generation 
of technology despite all the upgrades that they have had over 
the years.
    We have not made a decision on retiring the B-1. The 
proposal in fiscal year 2012 is to reduce the fleet from 66 to 
60 aircraft. So it is to reduce the fleet by six aircraft. 
There are savings that are harvested from that. We believe 
that--we have, sort of, been through the analysis. The military 
judgment was that this is not an unreasonable burden on 
operational risk, this is something that we can do.
    And we also harvested dollars out of that, which we can put 
back into the B-1 for upgrading cockpit displays and other 
maintenance support aspects of this work that will help sustain 
the platform going forward.
    I have to say, this is not an unusual profile in managing 
inventories of aircraft, that over time they tend to shrink a 
little bit over time and you harvest the dollars to put them 
back into the long-term sustainability of the remaining fleet.
    Mr. Wittman. So that reduction of six, then, is going to be 
really where the movement is going to be?
    General Schwartz. And the remainder is 60.
    Mr. Wittman. Sixty, right, got you. Okay. Very good.
    General Schwartz, let me ask now--and I want to go from our 
bomber aircraft to our fighter aircraft. As we know, some 
challenges there, as you know, with the F-22 program being 
terminated, also now with the F-35 lagging a little bit time-
wise in being able to deliver those platforms to make sure that 
we can meet that requirement, also with the retirement of F-
15s, F-16s, A-10s [Fairchild Republic Thunderbolt II close air 
support aircraft]. You look at our fighter component, and you 
look at the recent developments in China with the J-20 [fifth-
generation stealth fighter jet], and you look at our strategic 
capability as it relates to fighters.
    My question is this: Does this scenario, does this justify 
the 124 F-35 reduction in the FYDP? And I just want to look at 
that in context of where we are going, especially with concerns 
across all of our groups of fighters.
    General Schwartz. In a perfect world, if the program was 
absolutely healthy, my answer would be ``certainly not.''
    But the reality is that the bottom-up review that Admiral 
Venlet did on the F-35, you know, yielded insights that suggest 
that, number one, the plant in Fort Worth couldn't produce 
those airplanes right now even if we wanted them to----
    Mr. Wittman. Right.
    General Schwartz [continuing]. And that there are issues in 
terms of development, less on our airplane--that is, less on 
the conventional takeoff version than the STOVL [Short Take-
Off/Vertical Landing] version, to be sure.
    But the reality is that, you know, where we are at right 
now is, I think, as aggressive as we can pragmatically be until 
the program picks up more momentum.
    And so we have 14 airplanes in flight test. Our acquisition 
of assets is 203 over the program period. And that is 57 less 
than it would have been for the Air Force. As you suggested, it 
is 124 system-wide.
    Mr. Wittman. Yeah.
    General Schwartz. I think, regrettably, that that is the 
right place for us to be, given the level of confidence that we 
have at the moment.
    I believe that the airplane is going to be the centerpiece 
of our tactical fleet, you know, in due course. But getting it 
into full-rate production has been a greater struggle than we 
imagined. And I think this is a time to be a little bit more 
conservative.
    Mr. Wittman. Okay. Very good.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you very much, Mr. Chairman.
    I was trying to remember the date that we had that 
wonderful lunch in Sacramento, Mr. Secretary.
    Thank you for coming out for Air Force Day and for a 
terrific show by the Air Force, General. You and your men and 
women did a wonderful job displaying the Air Force there in 
Sacramento when I was Lieutenant Governor. Thank you for that.
    I now have the joy and the pleasure of representing Travis 
Air Force Base. And I want to compliment all the men and women. 
I won't say--well, otherwise I would get a cheer out of some 
ex-Travis folks here. I will just let that go. But they did a 
terrific job in Haiti. And, I don't know, maybe a flight will 
be 5 minutes or so to the theaters of war. A lot of heart but a 
lot of good work, and we compliment you on that.
    We also compliment you on the efforts you are making for 
the community. You really do reach out. And the current effort 
under way to employ more local contractors is much appreciated.
    And I also want to compliment you on the new LiMA [Light 
Mobility Aircraft] program and the studies that are going on 
and the process you are going through to select the appropriate 
base. I have my favorite. I will let that go for a moment. But 
it sounds like it is going to be a very useful--and it fits 
into, I guess, your new tactical fighter, which looks pretty 
much like a Korean War fighter, upgraded significantly.
    In any case, I really don't have a question other than to 
compliment you on the work that you are doing and the service 
that you are rendering.
    And one more thing, since I have three minutes and 25 
seconds. I was shocked, delightfully, to hear your opening 
statement about the missile acquisition programs, that you are 
actually going to work with the other services, including NASA, 
for some sort of ``let's see if we can make it all work 
together.''
    I was on the Science Committee last year, and I don't think 
NASA was quite willing to do it when they started the hearings. 
At the end of the hearings, they were more willing to work with 
you on a more common platform and the satellite business.
    It is the way to go, and I want to compliment you for 
heading that way.
    Thank you, Mr. Chairman. I will yield back my time.
    The Chairman. Thank you very much.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General, in a few minutes, we are going to have another 
vote on another amendment cutting V-22. I realize this question 
is better suited for the Marine Corps, but there are five CV-
22s in the Air Force budget. Can you make a brief comment as to 
how that program is going and particularly how the aircraft is 
performing?
    General Schwartz. As I indicated earlier, sir, this is a 
capability we have never had before. We need to continue that 
procurement profile to the full 50 that the Air Force Special 
Operations Command expects to possess.
    We have had it in Africa. We have had it in Iraq. It is 
going to be headed out to Afghanistan shortly. In fact, it has 
been in Afghanistan, as well. Forgive me.
    I think the bottom line is that this is a machine that both 
the operators and the passengers--very important--you know, 
like to have in order to execute their missions. I would 
certainly say that there would be other things I would give up 
in the Air Force budget before the CV-22.
    Mr. Thornberry. Thank you.
    I want to go back to your conversation with Mr. Larsen 
about partnerships. Because, in addition to the idea that we 
could have some certain kinds of aircraft to help train other 
air forces, training is a part of that. In last year's defense 
bill, we had a provision to make it possible for the aircraft 
to bring some pilots to be trained here with the ENJJPT [Euro 
NATO Joint Jet Pilot Training] program from Eastern European 
countries. But, in a larger sense, it just seems to me that all 
branches of the military are going to have to do more of this 
training with others. And that includes the education and 
training piece as well as the equipment piece.
    Are you all looking, whether it is that or other things, at 
creative ways to help these sorts of opportunities? Because 
some of these small countries don't have big budgets to send, 
to participate, whether it is to buy aircraft or to send pilots 
to train here. So it seems to me we are going to have to be a 
little more creative in sorting through these things, because 
it may be just one pilot from a country but he may be chief of 
staff of the air force before long.
    General Schwartz. Sir, that is absolutely true. Just a case 
in point, the current chief of the Indonesian Air Force was 
trained here in the United States. But he is the last of that 
genre, because there was a 12- or 14-year gap after he wrapped 
up his training. And he is now the chief.
    There is no question but that training we do, whether it be 
for piloting or infantry officers or, you know, intermediate 
service school, what have you, is playing the long ball. And we 
certainly are committed to continuing to do that.
    I can just give you, quickly--you talk about innovations. 
The Contingency Response Group that I talked about, their 
primary mission is opening expeditionary airfields. And they 
have cops and they have engineers and they have docs and air 
traffic controllers and so on. And what we decided was, when 
they are not opening airfields, they can be training and 
educating nascent air forces who need to develop these varied 
skill sets.
    So they now have this additional mission to grow other air 
forces. I think that is an indication of the innovation we have 
undertaken.
    Mr. Thornberry. Well, and we want to work with you for not 
only funding but legal authorities for those sorts of creative 
exercises.
    Last question. You were talking about personnel with Mrs. 
Davis. For some time, we have talked about some nontraditional 
authorities for certain categories of personnel. Cyber is one 
that is fresh in my mind. Because sometimes the folks you need 
to run cyber may not fit a traditional military profile.
    Is that something you all are looking at or have 
suggestions for where we can help you?
    General Schwartz. Sir, you are the expert on this, to be 
sure. But I think we do need to be a little bit more flexible. 
For example, thanks to the Secretary, there is an effort under 
way to allow people to go out of the Air Force to the Guard for 
a period of time and have the opportunity to come back into the 
Active Duty if that fits the way, you know, their lifestyle is 
unfolding.
    I do believe that having the additional flexibility on 
career paths will serve us well in terms of, you know, 
retaining the kinds of people we need. Right now it is not an 
issue. The economy is not, you know--is favorable in terms of 
retention. But when it turns, you know, that is when we will be 
competing for the best and brightest.
    Mr. Thornberry. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I was happy to hear your comments, General, on the V-22. As 
Mr. Reyes said earlier, we flew in Afghanistan on the V-22, and 
it was a great ride. And I know there were problems early on 
with the development, but now it is a good bird.
    General Schwartz. It is a proven platform, sir.
    The Chairman. Yeah.
    Mr. Griffin.
    Mr. Griffin. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General.
    I represent the Black Knights at Little Rock Air Force Base 
and would like to talk with you about the C-130 AMP, the 
Avionics Modernization Program.
    First, I would like to ask you--I think I know the answer 
to this, but I want to make sure--is there any risk to this 
program, to the AMP program, as a result of the efficiencies 
that you are implementing?
    General Schwartz. No, sir. The program is designed to do 
221 H2, H2.5, and H3 category C-130Hs, and that is what we are 
going to do.
    Mr. Griffin. Now, my understanding, General, is that in 
fiscal year 2009 there was funding, in fiscal year 2010 there 
was not funding. And so, right now, currently, it is not 
funded. Is that correct? That is my understanding.
    And I wanted to just--if you don't have those statistics, 
you may not be able to answer this. But what I am concerned 
about is, if the CR does not pass, I think there will be a 
funding gap. If I remember correctly, there was a Nunn-McCurdy 
breach a couple years ago or whatever, and the funding stopped.
    And so, if we stay where we are, there is no funding. If we 
get the CR passed, then there is funding. Is that a fair 
characterization of where we are?
    General Schwartz. We need to confirm this for you, but I 
believe that to be the case. We did not defund this program----
    Mr. Griffin. Right.
    General Schwartz [continuing]. In the Air Force. I think 
this is a CR-related issue. But, sir, we will confirm that in 
writing for you.
    [The information referred to can be found in the Appendix 
on page 99.]
    Mr. Griffin. That is my understanding. And my understanding 
is, if you vote for the CR, then you are voting for funding for 
the C-130 AMP. And if you vote against it, you are voting to 
keep things as they are, and there is no funding. If you could 
check on that and get back with me.
    And I will mention, incidentally, that I am starting the C-
130 Modernization Caucus. It is very important to me, in my 
district, and to our national security.
    Have you done any sort of calculation to look at what the 
numbers would be, the dollar savings would be as a result of 
the efficiencies that we get from the AMP process, in terms of 
maintenance cost and operational cost savings?
    General Schwartz. Sir, we will have to get back to you on 
the details of the business case. But there was a business case 
done.
    One thing I could comment on, though, very importantly, is 
that the AMP modifications also include subsystems that allow 
the airplanes to operate in increasingly demanding airspace--
European airspace, for example--that require precision 
navigation and communications, which the basic airplanes do not 
possess.
    So we will take that one, as well, for the record, sir, and 
get you the rough numbers on the business case for AMP.
    [The information referred to can be found in the Appendix 
on page 99.]
    Mr. Griffin. Okay. If you don't know this, I would like you 
to add this to your list. I would be real interested in what 
your number is in terms of how many years of combat service you 
believe that we are adding to the C-130s that go through the 
AMP process.
    [The information referred to can be found in the Appendix 
on page 99.]
    Mr. Griffin. That ultimately relates to efficiencies. And I 
think those numbers will bear out that the AMP investment is a 
good investment, and a good investment for our national 
security and a good investment for the taxpayer, both of which 
are important. I appreciate that.
    I was given a couple of questions to ask for a colleague of 
mine, and I just wanted to see if you could get to them quickly 
in my 39 seconds that I have left. Representative Kinzinger of 
Illinois wanted me to ask about the flight suit development. He 
indicated that he had seen the press articles about a $100 
million price tag for developing a flight suit. And he was just 
wondering if that is accurate and if you have anything to say 
about that.
    I think he is an Air Force pilot, himself.
    General Schwartz. We are not in the business of redesigning 
our flight suit under the current circumstances.
    Mr. Griffin. Okay. Great. I will pass that on to him.
    And my time has now expired. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. That was unexpected.
    Just as an aside, there are at least two of us in the room 
who understand there is a second Air Force base that Mr. Rogers 
needs to visit before he makes categorical statements in 
reference to his.
    Gentlemen, thank you for being here today.
    I want to talk a little bit about--and even General 
Schwartz mentioned it--in the auditability of the Air Force's 
financial statements. Made the posture statement, skidded in 
just in ahead of ``Conclusion'' and ``Strategic Basing,'' page 
26 or 27, but at least made the cut. I appreciate that.
    I have had good discussions with the team that you have in 
place to do this. The Air Force has further to go than the 
Department of Army, Department of Navy, and so you have to run 
a little bit faster. I have great confidence in his team and 
his colleagues over at the Army and the Navy, as well, that 
they get it, they understand it.
    I am wondering how much easier--or, excuse me, less 
difficult finding your $33 billion share of the $100 billion 
might have been had you had better systems in place. And one of 
my colleagues asked you for how much something cost, and, 
Secretary Donley, you mentioned you would try to get that 
number. Somebody on your team just threw up in their bucket, 
thinking they would have to go through whatever they had to do 
to get you that number, those kinds of things.
    So, can you talk just a little bit about your commitment to 
getting this done sooner, maybe, rather than later, and your 
opinion as to how important good financial systems that you use 
to run your business--I mean, we have this issue we have been 
hiding behind, in the sense that your getting a clean audit 
requires a balance sheet and everything else, and that is a way 
off. But you use, day in and day out, data systems, financial 
systems to make decisions. That ought to be auditable sooner 
rather than later.
    So can you just give me your side of what is going on?
    Secretary Donley. We do think this is an important priority 
for the Air Force. It has been on our plate for a long time. 
And, certainly, we are not where we want to be. But, as I think 
you have been briefed, we are making some progress.
    As of the end of last year, we have asserted audit 
readiness in a couple of areas that we think are important: 100 
percent of appropriations received, used in our Automated Funds 
Management System. And this is the system that tracks 
appropriations from Congress to OMB [Office of Management and 
Budget], to the Department of Defense, to the Department of the 
Air Force, and from our Headquarters Air Force to our major 
commands.
    We are not all the way down to the field level yet, but we 
are working on that part of the problem. And we think we have 
100-percent auditability through the Automated Funds Management 
System to do that.
    That is one of many aspects of auditability, but it is an 
important one. And it is one that I think Secretary Hale has 
put emphasis on. And I think you are familiar with his focus on 
making sure that we get the clean financial statements and the 
auditability on the systems we most often use and rely on.
    Another piece of this has been our preparedness to assert 
audit readiness on about 48 percent of our mission-critical 
equipment, which includes all of our military equipment, our 
military hardware. There is more to follow in the other 52 
percent in terms of spares and logistics support and where a 
lot of numbers are. But----
    Mr. Conaway. Are those percentages based on dollar 
exposure? Fifty-two percent of what?
    Secretary Donley. Inventory.
    Mr. Conaway. Inventory based on dollars.
    Secretary Donley. I think it is inventory. I think it is 
assets. I am not sure that it is dollar-based. I think it is 
asset-based.
    But, in addition to these areas--and the chief mentioned 
one, in particular, early--the ECSS system is our enterprise 
resource system for a modern logistics system. We must get this 
done. It is very important to us. It has been painful, 
continues to be a challenge, but we think it is worth sticking 
with, going forward.
    The experience of this committee and, I think, for other 
committees for many years, you recognize the importance of 
getting software right across our weapons systems. This is a 
huge issue as more electronics have gone into our weapons 
systems. So, working through software issues is critical. In 
our enterprise resource systems like ECSS, software is 
everything. It is the whole thing.
    So it is very, very hard work, but, again, we are trying to 
make some progress here.
    Mr. Conaway. Thank you. I want to be careful that we don't, 
in our quest to cut spending and find efficiencies, that we 
don't become penny-wise and pound-foolish and underresource 
this important effort.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    General Schwartz, Secretary Donley, thank you for being 
here. Thank you for your service. And thank you for everything 
you do for our airmen.
    I have the pleasure to represent the Third Congressional 
District of New Jersey, which, as we know, is home to Joint 
Base McGuire-Dix-Lakehurst. And Joint Base is an air mobility 
center of excellence in extending air mobility forces 
globalwide, moving troops and cargo. But over the past 10 
years, we have lowered the number of aircraft, and the aircraft 
capability requirement worldwide has grown. And, you know, even 
the hostility around the world has grown.
    And, quite frankly, General Schwartz, is the requirement of 
the mobility aircraft lower--is it because we have less 
equipment, less people, less missions? Or is it just, quite 
frankly, because of budget?
    General Schwartz. First of all, I am from Toms River, so 
I----
    Mr. Runyan. I am sure you have family that are 
constituents.
    General Schwartz. The bottom line is, we have better 
airplanes. You know, there was a day when we had C-47s that, 
you know, we had thousands of them. And we now have C-17s and 
C-5s and we have several hundred. I think, you know, we are 
making economic decisions here. I mean, you know, you have to 
be somewhat business like here. There are times when it doesn't 
matter what it costs. But when it comes to sizing the fleet, it 
does matter.
    And so I think the bottom line is, we have looked at the 
most stressing possible contingency, scenario; we have modeled 
that. We have come to the conclusion that 32.7 million ton-
miles a day--that is gross capacity--is what the country needs 
to project military power, and that that is met with a 
combination of C-17 and C-5 aircraft in the low 300s. And that 
is, you know, the tack that we are on, sir.
    These are expensive airplanes to operate, but we would not 
have gotten 6,000 M-ATVs [MRAP All Terrain Vehicle] or MRAP 
[Mine Resistant Ambush Protected] vehicles to Afghanistan 
without them. So, yes, we have capacity. We can do that, and we 
have. We did the surge in Afghanistan that ended up this 
summer. And, you know, we mobilized some Reserves in order to 
get that done.
    But the bottom line is that I think that low 300s of the 
big airplanes is the right number for us.
    Mr. Runyan. Thank you for that. And I live close enough 
there, in Burlington County, where they are overhead all the 
time. We see them. So I know you guys are busting your tail, 
and thanks.
    And, with that, I yield back, Chairman.
    The Chairman. Thank you.
    And riding along with that, I understand that we have 
better planes. I remember talking about the B-2 [Northrop 
Grumman Spirit stealth bomber], how in previous wars we talked 
about how many planes it took to take out a target, and now we 
have talked about how many targets a B-2 can take out.
    But, at some point, numbers also do matter. And hopefully 
we will be okay, but when we get down to the last one, it may 
not be enough.
    General Schwartz. Mr. Chairman, you can't be in two places 
at once.
    The Chairman. Right.
    Mr. Gibson.
    Mr. Gibson. Thank you, Mr. Chairman.
    And I appreciate the distinguished panelists being with us 
here today. And I thank you for your leadership of the Air 
Force. And also I want to express my support and admiration for 
all those that serve under your command and to the families.
    My question has to do with joint forcible entry 
capabilities. In the next 3 years or so, 3 to 4 years, we will 
be wrapping up--successfully wrapping up our operations in Iraq 
and Afghanistan, and we will be refocusing the force. And I am 
interested to hear your vision and commitment to providing 
trained and ready forces as we look towards restoring a 
capability, joint forcible entry, for Army Airborne and also 
for Marine Expeditionary.
    General Schwartz. We take tasking, sir, from our joint 
force commanders. And if that is the demand signal, that is 
what we will do. It is as simple as that.
    And, by the way, you know, the 82nd hasn't been leg-bound, 
so to speak. You know, they are maintaining their jump 
credentials, not when they are deployed, to be sure, but 
certainly when they are back at Bragg. And, you know, we are 
providing the platforms for that training.
    I would say that there are times when joint forcible entry 
works, and there are times when, you know--it is not as simple, 
perhaps, as it once was. This is the old question about anti-
access and aerial denial capabilities. So we just can't run 
massive formations of C-130s or C-17s in areas that are too 
hostile for them to operate. But there is a methodology to 
reduce that threat, such that we can enter it at a time and 
place of our choice.
    Secretary Donley. Sir, just to add there, there are a 
variety of Air Force capabilities that contribute to that 
aspect of joint operations--so, not just the lift, but the 
intelligence, surveillance, and reconnaissance that goes with 
that, the command and control backbone through satellite 
systems, and many other dimensions of joint operations where 
the Air Force is supporting with key capabilities.
    Mr. Gibbons. Well, I appreciate those comments very much.
    I probably should have said at the outset that I commanded 
the Division Ready Brigade up until last year. And I will tell 
you that your formations down there at Pope really did a 
fantastic job. Many of them grew up at a time when that was a 
higher priority and are really working exceptionally hard to 
restore that capability in an environment that really puts a 
lot of demand--and, as you point out, not only C-17s but, 
really, this is a fully across-the-board joint endeavor to 
actually overcome issues of anti-access.
    So, it is an area that I believe we need to work at 
restoring in the coming years, especially as we reset and 
conclude operations in Iraq and Afghanistan. And I thank you 
very much for your comments and look forward to working with 
you on that point.
    Chairman, I yield back.
    The Chairman. Thank you.
    Just as a point of interest, I met a couple of weeks ago 
with General Dempsey, and he was commenting that they are 
changing the training. I was just recently at National Training 
Center with Mr. Smith and the Marine Mountain Training Center 
and then at Lewis-McChord. And all of the training there was 
geared toward Afghanistan, but they are looking out over the 
horizon and planning in the next round of training in those 
centers they are going to start focusing on the training that 
the colonel was talking about. And so it is good to know that 
they are thinking our ahead on that.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Secretary and General, it is an honor to be here today and 
to have an opportunity to visit with you. I am representing the 
Missouri Fourth Congressional District, of course home of 
Whiteman Air Force Base. And we are very, very proud of the 
good work that is being done there and the B-2 bomber.
    And I wanted to ask a little bit of questions about the new 
bomber that is being developed. I see this year in the budget 
request we had $197 million for RDT&E [Research Development 
Test and Evaluation]. I was just wondering, what is the 
timeframe for this new bomber to be able to come on line?
    Secretary Donley. Mid-2020s.
    Mrs. Hartzler. Okay. I was just wondering, is it projected 
to replace the B-2 bomber eventually?
    Secretary Donley. No, the B-2 will be part of our inventory 
for as far as we can see forward right now.
    Mrs. Hartzler. That is good news. That is good news.
    Have you determined where the new bomber will be housed 
yet, or will that be down the road?
    Secretary Donley. No, that is a down-the-road decision, 
ma'am.
    Mrs. Hartzler. Okay. Very good.
    I also wanted to ask some questions about the new tanker, 
the KC-X. Of course, we have 1 in 10 Americans out of work 
right now, and jobs are very important to all of us, I know to 
the President. He says he wants to hire--we need to hire more 
workers. Yet, from what I understand, the competition for the 
tanker is between an American company and a European company.
    And so I was just wondering why, when we need more work 
here in America, would the Administration be talking about 
outsourcing some of our very important military equipment to a 
foreign government.
    Secretary Donley. The acquisition process that we are using 
for the source selection on the KC-X is one that is governed by 
statutes which the Congress has created and is open to 
qualified bidders. So, EADS [European Aeronautic Defence and 
Space Company N.V.] is a qualified bidder and has been a 
partner in other work across our national security or aerospace 
establishment.
    Mrs. Hartzler. So, in the current statutes now, there is 
not a preference for American companies over other companies 
worldwide?
    Secretary Donley. Only in some very, very specialized 
areas--specialty metals and these sorts of areas.
    Mrs. Hartzler. Uh-huh. Well, that is interesting to know. 
And I appreciate your responses and all the good work that you 
do.
    Thank you, Mr. Chairman. I yield back my time.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Secretary Donley and General Schwartz, thank you very much 
for your testimony today and for the work that you are doing to 
keep our Nation safe.
    As the ranking member of the Emerging Threats Subcommittee 
and the former chair of the Strategic Forces Subcommittee, I 
have been very concerned about the potential for a cyber attack 
on the national electric grid, among many other things but that 
in particular, and the impact, of course, on our ability to 
conduct our strategic military missions.
    During the last Congress, I asked Major General Webber, 
commander of 24th Air Force, in charge of cyber operations, 
what measures were being taken to mitigate the risks to 
military bases, in particular, that rely on civilian power 
sources in the event of a cyber attack against these systems. 
As you know, many of our military bases are dependent on the 
electric grid that is primarily in the hands of the private 
sector, and the owners and operators, obviously, are in the 
private sector. I was pleased to hear that the general 
responded that the Air Force has been actively engaged in 
looking into these issues.
    So my questions are: How much progress has been made in 
evaluating threats to our military bases that rely on single 
sources of civilian power systems? That is number one. Next, 
has the Air Force strengthened plans for energy security by 
examining new technologies that could lead to better 
alternative energy sources? And number three and finally, are 
you confident the Air Force could carry out prolonged 
strategic-level missions over significant amounts of time in 
the event of a massive commercial electric grid failure?
    And, as you know, Idaho National Labs, a couple years back, 
had found a significant vulnerability to our electric grid 
whereby a cyber attack could potentially take down a power 
plant and potentially damage a sector of the electric grid for 
quite some time. And if our military bases are dependent on 
that grid, it would be a significant challenge for us. So I 
would like to ask you to address those questions.
    Secretary Donley. A big set of issues, very important ones. 
Critical infrastructure protection across the board is a 
priority for the Department of Defense and certainly for the 
Air Force, as well.
    The local analysis--the analysis that is there is often 
localized. It depends on a base's local situation, its 
relationships with the community, and the local power grid at 
that location. And so it varies from location to location.
    But we are very interested in identifying single points of 
vulnerability and taking actions to mitigate that. We store 
fuel. We have backup generators in place, for example, in many, 
many locations so that we can operate if and when power goes 
down.
    So this is--some of this is, sort of, standard work. But we 
understand the importance of getting a more strategic 
perspective on this. And it is going to be a challenge, I 
think. And I think we are, kind of, still at the front end of a 
lot of this work.
    I would ask if General Schwartz would want to fill in a 
little bit.
    General Schwartz. Sure. I think that the key thing here is, 
as you know, we identify mission-essential facilities, and we 
posture those with backup power, either UPS [Uninterruptible 
Power Supply] or generators and so on.
    They are not foolproof. Sometimes the power goes down, they 
don't turn on. We had a situation develop, in fact, recently, I 
think it was March, in San Bernardino, where they were 
controlling a couple of orbits of Predators and the commercial 
power went down and the backup didn't kick in right away.
    So it is not foolproof. But we do know where our key 
missions are and what those things are that, you know, can't 
afford an interruption, and we try to back that up.
    With respect to your question on innovation, you know, I 
think we are really open to about anything. I mean, Nellis Air 
Force Base you visited, I know. You know, the solar array there 
is in the top five in the world. It powers about a quarter of 
the base energy consumption. And we are going to expand that.
    Mr. Langevin. Uh-huh.
    General Schwartz. Wind has a place; we are looking hard at 
that, as well. So we are looking at ways, again, to diversify 
our sources of power for exactly the risk-management reasons 
you indicate.
    Mr. Langevin. Thank you. My time has expired, but I will 
have additional questions for the record. But, in the meantime, 
thank you very much for your service, and I look forward to 
having you before us again very soon.
    Thank you.
    The Chairman. Thank you.
    Probably what we should do is build one of those--you know, 
we have all those nuclear-powered carriers and submarines? Just 
build some of those plants and put them on every base. You 
know, we could really move--we could really move forward in 
energy independence.
    Mr. Langevin. Well, it is funny you should say that, Mr. 
Chairman, because the Electric Boat in Groton, Connecticut, of 
course, we have a presence in my district, but, obviously, we 
build the finest nuclear submarines in the world starting in my 
district. And I know that General Dynamics is actually looking 
at producing domestic smaller reactors for perhaps just that 
purpose. Maybe someday it will be viable.
    The Chairman. They have definitely proved their safety.
    Mr. Smith, do you have anything further?
    Mr. Smith. No, nothing further, Mr. Chairman. Thank you.
    The Chairman. Let me just make one closing request. We 
had--Plant 42 in my district, we had 175 positions that were 
slated for conversion. Of that number, 61 were firefighters. I 
met with many of those gentlemen. 44 lost their jobs just 
because they were too old, and they are a lot younger than I 
am. 17 of the 61 were rehired.
    The Readiness Subcommittee sent you a letter; you 
responded. We asked for a cost analysis. We got it, but it was 
about a document that thick. Is there a way that maybe you 
could break out how that was handled at Plant 42?
    And I understand it is too late to save those jobs. That 
was taken care of in January of this year. You did not use your 
authority to waive that limit. I would like to readdress that 
later, which we will in the next bill. But thank you for that.
    With that, this hearing--thank you for being here, for your 
good response. And any of the questions that were asked for on 
the record, if you could respond on those.
    [The information referred to can be found in the Appendix 
on page 93.]
    The Chairman. And we will continue to work together now as 
we go through this process. Thank you.
    And this hearing is adjourned.
    [Whereupon, at 3:41 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 17, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 17, 2011

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 17, 2011

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. MCKEON

    General Schwartz. In-sourcing guidance developed by the Office of 
the Under Secretary of Defense for Personnel and Readiness was issued 
on May 28, 2009. This guidance outlines a systematic, well-reasoned, 
and strategic approach that helps ensure in-sourcing decisions are 
analytically based and fiscally informed. If contract workload is found 
to be inherently governmental, experiencing contract administration 
problems, providing unauthorized personal services, or otherwise exempt 
from contracting under Department of Defense (DoD) Instruction 1100.22, 
Guidance for Determining Workforce Mix, the function must be in-sourced 
regardless of cost. If the contract does not fit one of the above-
mentioned criteria, a cost analysis is required to determine the most 
cost-effective means of performing the function.
    Air Force Material Command's (AFMC) initial cost analysis, 
completed in July 2009, indicated that it would be more cost effective 
to perform the workload currently performed by the Pyramid Services, 
Incorporated contract at Air Force Plant 42 in Palmdale, California, 
with 185 DoD civilian employees. AFMC re-validated the business case 
model in April 2010 using the costing guidance in Directive--Type 
Memorandum 09-007: Estimating and Comparing the Full Costs of Civilian 
and Military Manpower and Contract Support. The re-validation shows a 
$2,500,000 savings across the next five years by performing the work 
with DoD civilian employees. Based on the re-validation of the business 
case analysis, AFMC proceeded with implementation of its transition 
plan for this business case, to include hiring actions.
    When filling civil service positions, federal agencies are required 
to adhere to Title 5 U.S.C. 2301, which requires fair and open 
competition consistent with merit systems principles. As allowed in 
Title 5 U.S.C. 3307(d) & (e) and DoD Instruction 1400.25-v336, the DoD 
established the maximum entry age of 37 for original firefighter 
appointment to positions with primary duties directly connected to 
controlling and extinguishing fires. Those eligible for veterans' 
preference, who exceed the maximum entry age for primary firefighter 
positions, will receive a waiver consistent with the Merit System 
Protection Board decision in Isabella v. Department of State and the 
Office of Personnel Management (OPM) and in accordance with OPM and DoD 
implementing guidance. The Secretary of the Air Force approved waivers 
for the nine selectees who met the criteria for veterans' preference 
eligibility. Waivers were not granted for five selectees as they were 
not veterans' preference eligible and there was not a shortage of 
qualified candidates who met the entry maximum age. [See page 44.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SMITH
    General Schwartz. Most of the Joint Bases have been at full 
operational capability for less than a year. At this point, they are 
still working start-up issues, and identifying best practices among the 
different operating procedures used by each Service Component. In an 
effort to make Joint Basing work better, we have several ongoing 
initiatives. We are collecting lessons learned from Joint Bases and 
sharing the solutions. I have also directed that an Air Force team 
visit both Air Force-led and sister Service-led Joint Bases to help 
identify problems, determine trends, and capture best practices. We are 
planning a conference where we can share this information and Joint 
Base commanders can discuss issues and share ideas to improve Joint 
Basing. In addition, the Office of the Secretary of Defense and each 
Service Component review Joint Base performance quarterly and work 
solutions for issues beyond the Joint Base's control. All of these 
efforts are focused on helping the Joint Bases through their start-up 
phase, developing organizations that effectively support installation 
missions, and gaining efficiencies where possible to accommodate fiscal 
constraints. [See page 14.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT
    Secretary Donley. In 1985 GE began production of the GE F110, an 
alternate engine for the F-16. GE offered and achieved unit prices for 
the F110 that were below those offered by Pratt & Whitney for the F100. 
For instance, during the competition in 1991, the F110 was priced 16.1 
percent below the F100 engine. Subsequently, in 1992, GE raised its 
prices to a level only 4.8 percent below Pratt & Whitney's prices. In 
1993, the GE price exceeded the Pratt & Whitney price. In 1994, the Air 
Force awarded GE a sole-source contract for the F110 engine. 
Competition resumed in 1995 and continued through 1998. While the 
competition did appear to improve engine pricing, there were only 
minimal reductions in the acquisition unit price of the engines. [See 
page 16.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. REYES
    General Schwartz. Section 1 of this document contains crewmember 
and maintainer testimonials and Section 2 features a variety of CV-22 
vignettes provided by Air Force Special Operations Command.

    Section 1: Crewmember and maintainer testimonials

    1. Location of assignment: Hurlburt Field Florida
    Crew position/Primary duty: Evaluator Pilot/B Flight Commander
    Length of experience with CV-22 (years or flight hours): 5\1/2\ 
years
    Opinion of CV-22 performance, reliability, and safety: ``If you 
were to compare the CV-22's performance to that of any military 
helicopter, you would find that there are some with more lift capacity 
or larger cabin area. You would also find that they had half the speed 
and range of the CV-22. If you were to compare the CV-22's performance 
to that of any military airplane, you would find that there are some 
faster and again, some with more lift capacity. You would also find 
that none of them could land vertically in unimproved areas. You simply 
cannot compare the CV-22 performance to conventional helicopters or 
airplanes because a tilt rotor is a different category of aircraft all 
together.''

    A specific event that shaped your opinion of the CV-22's 
performance, reliability or safety: ``I feel safer in the CV-22 than in 
any other aircraft I have flown over the last 22 years. Every type of 
aircraft that has been deployed to Afghanistan has experienced losses. 
These losses have less to do with the nature of any particular aircraft 
type and more to do with the nature of Afghanistan. Afghanistan is an 
extremely challenging flight environment. My deployment to Afghanistan 
in the CV-22 last year was my sixth since 2001, and my fourth to 
Afghanistan. I felt safer flying the CV-22 in Afghanistan than I felt 
flying the MH-53M on previous deployments to the same Area of 
Responsibility.
    The CV-22 is as reliable as any other complex Special Operations 
aircraft. Special Operations Forces (SOF) aircraft are necessarily 
complicated and well equipped in order to be able to perform their 
precision tasking. These aircraft have robust communications and 
countermeasures equipment, precise navigation systems, and additional 
sensors to allow them to operate in poor weather. This additional 
equipment and the arduous duty these aircraft perform in the conduct of 
their assigned mission generally equate to a lower reliability rate 
than that of traditional, non-SOF aircraft.''

    2. Location of assignment: Hurlburt Field, Florida
    Crew position/Primary duty: CV-22 Evaluator Pilot/Commander
    Length of experience with CV-22 (years or flight hours): 4 years
    Opinion of CV-22 performance, reliability, and safety: ``CV-22 
performs unlike any other aircraft in our military inventory. The 
combination of speed and range with a vertical lift capability allows 
SOF to solve tactical problems in a revolutionary way. Additionally, 
this aircraft is the most stable platform in a hover or 100 percent 
dust out than any other platform I have ever flown.''

    A specific event that shaped your opinion of the CV-22's 
performance, reliability or safety: ``While deployed in support of 
Operation IRAQI FREEDOM, we were able to generate and launch three 
aircraft, fly more than 2,500 nautical miles in just over 12 hours. In 
less than 24 hours after landing, the unit and aircraft reset and 
assumed an alert posture. There were no safety concerns with flying the 
aircraft continuously for over 12 hours, nor was there any doubt the 
aircraft were ready for the mission the next day.''

    3. Location of assignment: Hurlburt Field, Florida
    Crew position/Primary duty: CV-22 Pilot/Operations Officer
    Length of experience with CV-22 (years or flight hours): 2.5 years/
200 hours
    Opinion of CV-22 performance, reliability, and safety: ``For an 
initial operational capability aircraft, the CV-22 has been very 
reliable and its effectiveness rates continuously improve. Performance 
as a tilt rotor is impressive; it has great speed with vertical landing 
capability. [The CV-22 provides] niche capability with a good safety 
record.''

    A specific event that shaped your opinion of the CV-22's 
performance, reliability or safety: ``Several missions in Afghanistan 
demonstrated the impressive speed and distance capabilities of the CV-
22. The fact that the CV-22 can cross oceans and conduct helo insertion 
and extraction missions with a very reliable launch rate sets it apart 
from any other aircraft.''

    4. Location of assignment: 46 OG/OGV Eglin AFB--Attached to 8th 
Special Operations Squadron
    Crew position/Primary duty: CV-22B Flight Engineer/Evaluator
    Length of experience with CV-22 (years or flight hours): 4\1/2\ 
years/850 flight hours
    Opinion of CV-22 performance, reliability, and safety: 
``Performance of the aircraft is great! The speed and hover 
combinations bring a new capability to war fighter. I believe the 
current block of aircraft is very safe. Reliability, in my opinion, is 
on par with other aircraft of the same stage of development.''

    A specific event that shaped your opinion of the CV-22's 
performance, reliability or safety: ``Being able to take half the time 
to accomplish the same missions as helicopters, demonstrating the 
ability to be at 230 knots airspeed within seconds, converting the 
aircraft to Vertical Takeoff and Land mode, and performing two-hoist 
operations [are events that have shaped my opinion.]''

    5. Location of assignment: 8th Special Operations Squadron, 
Hurlburt Field, Florida
    Crew position/Primary duty: Pilot/Instructor Pilot
    Length of experience with CV-22 (years or flight hours): 7 years 
(including MV-22 time)
    Opinion of CV-22 performance, reliability, and safety: ``I have 
been amazed in the rapid improvements to reliability over the last 
seven years. There are still a few components with questionable 
reliability (i.e., Engine Air Particle Separator). Safety and 
performance are both truly remarkable.''

    A specific event that shaped your opinion of the CV-22's 
performance, reliability or safety: ``I flew a CV-22 from Cape Verde 
non-stop to St. Thomas (2,500 miles). Has any rotary-wing aircraft ever 
done that? This aircraft has already gone places and done things that 
no helicopter is capable of. The [aircraft's] speed and range 
compresses time such that the teams we fly have more time available in 
one period of darkness than ever before.''

    6. Location of assignment: 8th Special Operations Squadron, 
Hurlburt Field, Florida
    Crew position/Primary duty: Evaluator Flight Engineer/Squadron 
Superintendent
    Length of experience with CV-22 (years or flight hours): 7 years/
1004 flight hours (including MV-22/CV-22) 2800 total hours
    Opinion of CV-22 performance, reliability, and safety: ``I have 
been a flight engineer for 15 years. I spent 8 years on the MH-53 Pave 
low performing the same mission the CV-22 does now. Is the aircraft 
perfect? No. Is there room for improvement? Yes. However, when 
executing Special Operations Forces (SOF) missions to insert, extract, 
and resupply SOF personnel, at night, in adverse weather, there is no 
other aircraft I would want to be on.''

    A specific event that shaped your opinion of the CV-22's 
performance, reliability or safety: ``There is no specific event that I 
can point to. It would be made up of my experiences over a seven year 
period on this aircraft. If you need to cover a great distance, over a 
short period of time there is no other aircraft in the world that could 
do it. I have seen the CV-22 do this mission over the course of seven 
years. I am convinced there is no better aircraft for the mission. When 
I look at where the aircraft was when I first flew on it in 2004, let 
alone when it first flew, I can only imagine how good it is going to 
get.''

    7. Location of assignment: Hurlburt Field, Florida
    Crew position/Primary duty: Evaluator Flight Engineer/HQ AFSOC 
Command Flight Engineer
    Length of experience with CV-22 (years or flight hours): 5 years/
1012 CV-22 hours
    Opinion of CV-22 performance, reliability, and safety: ``In my 
opinion, the CV-22 is as safe as any other aircraft in the inventory. 
The performance is unlike any other aircraft I have flown on; if you 
are not watching out, it will throw you back in your seat on take-off. 
In combat, this aircraft knows when the business needs to be done. It 
will go and go until the team is safe back at the forward operating 
base (FOB).''
    A specific event that shaped your opinion of the CV-22's 
performance, reliability or safety: ``One night in Iraq, we were 
gearing up to depart our main operating base (MOB) to pick up the team 
at their forward operating base (FOB). Helicopters departed the MOB 
approximately 30-45 minutes prior to us. The FOB was 40 minutes away 
(at the speeds we fly), which means about 1.5 hours for the 
helicopters. We landed and had time to brief with the team. After we 
briefed, the helicopters landed, did not shutdown, picked up their 
team, and departed the FOB. We cranked up, loaded the team, and 
departed approximately 20 minutes after the helicopters. The CV-22 
allows us to depart later and still give the team the most time on the 
objective, and still return in one period of darkness.''

    8. Location of assignment: Hurlburt Field, FL
    Crew position/Primary duty: Maintenance Officer in Charge
    Length of experience with CV-22 (years or flight hours): 6 months
    Opinion of CV-22 performance, reliability, and safety: ``I won't 
speak on the performance of the aircraft in operation, as that is 
outside of my specialty. However, from a maintenance safety standpoint, 
the aircraft is built around several redundant systems which all 
communicate with each other electronically on a timescale measured in 
fractions of a second. In the most general of terms, the aircraft will 
either default itself to the most safe condition, alert the crew to a 
possible area of concern, or both.
    From a reliability standpoint, the aircraft is still new and we are 
still gathering data. If the amount of lead time on receiving 
replacement components in the field is any indication, parts are 
failing before they were anticipated to fail during the design phase.
    It has been reported that the Air Force fleet of CV-22s is 
maintaining an extremely low (in the 50 percent range) Aircraft 
Availability rate. This is due to several factors: a relatively low 
experience base in the maintenance technician arena; a laundry list of 
inspections that require extensive downtime; and the low availability 
of spare parts.
    I believe that a number of these issues will be resolved in time; 
experience will grow as the fleet ages, the inspections will take less 
time as the maintainers gain experience, certain inspection 
requirements could be dropped if the data collection supports it, and 
there will be a larger pool of supplies as failure data is solidified 
and the production effort is geared towards sustainment rather than 
output after the fleet has been delivered to the service.''

    9. Location of assignment: Hurlburt Field, FL
    Crew position/Primary duty: Maintenance Officer in Charge
    Length of experience with CV-22 (years or flight hours): 14 months
    Opinion of CV-22 performance, reliability, and safety: ``The CV-22 
has the unique capability of speed, range, and vertical takeoff/landing 
that allows it to perform special operations missions unlike any other 
aircraft; however there are some maintenances issues that we encounter 
that puts some burden on maintainers. The majority of our work and 
issues in generating sorties is focused in several areas which include 
parts availability in supply, component reliability, engine 
performance, fault detection, experience, cleaning (in sandy 
environments), and inspections. While the CV-22 has several challenges 
to maintenance, it must be understood that the CV-22 is not only a new 
aircraft, but a new technology; being that it is the first mass 
produced production tiltrotor. With this it is difficult to accurately 
predict what components will fail and when because there isn't that 
much historical data. In addition it is difficult to allocate spare 
parts if there isn't historical data to justify failure rates. Our 
maintainers also need to gain experience on the aircraft because there 
frankly isn't any out there to draw from, due to how new the aircraft 
is and the small Air Force fleet, which leads to a small pool of 
maintenance experience. On other aircraft like C-130s, which have been 
around for more than 50 years, people can spend an entire career on 
that airframe making them very knowledgeable and efficient at 
troubleshooting problems because they have truly seen and done it all. 
Additionally, the inspections can be laborious and are performed often; 
however, the requirements continue to decrease as more historical data 
is collected.
    The engine performance is mainly attributed to an inadequate intake 
filter system which is currently being improved. While deployed to 
Afghanistan we were changing engines with less than 50 flight hours on 
the aircraft due to the ingestion of sand. When operating in austere 
sandy environments, the V-22 incurs additional maintenance related to 
cleaning filters, oil coolers, and engines which are generally not 
encountered in non-sandy environments. The dirty, sandy environment 
also created problems with detecting faults. Shorts in the wiring are 
produced when vibrations in combination with a sand paper like 
substance created from dirt, oil, and sand in hard to reach places of 
the nacelle result in wires chaffing.
    Overall, the reliability and performance of the CV-22 will increase 
over time as parts dependability, parts spares, historical data, and 
experience improves. Just in the short time our unit has been operating 
(less than four years) there has been great improvement overall in 
performance and reliability. In fact our unit produced a noticeably 
higher mission capability rate during our most recent Operation 
ENDURING FREEDOM tour compared to the previous Operation IRAQI FREEDOM 
tour. Despite the challenges, we as maintainers are dedicated to 
providing safe, serviceable, and properly configured aircraft every 
time. And we did just that during our Afghanistan tour, providing 
Special Operations a unique capability unlike any helicopter that 
brought and will continue to bring the fight to the enemy.''

    A specific event that shaped your opinion of the CV-22's 
performance, reliability or safety: ``Being deployed with the CV-22s in 
Afghanistan for four months was a strong contributing factor to my 
opinion on the aircraft.''

    Section 2: AFSOC vignettes

    VIGNETTE 1--MAJOR CONTINGENCY OPERATIONS (OEF/OIF)

    The CV-22 supports the QDR mandate and USAF strategic focus to 
``prevail in today's wars'' and ``succeed in a wide range of 
contingencies.'' In support of OEF and OIF, the CV-22 has conducted 120 
assaults resulting in the capture of 363 detainees. Due to its 
incredible speed, the time required by a ground force to action an 
objective is practically cut in half. On many occasions, the speed of 
the aircraft compared to a traditional vertical-lift platform allowed 
ground forces to action multiple objectives during a single period of 
darkness. For instance, any objective in Iraq could be serviced from 
Balad with less than a 1.5 hour flight in a CV-22, versus 3 hours using 
a legacy platform.
    The CV-22 provides unique, critical combat capability to our 
special operation forces (SOF), combining vertical take-off and landing 
ability with the speed of a fixed-wing turboprop aircraft, presenting 
unprecedented global mission agility and reach.

    VIGNETTE 2--LONG-RANGE RESCUE

    In June of 2010, a coalition helicopter conducting a Special 
Operation Forces exfiltration mission was disabled while departing a 
nighttime target in the Baghlan Valley (south of Konduz, Afghanistan). 
Multiple coalition attempts to retrieve the aircrew and ground team 
were unsuccessful due to limited visibility and mountainous terrain 
between Konduz and the target. CV-22 capabilities conquered these 
obstacles within two hours. After being notified, two CV-22s were 
launched from Kandahar and conducted a high-altitude, 450 mile flight 
to the target area recovering all personnel and returning them to 
Konduz. The CV-22s were able to perform this mission without needing to 
be refueled. Those recovered stated, ``Thanks for picking us up when no 
one else could.''

    VIGNETTE 3--RAPID RESPONSE

    A recent successful national contingency mission used three CV-22s, 
which self-deployed over 2,500 nautical miles. These CV-22s performed 
two air refuelings on their 13-hour non-stop flight to the objective 
area. During this operation, the CV-22 was used for combat search and 
rescue, personnel recovery, and quick reaction force support. The CV-
22's objective was 500 nautical miles from the staging base; this 
increased stand-off distance reduced the US signature in the target 
area helping to make the operation a success. The enemy never knew the 
Americans were on his door step.

    VIGNETTE 4--DEMONSTRATED ABILITY TO MEET ``FUTURE CHALLENGES''

    The CV-22 is optimal for use in areas without a large United States 
footprint and robust aviation support infrastructures. This was 
demonstrated through exercise and contingency operations conducted in 
SOUTHCOM (Honduras) and AFRICOM (Mali). The CV-22 has the ability to 
depart the Continental United States, conduct vertical-lift 
infiltration/exfiltration operations throughout Central America, and 
return to CONUS within a single period of darkness. Exercise FUSED 
RESPONSE demonstrated the CV-22's capability of flying 1,100 nautical 
miles from Hurlburt Field, perform a vertical landing mission within 
the Dominican Republic, and returning within a single crew duty day. 
This is equal to flying missions from Dallas, Texas, to Philadelphia, 
Pennsylvania, and back.
    ``The CV-22 is my weapon of choice.''--75th Ranger Regiment 
Commander to 3-star Special Operation Forces Commander, June 2010.

    VIGNETTE 5--MAINTENANCE

    Overall, the reliability and performance of the CV-22 meets 
requirements and is expected to increase over time as parts 
dependability, parts spares, historical data, and experience improves. 
Just in the short time our unit has been operating (less than four 
years) there has been great overall improvement in performance and 
reliability. In fact, our unit produced a noticeably higher mission 
capability rate during our most recent Operation ENDURING FREEDOM tour 
compared to the previous Operation IRAQI FREEDOM tour. Despite the 
challenges, we as maintainers are dedicated to providing safe, 
serviceable, and properly configured aircraft every time. And we did 
just that during our Afghanistan tour, providing special operations a 
unique capability unlike any helicopter that brought, and will continue 
to bring, the fight to the enemy. [See page 17.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN
    General Schwartz. The Air Force uses an iterative, continually 
informed process for fielding weapon systems intended to optimize 
mission sets and requirements of the Total Force to meet Combatant 
Commander requirements. The Air Force is committed to fielding the F-
35A Lightning II aircraft in the Reserve Component with the first 
increment of operational basing, and fully supports further Reserve 
Component fielding in the future. The Air Force believes the 
combination of a collaborative and fully operational Total Force 
Enterprise process, an open and transparent Strategic Basing process, 
and effective linkages with the Planning, Programming, Budgeting, and 
Execution process will provide avenues to balance the Active Component 
and Reserve Component workload while prioritizing Combatant Commander 
requirements. The Air Force is dedicated to using these processes, with 
full Reserve Component participation, to refine concepts of balanced 
fielding and to ensure fielding of the F-35A in the most effective and 
efficient manner. Colorado's bases are a valuable asset to the Air 
Force and will be considered as part of the enterprise-wide look in 
each of these basing actions. [See page 27.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN
    General Schwartz. The MALD-J Increment II is scheduled to enter 
technology development in FY12, production in FY15, and begin fielding 
in FY16. [See page 31.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT
    Secretary Donley. There is no way to calculate the impact of the 
procurement processes, oversight requirements associated with 
Environmental Protection Agency and the Occupational Safety and Health 
Administration, or the impact of the political process on Air Force 
operational capabilities. The Air Force is actively implementing 
efficiency initiatives to minimize the amount spent on overhead 
functions such as these, while maximizing resources available for 
operational requirements. [See page 29.]
                                 ______
                                 
 RESPONSE TO QUESTION SUBMITTED BY MR. SMITH ON BEHALF OF MS. GIFFORDS
    General Schwartz. The Fiscal Year (FY) 2012 President's Budget 
directs the consolidation of two Continental United States Air and 
Space Operations Centers (AOC) into one. The Secretary of the Air Force 
(SecAF) and the Chief of Staff of the Air Force (CSAF) directed the use 
of the Strategic Basing process to determine the consolidated location. 
The SecAF and CSAF determination of the preferred alternative location 
should be made in late spring or early summer 2011. To mitigate risk 
and ensure continuity, the consolidation will be a phased approach 
through the fourth quarter of FY12. Finally, we do not foresee any 
operational impact on Air Forces Southern Command's capabilities based 
on lessons learned from recent operations. The AOC at Al Udeid Air 
Base, Qatar has successfully coordinated air operations in Iraq and 
Afghanistan, while AOC operations in support of Haiti relief have also 
demonstrated the ability to handle multiple contingencies in different 
areas of responsibility from a single facility. [See page 12.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. GRIFFIN
    General Schwartz. The C-130 Avionics Modernization Program (AMP) 
program requires either an appropriations bill to legally issue FY11 
Aircraft Procurement Air Force (APAF) funds, or an exception clause in 
a Continuing Resolution authorizing the C-130 AMP program to expend 
APAF funds. [See page 36.]
    General Schwartz. The Air Force Cost Analysis Agency (AFCAA) 
summarized the projected Operations and Support (O&S) savings in 
support of the C-130 Avionics Modernization Program (AMP) Milestone C 
decision in June 2010. The AFCAA analysis projected the total O&S cost 
savings for C-130 AMP, relative to the legacy fleet, at $163.8 million. 
[See page 37.]
    General Schwartz. The C-130 Avionics Modernization Program (AMP) 
modernization does not directly add any years of combat service to the 
C-130 Fleet. C-130 AMP is primarily focused on capability enhancements 
to enable C-130 aircraft to operate well into the future in compliance 
with Federal Aviation Administration (FAA) and international airspace 
mandates. AMP will allow the modified C-130 Combat Delivery aircraft 
unlimited access to United States airspace past January 1, 2020, when 
the Federal Aviation Administration's NextGen airspace access mandates 
take effect in United States airspace. Similar international airspace 
mandates are anticipated. [See page 37.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 17, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. During the previous Next Generation Bomber program 
cancelled just two years ago by Secretary Gates, the program was 
described by Air Force acquisition officials as having the attributes 
of: long-range, penetrating, optionally-manned, nuclear capable and 
survivable. Further, the program was founded and grounded in the 
integration of existing technologies and not invention of new 
technologies. Ironically, Air Force officials have been using the same 
terms to describe the new Next Generation Bomber program in this year's 
budget. What's going to be different about this platform, compared to 
the last planned platform, so that it doesn't meet the same 
cancellation fate as before? Have any requirements or capabilities 
changed?
    General Schwartz. A thorough Department of Defense review of future 
options for Long-Range Strike provided the opportunity to refocus Air 
Force requirements and technology and better reflect the bomber's role 
in a balanced portfolio of long range strike capabilities. The new 
penetrating bomber program emphasizes affordability. This program will 
leverage mature technologies, utilize a streamlined acquisition 
process, and constrain requirements by making informed capability 
tradeoffs. Additional details with regard to the new program are 
protected with enhanced security measures and will be addressed in the 
proper channels. I would be happy to have my staff provide a follow-up 
classified briefing to you.
    Mr. McKeon. The Air Force has a request to retire 6 B-1 bomber 
aircraft in fiscal year 2012. Given that the Air Force only has 96 
combat-coded aircraft, of which only 20 are low-observable (the B-2), 
isn't it premature to retire any bomber aircraft before the new Next 
Generation Bomber aircraft is fielded? How did you determine, and what 
analysis supports, the Air Force decision in determining that 6 B-1 
aircraft are excess to warfighting requirements?
    General Schwartz. The Air Force carefully considered current bomber 
force structure, existing capabilities, and future power projection 
requirements in determining the risk associated with a B-1 fleet 
reduction.
    The results of high-fidelity modeling and simulation analysis 
conducted by Air Force Studies and Analysis indicated a reduction of 
six B-1 primary aircraft authorizations still meets currently approved 
Office of the Secretary of Defense Analytic Agenda scenarios.
    The Air Force conducted comparative analysis between the B-1, B-2, 
and B-52 fleets' current and historical mission capable rates, as well 
as model driven variable cost per flying hour data using the Air Force 
Cost Analysis Agency's 2010 Air Force Cost and Performance tables, in 
order to support measured force structure adjustments. However, the B-1 
in particular faces several grounding concerns due to a thin industrial 
base and avionics sustainment issues. In light of these facts, the Air 
Force feels a reduction of six B-1s is a prudent course of action to 
address these critical issues thereby increasing the pool of equipment 
spares and freeing funds to source critical sustainment and capability 
modifications. The Air Force expects to achieve an increase in aircraft 
availability in the near-term as a result of these retirements, while 
bridging the gap to the future long range penetrating bomber.
    Mr. McKeon. Do you plan to decrease the number of combat-coded B-1 
aircraft, currently at 36 aircraft, if Congress allows you to retire 
the 6 B-1 aircraft in the Air Force request?
    General Schwartz. The Air Force conducted a comprehensive review of 
current bomber force structure, existing capabilities, and future power 
projection requirements in determining the risk associated with a B-1 
fleet reduction. The FY12 President's Budget requests retirement of six 
B-1 aircraft in order to improve the B-1B program inventory. All 
options regarding end state force structure composition are under 
consideration, but reducing Primary Aircraft Inventory assets produces 
the greatest impact on the readiness of the remaining fleet.
    Mr. McKeon. The Air Force currently maintains 96 combat-coded 
aircraft, however, according to recent Air Combat Command statistics on 
average among the bomber fleet, only 44 percent of combat-coded 
aircraft are available at any given moment. This equates to 
approximately 42 aircraft available, out of 96 combat-coded. Is it 
prudent to consider any bomber aircraft retirements at this time?
    General Schwartz. Recent aircraft availability statistics and near-
term estimates indicate a declining trend in aircraft availability and 
support the Air Force's decision to commence a modest reduction in 
bomber force structure. The B-1 in particular faces several grounding 
concerns due to a thin industrial base and avionics sustainment issues. 
In light of these facts, the Air Force feels a reduction of six B-1s is 
a prudent course of action to address these critical issues thereby 
increasing the pool of equipment spares and freeing funds to source 
critical sustainment and capability modifications. The Air Force 
expects to achieve an increase in aircraft availability in the near-
term as a result of these retirements, while bridging the gap to the 
future long range penetrating bomber.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Smith. Excerpt from USAF budget request: ``A one-time cost of 
$14 million for National Aeronautics and Space Agency Orbiter 
(Operation and Maintenance, Air Operations, Service-wide Activities).'' 
Has NASA selected the National Museum of the United States Air Force in 
Dayton, Ohio as the site for one of the retiring space orbiters?
    Secretary Donley. The National Aeronautics and Space Administration 
(NASA) did not select the National Museum of the United States Air 
Force (NMUSAF) as a site for one of the retired space orbiters. 
However, NASA did select NMUSAF to receive the crew training module and 
a shuttle engine as well as other smaller artifacts. The NMUSAF is 
pressing on to develop, design and implement an exhibit and Science, 
Technology, Education and Math (STEM)--related activities on the USAF/
NASA partnership.
    Mr. Smith. Excerpt from USAF budget request: ``A one-time cost of 
$14 million for National Aeronautics and Space Agency Orbiter 
(Operation and Maintenance, Air Operations, Service-wide Activities).'' 
Has the Museum entered into any preliminary discussions or agreements 
with NASA on this subject?
    Secretary Donley. No, the National Museum of the United States Air 
Force did not enter into any preliminary discussions or agreements with 
National Aeronautics and Space Administration on this subject.
    Mr. Smith. Excerpt from USAF budget request: ``A one-time cost of 
$14 million for National Aeronautics and Space Agency Orbiter 
(Operation and Maintenance, Air Operations, Service-wide Activities).'' 
If not, is it premature for the Air Force to be allocating funds for 
this activity?
    Secretary Donley. Due to the Department of Defense budget process, 
any substantial known requirement for FY2012 must be included in the 
President's Budget to prevent an unplanned execution year bill. The 
National Aeronautics and Space Agency (NASA) is scheduled to retire 
shuttles in FY2011 and deliver them and other equipment to the 
recipients by the end of FY2012. The cost of preparing, transporting 
and accepting the crew training module, shuttle engine and other 
smaller artifacts and the subsequent development and implementation of 
an exhibit and Science, Technology, Education and Math (STEM) 
activities could be as much as $1 million. Since the announcement is 
recent, the Air Force is just now entering into discussions with NASA 
as to the process and projected costs of transferring the items.
    Mr. Smith. Excerpt from USAF budget request: ``A one-time cost of 
$14 million for National Aeronautics and Space Agency Orbiter 
(Operation and Maintenance, Air Operations, Service-wide Activities).'' 
The budget states that the Air Force has `requested an interagency 
transfer of the Space Shuttle Atlantis to the National Museum of the 
United States Air Force.' Was this a formal request and when was it 
placed? Can you define what is meant by an interagency transfer? What, 
if any, is the significance of the Space Shuttle Atlantis to the Air 
Force?
    Secretary Donley. An ``interagency transfer'' is a common phrase 
used to describe how a United States Government agency or department 
may obtain excess property directly from other Federal agencies. The 
process is regulated by the Federal Management Regulation (FMR), Title 
41 of the Code of Federal Regulations, Section 102-36.145. The National 
Aeronautics and Space Agency (NASA) has designated the National Museum 
of the United States Air Force to receive the crew training module and 
other items. These will be transferred through interagency agreement 
for development and implementation of an exhibit and Science, 
Technology, Education and Math (STEM) activities related to the USAF/
NASA partnership.
    Mr. Smith. Excerpt from USAF budget request: ``A one-time cost of 
$14 million for National Aeronautics and Space Agency Orbiter 
(Operation and Maintenance, Air Operations, Service-wide Activities).'' 
What does the $14 million cost in the budget represent? NASA documents 
reveal the costs to prepare and deliver a shuttle to be much higher. 
Has NASA provided the Air Force with a separate cost estimate?
    Secretary Donley. Since no orbiter was designated for the National 
Museum of the United States Air Force, costs of transfer have reduced 
significantly. Although the National Aeronautics and Space Agency has 
not provided the Air Force a separate or detailed cost breakdown, the 
Air Force will require approximately $1 million to prepare, transfer 
and accept the crew training module, shuttle engine and smaller items 
and develop exhibits and education activities. Display of these 
artifacts will commence immediately upon receipt to further educate the 
American and international public of our nation's great achievements in 
space. With the concurrence of the Congress the remaining $13 million 
will be reprogrammed for critical Operation and Maintenance needs.
    Mr. Smith. Excerpt from USAF budget request: ``A one-time cost of 
$14 million for National Aeronautics and Space Agency Orbiter 
(Operation and Maintenance, Air Operations, Service-wide Activities).'' 
I understand that there are a number of non-government museums across 
the country that are qualified to display a NASA shuttle and are hoping 
to secure one. How does the Air Force answer the charge that including 
Federal funds in the FY 2012 budget for this purpose gives the National 
Air Force Museum an unfair advantage in the NASA selection process?
    Secretary Donley. As a Federal Entity, the National Museum of the 
United States Air Force (NMUSAF) depends on the budget process. It is 
precluded by law and regulation from soliciting private funds: 
therefore, it must seek the support of Congress. This is not an unfair 
advantage. Rather, the NMUSAF is following the normal budget processes 
available to it in order to meet its mission requirement for 
preserving, maintaining and making available to the widest public 
audience possible portions of our nation's heritage. A Space Shuttle 
Orbiter is an important part of the Air Force's history and heritage 
and as such, it is appropriate for the Secretary of the Air Force to 
request a Space Shuttle for display and to seek budget support. Since 
the time of this hearing, NASA announced the locations designated to 
receive an orbiter. The NMUSAF was not selected.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. The Air Force has identified specialties within active 
component career fields that are experiencing significant stress and 
maintains what it calls the stressed career field list. For a specialty 
to be considered stressed, it must meet two of the following 
conditions: high personnel deployment rates, career field manning 
shortages, or low personnel inventory and retention. As of October 31, 
2010, over 63,000 individuals, or around 19 percent of Air Force active 
component personnel, were in a stressed specialty. Many specialties 
have remained on the list for several years, including Security Forces, 
Contracting, and multiple Civil Engineering specialties.'' What steps 
is the Air Force taking to mitigate the strain on the career 
specialties on the stressed career field list in general and on the 
specialties that have perennially appeared on the list in particular?
    Secretary Donley and General Schwartz. A career field is designated 
as stressed if it is critical in at least two of three measures: 1) 
Operational Demand which expresses the effort required of an Air Force 
Specialty (AFS) to meet contingency demands with both active and 
reserve component Airmen; 2) Work Tempo which measures home station and 
deployed requirements versus funded authorizations and inventory; and 
3) Career Field Health which measures manning, career field shape, 
Personnel Tempo, and retention. The Air Force uses a variety of tools 
to address stress depending on the specific problems leading to a 
stress designation. As of 28 Feb 11, there are 16 stressed enlisted Air 
Force Specialty Codes (AFSCs) and 6 stressed officer AFSCs which 
totaled just under 55,000 Airmen, 17.9 percent of the active Air Force 
population. All but one of these 22 AFSCs are in high operational 
demand. Since authorizations are funded based on a stable peacetime 
mission, not the surge of two simultaneous combat operations, and the 
Air Force grows and maintains the active component inventory to meet 
authorizations, we do not expect these AFSCs to come off the stressed 
list until the contingency demand decreases. Until then, demand will 
exceed supply for some AFSCs, and at least one of the three measures 
will remain critical.
    When manning and retention add to stress, the Air Force works 
solutions across the career continuum to correct it. We have increased 
accessions to reasonable levels to build a healthy future force without 
creating a bulge in the inventory in years-of-service groups. We have 
implemented opportunities for voluntary and involuntary retraining, 
which is a long-standing formalized annual process for enlisted but a 
new formal process for officers. Enlisted first termers can retrain 
through the CAREERS program and mid grade Airmen through the 
Noncommissioned Officer Retraining Program. The Air Force recently 
selected 73 officers to crossflow into undermanned non-rated line 
officer AFSCs. The Air Force also offers bonuses to encourage longer 
enlistments and improve retention and manning in officer AFSCs through 
the Critical Skills for Retention Bonus (CSRB) program and for enlisted 
Airmen through the Selective Reenlistment Bonus (SRB) program. When 
necessary, the Air Force will limit developmental opportunities/
assignments for officers to utilize them more fully in core AFSC 
requirements. For enlisted AFSCs, the Chronic Critical Skills for 
Promotion program provides extra promotions for shortage skills and 
grades.
    Bottom line, the Air Force continues to closely monitor and manage 
all stressed specialties, and we will take appropriate force management 
actions to improve retention and manning. We will continue using SRBs 
and CSRBs to manage retention and address shortfalls in critical 
skills.
    Mr. Forbes. Each Air Force unit is designed to perform a specific 
mission requiring a particular skill set. However, Air Force personnel 
may be assigned to support current operations by deploying to perform a 
related mission that does not necessarily require their full skill set. 
When individuals are engaged in operations that require only a subset 
of their full skill set, their competence in some other skills may 
erode because the individual is unable to complete the full extent of 
their training requirements to remain qualified in their core 
mission.'' To what extent has the Air Force identified unit types or 
career specialties, in which assigned personnel are not receiving 
comprehensive training for their core missions and what steps, if any, 
have been taken to mitigate any identified gaps in training?
    Secretary Donley and General Schwartz. The Air Force has approved 
specialized procedures for maintaining specialty skills to include 
comprehensive training management processes. Air Force Instruction 
(AFI) 36-2201, Air Force Training Program, requires supervisors to 
review the training records of enlisted Airmen prior to their 
deployment to ensure the training continuum is not broken. In turn, the 
supervisors document any remaining upgrade training requirements and 
training remarks as appropriate on the On-the-Job Record Continuation 
Sheet, or automated version. If airmen are out of their career 
specialties long enough to diminish the proficiency in their particular 
specialty skills set, Airmen will increase their proficiency in lost 
competencies through Air Force Force Development programs that include 
any combination of education, training, and experience (i.e., Career 
Development Courses (CDC), OJT, and/or specific placement in 
development positions).
    Additionally, the Air Force trains rated personnel in accordance 
with (IAW) 11-series Mission Design Series (MDS)-Specific Volume 1 
AFIs, which identify events to be accomplished for aircrew personnel to 
maintain mission qualification and currency. Depending on real-world 
mission requirements, some skill sets may experience a loss in 
training, in order to accommodate immediate mission requirements, which 
reinforce other skill sets. When personnel return to their unit, 
individuals receive the necessary training to regain proficiency in 
unit mission tasks and accomplish training events as necessary to 
comply with Volume 1 requirements. This is a recognized issue 
associated with the Air Expeditionary Forces (AEF) cycle, and is 
provided for in the cycle dynamic. The Air Force is standardizing 
deployment lengths to 179 days, increasing dwell, to afford more time 
for reset and training opportunities. The Air Force restructured the 
AEF to include TEMPO banding for high stressed capabilities in response 
to the long term surge.
    Mr. Forbes. In a 2007 memorandum and subsequent implementing 
guidance to the services, the Secretary of Defense established 
deployment rotation goals that generally call for reserve component 
personnel to be involuntarily mobilized for no more than 1 year and 
then demobilized for 5 years, and for active component personnel to be 
deployed for 1 year and then at home station for 2 years.'' What 
percentage of Air Force personnel are currently deploying within these 
rotational goals and what steps is the Air Force taking with the aim 
that all personnel meet these goals in the future, particularly 
personnel who provide critical capabilities in support of current 
operations and have traditionally deployed at rates that exceed the 
Secretary's deployment goals?
    Secretary Donley and General Schwartz. There are 178K personnel in 
the Reserve Component (RC) with 3,420 currently mobilized under Title 
10, United States Code, section 12302, which is considered an 
involuntary action. Of those, 2,843 or 83 percent are meeting or 
exceeding the Secretary of Defense's established mobilization to 
demobilization ratio minimums of 1:5 for the RC. However, a significant 
portion of the remaining 17 percent volunteered to be mobilized. 
Therefore, in practice, we are actually closer to Secretary of 
Defense's goal than the statistics indicate.
    There are 332K personnel in the Active Component (AC) with 29,325 
currently deployed on contingency operations. Of those, 27,350 or 93 
percent are meeting or beating the Secretary of Defense's established 
deploy to dwell ratio minimums of 1:2 for the AC.
    The Air Force strives to provide all Airmen, to include those in 
critical capabilities that traditionally deploy at rates exceeding the 
Secretary's deployment limits, as much time at home as possible after a 
deployment or a mobilization. In fact, the Air Force Generation 
Construct maximizes dwell and provides greater deployment 
predictability for all Airmen. The Air Force also uses the civilian 
workforce and Air Reserve Component volunteers to increase dwell for 
Active Component members and involuntarily mobilized Active Reserve 
Component personnel. The Air Force's Force Engagement Strategy sizes 
and shapes the force with the appropriate balance of skills to meet the 
needs of the current and future fight.
    Mr. Forbes. The Air Force is in the process of enhancing its 
fighter aircraft capability by replacing fourth-generation fighters 
such as F-15s and F-16s with fifth-generation fighters such as the F-22 
and F-35. The Air Force has stated a strike fighter operational 
requirement of 2,000 aircraft, and, under current procurement and 
retirement plans, the Air Force does not project a strike fighter 
shortfall. However, delays in deliveries of the F-35A aircraft will 
affect the Air Force fighter aircraft inventory. To what extent do Air 
Force aircraft retirement plans and life extension and modernization 
plans for the F-15, F-16, and A-10 aircraft factor in potential delays 
in the deliveries of the F-22 and F-35?
    Secretary Donley and General Schwartz. A 2010 comprehensive review 
of the current and projected force structure revealed a shortfall of 
approximately 3-5 percent of the total aircraft (60-100) through the 
Future Years Defense Plan (FYDP). The last two production F-22s are on 
schedule for delivery in March 2012. F-35 program status remains the 
key variable in the fighter force structure forecast as the Air Force 
transitions to a 5th generation force. F-35 delays are manageable 
across the FYDP, but have long term impacts that require mitigation. 
These impacts will be mitigated through aggressive management of F-35 
production, legacy fleet review and sustainment, along with selected 
service life extension program (SLEP) and modernization program. In the 
FY2012 (FY12) President's Budget (PB), Air Force continues to sustain 
Block 25--32 F-16s via structural sustainment funded through the fleet 
management program utilizing existing Operation & Maintenance funding. 
The FY12 PB also adds $15M to begin Research, Development, Testing and 
Evaluation for structural modification and avionics modernization as 
part of selected Block 40/50 F-16 SLEPs.
    Mr. Forbes. According to the FY12 budget submission, the Air Force 
has identified 33.3 billion dollars in savings from efficiencies that 
will be reinvested into its budget, including improving depot and 
supply chain business processes (3 billion) and reorganizations (4.2 
billion) such as consolidating staff (4 operations and 3 numbered) and 
streamlining installation support. What are the specific actions that 
will be taken to realize the savings from improving processes and 
reorganizations. How does the Air Force intend to track the realization 
of these savings? How will realizing the total amount of $33.3 billion 
improve Air Force readiness, i.e. what tangible evidence will the Air 
Force be able to show that gaining greater efficiencies has benefited 
its readiness posture?
    Secretary Donley and General Schwartz. We have developed a series 
of Priority areas with supporting Objectives which include specific 
tasks and actions to realize our efficiencies. The following are some 
of the major objectives for improving organizational and business 
process:

    <bullet>  Consolidating three Numbered Air Forces with co-located 
Major Command staff and consolidating the activities of four Air and 
Space Operations Centers into two, thereby achieving a redistribution 
of 347 military authorizations (228 in FY12 and 119 in FY13) across the 
Future Year Defense Plan (FYDP) and eliminating 212 civilian 
authorizations beginning in FY13 which will save $100.1 million across 
the FYDP

    <bullet>  Consolidating installation support management to improve 
Air Force-wide standardization and prioritization

    <bullet>  Reallocating 5,600 active duty billets over the FYDP from 
lower priority support functions to higher priority, growth areas

    <bullet>  Saving more than $3 billion from anticipated growth in 
Weapon System Sustainment (WSS) portfolio efficiencies across the FYDP 
by reviewing operational requirements, depot processes and the 
sustainment of the supply chain without degrading operational 
capabilities or support to the warfighter

    <bullet>  Reducing fuel consumption within the Mobility Air Forces 
by leveraging proven commercial aviation practices for flight planning 
and weight reduction, and implementing other initiatives to save $715 
million (net) across the FYDP

    <bullet>  Reducing acquisition costs by consolidating services, 
scrutinizing contracts, reducing contract support, and more efficiently 
using resources to deliver capabilities and support to the warfighter

    <bullet>  Reducing information technology costs by more than $1.2 
billion over the FYDP by adopting Department of Defense (DoD)-level 
Enterprise Information Services including enterprise core services, 
consolidating and standardizing the network information technology 
infrastructure from nine Air Force and Air National Guard Regional 
Processing Centers to five centrally controlled centers, and migrating 
current and developmental applications, services and data to DoD-
provided enterprise computing centers

    <bullet>  Improving our procurement of satellites with a new 
acquisition strategy which, subject to Congressional approval, will 
lower procurement costs and stabilize the defense industrial base.

    Across our Efficiency efforts we assigned Senior Leaders (by name) 
as the responsible owners and champions to achieve their assigned 
portion of $33.3 billion in Efficiency savings. They work across our 
major commands and functional organizations to develop and manage 
Efficiency Plans. Their plans address the Efficiency objective, 
specific steps to achieve that objective with associated completion 
dates, and forecasted results. The plans include financial performance, 
manpower savings, and mission area performance projections.
    Corporately, we are reviewing progress on a Monthly basis in the 
Air Force Board (attended by Flag Officer/Senior Executives from across 
Headquarters Air Force and the major commands) which then informs a 
Quarterly Air Force Performance Review in the Air Force Council 
(chaired by the Under Secretary and Vice Chief of Staff). These reviews 
will monitor plans and progress and ensure that Efficiency outcomes are 
in fact delivered and do not inadvertently impact readiness, mission 
performance, or quality of Life for Airmen. As fact of life issues 
surface during the year of execution, deviations from approved plans 
will be thoroughly assessed by senior leadership. To alleviate fact of 
life impacts and to continue to foster a culture of stewardship, we 
know we will need to fill gaps and shortfalls in existing plans with 
modified or new Efficiency initiatives. Our process for management of 
Efficiencies and corporate oversight has considered that some 
initiatives will be more successful than others and that we must have 
the ability to fill gaps when they arise. This is to ensure we do not 
create future bills and preserve investments in mission and readiness.
    Within the dynamics of today's resource constrained environment, 
the chance to redirect Efficiencies to other higher priority Air Force 
operations and investments is a strategic opportunity that can enhance 
readiness and warfighting capability. The Secretary of Defense's 
Efficiency challenge has allowed us to re-invest our efficiencies. The 
following mission funding enhancements are included in our budget 
submission:

    <bullet>  Investing in the Long-Range Strike Family of Systems, 
including a new penetrating bomber as a key component of the Joint 
portfolio

    <bullet>  Investing an additional $3.5 billion to fund the Evolved 
Expendable Launch Vehicles (EELV) program to the Office of the 
Secretary of Defense (OSD) Independent Cost Assessment, with the 
Department of Defense (DoD) committed to buying five boosters per year 
to meet national space launch requirements and stabilize the industrial 
base

    <bullet>  Repurposing 5,600 active duty billets over the FYDP to 
support Intelligence, Surveillance and Reconnaissance capability, U.S. 
Pacific Command force structure requirements, Total Force Integration, 
the U-2 continuation, building partnership capacity, increasing support 
to the Air Force District of Washington UH-1N mission, among other 
increases

    <bullet>  Procuring an additional 16 simulators for F-35 aircrew 
training bringing the total procurement to 30 simulators to ensure an 
effective training pipeline throughput and operational unit pilot 
proficiency and cost control

    <bullet>  Recapitalizing the aging special operations forces MC-
130H/W aircraft

    <bullet>  Improving the aircraft computer infrastructure of the B-
52 to enable more rapid machine-to-machine retargeting

    <bullet>  Enhancing combat capability of the F-15C and F-15E with 
additional Active Electronic Scanned Array radars and electronic 
protection software upgrades

    <bullet>  Continuing to fund the development of next-generation 
Global Positioning System (GPS) III Operational Control Segment

    <bullet>  Researching and developing electronic protection and 
suppression of enemy air defense (SEAD) capabilities for the F-22

    <bullet>  Transitioning MC-12W Liberty Project from Overseas 
Contingency Operations (OCO) funding into the Air Force baseline budget 
beginning in FY13

    <bullet>  Continuing maximized production of the MQ-9 Reaper to 
ensure delivery of 65 Combat Air Patrols by the end of FY13

    <bullet>  Extending U-2 operations through FY15 to ensure a smooth 
high-altitude transition

    <bullet>  Baselining the Air Sovereignty Alert program across the 
FYDP to solidify support to homeland security operations.

    Mission support enhancements that were enabled include $7.0B into 
Weapon System Sustainment to support readiness and $327.0M in military 
construction (MILCON) enhancements to meet critical Combatant Commander 
requirements, bed-down new mission weapons systems and improve the 
quality of life for our Airmen through the construction of six 
additional Airmen dorm projects.
    Other tangible evidence that Efficiencies have benefited readiness 
will be accomplished through our continual review of readiness 
indicators throughout the year as well as our annual reassessment of 
capability gaps and annual future year programming reviews.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. The Air Force has been a leader in developing their 
Computer Network Operations capabilities. However, I have some serious 
questions about how progress has been made in developing the personnel 
and acquisitions side of your cyber policy. The fiscal year 2010 
National Defense Authorization required the development of a new 
acquisition process for IT systems that focused on the rapid deployment 
of emerging technologies. The same bill also required of the entire 
Department a study on the recruitment, retention, and career 
progression of uniformed and civilian military cyber operations 
personnel. What is the Air Force specifically doing to make its IT 
acquisitions more nimble and encourage airmen with critical cyber skill 
to stay in uniform?
    Secretary Donley. There are several actions the Air Force is taking 
to accelerate Information Technology (IT) acquisition. In concert with 
Section 804 of Department of Defense (DoD) Acquisition Reform efforts, 
the Air Force is developing processes and models to streamline and 
speed IT acquisition through a ``services'' development and delivery 
process. This ``Services-based'' model will allow the Air Force, and 
ultimately the entire DoD, to quickly develop services and 
applications. To attain this vision, we will first build a common 
platform or infrastructure as part of Secretary of Defense's efficiency 
initiatives. From this common platform we will be able to quickly 
develop, test, and field new IT services and applications. The first 
step to achieve this objective occurred when the Air Force Chief 
Information Officer (CIO), in consultation with the Air Force Chief 
Management Officer (CMO) and Service Acquisition Executive (SAE), 
released a directive which will ensure all future IT developments are 
done in accordance with web-based standards and protocols. The Air 
Force is also restructuring IT programs, when feasible, to deliver 
rapidly executed increments/releases of capability. The goal is to 
release capability improvements every 18 months. The Air Force program, 
Defense Enterprise Accounting and Management System, is a pilot program 
for developing this new model. Taken together, these are some of the 
prerequisite steps which will enable the Air Force to make IT 
acquisitions more cost effective and schedule efficient.
    The Air Force manning for Cyberspace Operations and Support 
personnel in the 17D, 3D, and 1B4 Air Force Specialty Codes are 
currently within sustainment levels. Overall retention is good for the 
Air Force, and this holds true for the majority of our Cyberspace 
career fields. We do provide reenlistment bonuses to four Cyber Support 
specialties (1B4X1, Cyberspace Defense Operations; 3D0X2, Cyber Systems 
Operations; 3D0X3, Cyber Surety, and 3D1X5, Radar) whose historical 
reenlistment rates are below desired levels. All others (military and 
civilian) do not require any retention incentives. Additionally, the 
Air Education and Training Command and 24th Air Force continue to train 
and produce critical cyberspace operators to meet operational needs. 
However, as operational requirements emerge (United States Cyberspace 
Command, etc), the Air Force will continue to evaluate the need for 
special incentive programs to ensure the Cyberspace force continues to 
meet sustainment levels and operational needs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. The Air Force has exceeded its authorized end strength 
for the past several years. We are told the Air Force will meet its 
authorization by the end of FY12. What makes this year different than 
the past and how will you be successful in achieving your desired end 
strength? What assistance from the Congress will you need to facilitate 
your efforts to stay within the end strength limits?
    General Schwartz. We are committed to reaching our authorized end-
strength by the end of FY12 and we are implementing several force 
management actions to meet end strength requirements. Force management 
is a multi-year effort and we are taking aggressive measures for both 
officers and enlisted to meet requirements. We are using existing 
authorities to the maximum extent; however, renewed and expanded 
measures would enable us to be even more effective in shaping our 
force. Thank you for the FY11 National Defense Authorization Act 
renewed authority to allow officers with 20 or more years of total 
service to retire with eight versus ten years of commissioned service. 
We implemented this authority in our current Force Management strategy 
to help manage our end strength for FY11 and may continue it, if our 
request for another extension is granted beyond September 2013. In 
addition we are utilizing several voluntary and involuntary measures.
    In coordination with our sister Services, we are working with the 
Office of the Secretary of Defense (OSD) to request additional 
legislative authorities. As you may be aware, our authorities to shape 
our mid-grade officers by offering voluntary separation pay and 
conducting an involuntary reduction in force board expires in December 
2012. We have successfully implemented this legislation in the past, 
and request an extension of these authorities. To manage officers with 
more than 15, but less than 20 years of service, we are requesting a 
Temporary Early Retirement Authority. Additionally, to incentivize 
officers to retire in skills excess to Air Force requirements, we are 
requesting authority for a voluntary retirement incentive pay. We 
currently have the authority to selectively retire lieutenant colonels 
and colonels early; however the existing authority is limited. Renewing 
the enhanced selective early retirement authority will allow the Air 
Force to more precisely manage our lieutenant colonels and colonels. We 
also request flexibility to adjust the maximum years of active 
commissioned service for lieutenant colonels and colonels. Lastly, we 
are requesting an extension to the Career Flexibility to Enhance 
Retention program beyond December 2012, to authorize service members to 
assume inactive status from active duty in order to meet personal or 
professional needs, and then return to active duty at the end of such 
period of inactivation.
    We are working all of these items through OSD. Each of these 
legislative authorities will provide all of the Services with 
additional tools to size and shape the armed forces, to best meet 
current and future mission requirements.
    Mr. Wilson. I appreciate that the Air Force retention-oriented 
culture will have great difficulty with the involuntary officer 
separation/retirement actions being introduced. How will the Air Force 
prepare the officer corps for these actions and avoid the morale 
problem that might cause retention problems when the job market 
improves?
    General Schwartz. The Air Force must balance the desire of Airmen 
wanting to serve with the need to operate within our Congressionally 
authorized end strength ceiling. In doing so, the Air Force is 
concerned about doing the right thing for our Air Force, our Airmen and 
their families. Air Force leaders at all levels are communicating with 
Airmen in clear candid terms to minimize uncertainty and maximize 
employment options. Airmen eligible for involuntary separation, 
discharge or retirement programs have opportunities to separate from 
the active duty force voluntarily in lieu of the involuntary force 
management actions. The Air Force has many programs to help Airmen 
transition from active duty and those who leave the active duty force 
are encouraged to consider opportunities along the continuum of service 
in the Air Force Reserves and Air National Guard. The Air Force 
Reserves and Air National Guard are working closely with the active 
duty force to fill shortage skill areas with Airmen transitioning from 
active duty. Transition programs are also in place to facilitate 
opportunities available to Airmen in our Sister Services. Many Airmen 
are also uniquely qualified for federal service. Airman and Family 
Readiness Centers offer transition assistance planning and veterans 
benefit seminars. Transitioning Airmen are encouraged to capitalize on 
opportunities available with the Post 9/11 GI Bill to further their 
educational goals.
    Mr. Wilson. Given that in FY11 the Air Force will use both 
voluntary and involuntary measures to reduce end-strength, why does it 
make sense for the Air Force in FY12 to add 600 people to its active 
duty end-strength?
    General Schwartz. In the FY10 President's Budget (PB), the Air 
Force programmed active duty end strength at 331.7K in FY10, increasing 
to 332.2K by FY11 and 332.8K in FY12-15. The growth of 600 between the 
FY11 and FY12 PBs are in support of the Defense Health Program (DHP), 
specifically due to FY08 National Defense Authorization Act reversal of 
planned military to civilian conversions for DHP. The growth has been 
in the Air Force's program since the FY10 PB.
    Mr. Wilson. The Joint Chiefs of Staff signed off on a letter 
conveying their ``strong support for the military health care program 
changes that are included in the President's proposed fiscal year 2012 
budget.'' Please explain in your own words why you support the proposed 
changes. These changes will go beyond the beneficiaries and will impact 
the people who support the Department of Defense health system. Are you 
concerned about the implications these changes will have on hospital 
employees, pharmacists, vendors, just to name a few? In your opinion, 
will these effects harm the quality and access to care for our 
servicemembers, military retirees, and their families. For example, 
there are hospitals located very close to Holloman Air Force Base, 
Malmstrom Air Force Base, F.E. Warren Air Force Base, and Grand Forks 
Air Force Base that will be significantly affected by the plan to 
reduce the rate that TRIACRE pays them to care for our beneficiaries. 
Does that concern you?
    General Schwartz. We will continue to provide the finest health 
care benefit in the country to our active and retired military service 
members and their families. In an effort to slow the growth in health 
care costs, the Department of Defense (DoD) is proposing TRICARE adopt 
Medicare rates at 420 Sole Community Hospitals (SCHs). In the early 
2000's, Centers for Medicaid and Medicare Services changed medical 
inpatient reimbursement rates for 420 SCHs throughout the United 
States; DoD did not implement this change for TRICARE network 
hospitals. As such, TRICARE currently pays 29 percent above the 
Medicare rates. The proposal will match Medicare reimbursement.
    The SCH reimbursement change will not affect active duty (AD) 
military members and their families' access to health care. While SCH 
will receive lower rates, there will be no additional out of pocket 
costs for the AD families. This change also does not impact 
professional fee reimbursement only hospital charges.
    As for the impact of health care providers, we have a long history 
of partnership with the SCHs and have helped them expand services that 
are now available without a TRICARE payment above Medicare rates.
    However, per the Office of the Secretary of Defense for Health 
Affairs and TRICARE Management Authority, about 5 percent (20) of the 
420 SCHs could be significantly affected by the proposed change. This 
is because these SCHs receive more than 5 percent of their revenue from 
TRICARE. Eight of these 20 are near and support Air Force Military 
Treatment Facilities (MTFs). To reduce the affects of this proposed 
change on these 20 SCHs, a phased approach to the reimbursement rates 
over a four year period will be used and we will closely monitor the 
impact on availability of network care. Further, the Department is 
working a payment adjustment above the Medicare rate for SCHs with 
greater than five percent of overall income from TRICARE, where network 
care may be adversely affected. To this end, we are watching Whiteman, 
Holloman, Minot, and Altus communities very closely.
    The Air Force values our partnership with the community medical 
facilities that care for our Air Force beneficiaries and supports the 
efforts to minimize the impact of this proposal.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. Secretary Donley, to what extent is the Air Force 
working with the Guam Oversight Council and the Department of the Navy 
to utilize some of Andersen Air Force Base for Marine basing 
requirements? What type of challenges or impacts should the Committee 
be aware of if some Marines are in the main cantonment area and some 
are on Andersen?
    Secretary Donley. The Air Force is working closely with the Guam 
Oversight Council, chaired by the Deputy Secretary of Defense and the 
Department of the Navy to best utilize the existing Department of 
Defense lands on Guam. In February 2011, the Chief of Staff of the Air 
Force (CSAF) sent a memo to the Deputy Under Secretary of Defense 
(Installations and Environment) restating our strong support of efforts 
to consider all options for Marine housing on Guam. The CSAF identified 
prioritized areas of emphasis during analysis of housing options and 
the buildup in general. These are:
    a. Protect and preserve the Air Force's mission readiness and 
Operation Plan execution.
    b. Ensure any alternatives factor in operational suitability and 
compatibility to existing Air Force training.
    c. Analyze and provide Joint Service Mission Support Requirements 
(JSMSR) in a fair and equitable fashion with respect to quality of life 
standards, avoiding the ``haves'' and ``have nots'', and sustaining the 
quality of life for Air Force members and families currently assigned 
to Andersen Air Force Base.
    d. Continue our track record of protection of some of Guam's most 
sensitive environmental areas.
    Ms. Bordallo. Secretary Donley, please update this committee on the 
progress of filling Air National Guard units with missions, 
particularly flying missions that were lost as a result of the BRAC 
2005 decisions. What's the progress on this issue? I remain concerned 
that there are still Air Guard units with bridge missions and that we 
continue to hemorrhage flying capabilities out of these units.
    Secretary Donley. All Air National Guard (ANG) units impacted by 
Base Realignment and Closure 2005 have had permanent follow-on missions 
assigned. Of the twenty-one ANG flying units which divested aircraft, 
sixteen have received new flying missions to include Remotely Piloted 
Aircraft. Three of the sixteen units are operating bridge missions (C-
21) to maintain flying skills as they await delivery of their permanent 
aircraft, the C-27J, with the last delivery scheduled for 2015. Five 
ANG units have received new non-flying permanent missions.
    Ms. Bordallo. Secretary Donley, will the general concept for the 
new bomber be an improvement over the previous program? How so? Will 
requested funding be adequate to support the bomber industrial base 
over the next three years and how do you intend to manage the cost 
growth of a new bomber program? And lastly, Mr. Secretary, can you 
please explain the rationale behind your decision to build a long range 
manned bomber with the ability to penetrate defended air space. Why is 
standoff insufficient to meet future Combatant Command requirements? 
What are the inherent limitations within our existing legacy bomber 
fleet?
    Secretary Donley. The new penetrating bomber program puts more 
emphasis on affordability. This program will leverage mature 
technologies, utilize a streamlined acquisition process, and constrain 
requirements by making informed capability and cost tradeoffs. Specific 
capabilities are classified, but I would be glad to have my staff brief 
you on the details.
    The Future Years Defense Plan (FYDP) includes $3.7B for the new 
penetrating bomber program. The Air Force believes that this funding is 
sufficient to maintain the bomber industrial base.
    The Air Force remains committed to providing standoff strike 
capabilities as well. Over the FYDP we continue our investment in the 
Joint Air-to-Surface Standoff Missile-Extended Range. Additionally, we 
will initiate the Long Range Standoff program which will replace the 
Air Launched Cruise Missile. These existing and emerging stand-off 
weapons, coupled with a penetrating bomber, provide the President with 
the option to hold virtually any target at risk at any point on the 
globe. The penetrating bomber's long range and significant payload will 
provide operational flexibility for Joint commanders. The penetrating 
bomber also offers broad geographic coverage, a wide mix of stand-off 
and direct attack munitions, and is usable across the spectrum of 
conflict.
    The greatest inherent limitation of our existing bomber fleet is 
age. The mainstay of our legacy force, the B-52H was initially fielded 
in 1962. Our most advanced platforms, the B-1B and the B-2A were 
fielded in 1985 and 1993, respectively. The effectiveness of the legacy 
bomber fleet is dependent upon the threat environment which will 
continue to increase over time as advanced integrated air defenses 
continue to proliferate. Throughout several conflicts our adversaries 
have had the opportunity to observe how we employ these systems and 
subsequently have adapted their technology and tactics to attempt to 
challenge our ability to hold the global target set at risk.
    Development of a new penetrating bomber will allow future leaders 
to leverage the capabilities of the existing fleet while also providing 
an asymmetric advantage over adversary advances.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. How does the proposed Fiscal Year 2012 Budget Request 
from the Department of the Air Force address not only the current needs 
of the Air National Guard's Fighter Wings, but also the need for 
service life extension programs and modernizing its aging fleet of F-
16s?
    Secretary Donley and General Schwartz. The FY12 Budget Request 
adequately meets the needs of the Air National Guard's Fighter Wings. 
The Air Force, with inputs from the Air National Guard, programs and 
schedules the modernization of the entire F-16 fleet. The management of 
service life extension programs and modernization is an utmost 
priority. In addition, the Air National Guard utilizes critical 
National Guard and Reserve Equipment Account funding to increase the 
capabilities of legacy F-16 aircraft no longer in the active duty fleet 
(Block 30 and below).
                                 ______
                                 
       QUESTION SUBMITTED BY MR. SMITH ON BEHALF OF MS. GIFFORDS
    Mr. Smith [for Ms. Giffords]. My question is in regard to the Air 
Sovereignty Alert (ASA) system. ASA is charged with providing aerospace 
control to ensure air sovereignty and air defense of the air space of 
both Canada and the United States. This is an issue that has been 
discussed in the Committee before; an issue my good friend 
Congresswoman Giffords has worked on throughout her years on this 
committee. I understand this is mission is under NORAD command, but Air 
Sovereignty Alert (ASA) units include both Air National Guard (ANG) and 
active duty Air Force personnel. We have seen a reduction of ASA sites 
and we are hearing additional funding and resources could be in danger, 
leaving in danger our air space.
    General Schwartz. The security of the United States and its 
citizens is at the top of the Nation's enduring national interests, as 
codified in the President's 2010 National Security Strategy. Operation 
NOBLE EAGLE is just one of many contributions the Air Force makes every 
day in defense of the homeland. The Air Sovereignty Alert (ASA) posture 
of Operation NOBLE EAGLE (ONE) is the Air Force's first layer of 
deterrence and defense of North American air sovereignty.
    The Air Force/Air National Guard (AF/ANG) team is committed to ASA 
and fully funded the requirement across the Future Years Defense Plan 
(FYDP). The Air Force made this commitment to the aerospace control and 
warning mission in the 2012 President's Budget submission to Congress 
ensuring resources and manpower are strategically programmed and 
available.
    Currently, the Air National Guard is filling most of North American 
Aerospace Defense Command's (NORAD) requirements for ground alert 
forces by establishing ASA locations at strategic points in the 
continental United States and Hawaii. Those units can change due to 
conversions, deploying in overseas contingency operations (OCO) or 
vital combat training missions. However, these changes or adjustments 
are carefully reviewed and mitigated by the Air Force in coordination 
with joint force providers and our NORAD customer.
    The Air Force maintains a trained, equipped, and ready force to 
meet Commander, NORAD's operational mission requirements for a 24 hours 
a day, 7 days a week, response.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. The burgeoning use of Unmanned Aerial Vehicles poses an 
increasingly realistic threat to national security. This threat could 
be reduced through detect and destroy technology which the Air Force is 
developing. The Air Force has the scientists who are specialists in 
sensor technology who are working the problem, and also has the 
research radars for testing. But the problem is that we don't have 
special use airspace to fly UAVs to take advantage of the people and 
equipment. What is the Air Force doing to secure the necessary special 
use airspace so that we can develop the critically needed UAS 
countermeasures utilizing our research equipment and scientific 
personnel?
    Secretary Donley and General Schwartz. Air Force supports 
establishment of Special Use Airspace (SUA) to allow for the 
development of counter-Unmanned Aerial Vehicles (UAV) technology test 
and evaluation. Current airspace constraints do not enable AF Research 
Lab to meet increasing demands for new Unmanned Aerial Systems (UAS)-
related Research, Development, Testing and Evaluation (RDT&E) and 
operations. The Air Force has been working with the Federal Aviation 
Administration (FAA) to determine the safety challenges inherent in use 
of UAVs. We are in the process of completing a proposal to the FAA that 
we believe will allow the Air Force to move forward.
    Mr. Turner. The Air Force is currently the federal government's top 
energy consumer, requiring 2.5 billion gallons of fuel each year to 
power its operations. This heavy dependence on fossil fuels poses a 
significant risk to our national security. The Air Force's Energy Plan 
states that ``Energy security is at the nexus of national, 
environmental, and economic security.'' One of your ``End State'' goals 
is to have aircraft ``flying on alternative fuel blends if cost 
competitive, domestically produced, and have a lifecycle greenhouse gas 
footprint equal to or less than petroleum.''
    a. What investment in alternative fuels has the Air Force made to 
achieve these goals?
    b. What progress has been made?
    c. Does the Air Force still expect to meet half of the its aircraft 
jet fuel needs with alternative fuels by 2016?
    Secretary Donley and General Schwartz. a. Since 2007, the Air Force 
has invested over $120M to certify aircraft and systems for 
unrestricted operational use of a 50/50 blend of synthetic fuel and 
traditional JP-8, where the synthetic component is produced via the 
Fischer-Tropsch process, and a 50/50 blend of hydroprocessed renewable 
jet fuel (HRJ) and traditional JP-8. At this point, sufficient funding 
is in place for the Air Force Certification Office to complete 
certification of both alternative fuel blends.
    b. To date, the Air Force has certified over 99 percent of its 
fleet for unrestricted operations using the synthetic fuel blend. Final 
certification efforts are underway for the RQ-4, or Global Hawk, which 
is the only remaining Air Force-owned platform to be certified. The Air 
Force is working with the U.S. Navy to achieve certification for both 
the CV-22 and F-35, which are Joint programs.
    The next step in diversifying aviation fuels was to begin 
certifying aircraft for operational use of a 50/50 HRJ blend. The Air 
Force, using lessons learned from the synthetic fuel certification 
initiative, is certifying the fleet using a pathfinder approach instead 
of testing each individual air frame. On 4 February 2011, the Air Force 
certified the C-17 for unrestricted operations using the 50/50 HRJ 
blend--the first Air Force platform certified on this blend. The entire 
HRJ fuel blend certification is expected to be completed by the end of 
2012.
    c. The Air Force's 2016 goal is to be prepared to purchase 50 
percent of its domestic aviation fuel as alternative fuel blends; 
however, the Air Force will not be a producer of fuel, but will use 
what the market cost competitively provides. Once the commercial market 
is ready, having the ability to use non-traditional aviation fuels will 
provide the Air Force with an improved energy security posture and 
increased protection from price fluctuations resulting from foreign oil 
sources. The Air Force is looking to private industry to develop 
alternative aviation fuels in commercial-scale quantities, and in a 
cost competitive and environmentally-friendly manner, so we can provide 
the best value for the taxpayer and our environment. If industry 
achieves these criteria, the Air Force is confident it can meet its 
goal.
    Mr. Turner. The Air Force has proposed to defer investments again 
in facilities restoration and modernization. At Wright Patterson Air 
Force base we have important research being conducted in the Air Force 
Institute of Technology (AFIT) laboratories that were built during the 
cold war and were only meant to be temporary. These dilapidated 
buildings support important graduate research in the areas of 
electromagnetic field theory and low observables, communications, radar 
and electromagnetic warfare programs.
    a. Given the strategic value of the training conducted in AFIT's 
buildings, when does the Air Force plan to modernize the facilities?
    b. With respect to the Air Force budget in general, why did the Air 
Force elect to take risk in the facility accounts and delay critical 
sustainment, restoration and modernization activities?
    c. What is the long-term effect of a delay in funding this facility 
maintenance account?
    Secretary Donley and General Schwartz. a. The Air Force recognizes 
the importance of the training provided by the Air Force Institute of 
Technology (AFIT)--we have a military construction (MILCON) project 
entitled ``AFIT Research Lab'' programmed at $18.3M to address the 
needs of that mission. With that said, as we worked within the current 
fiscal environment to build our budget requests, the Air Force made 
tough choices between many valid requirements. In our final FY2012 
President's Budget (PB) submission, we were unable to include this 
project when balanced against the many other competing requirements. 
However, given its importance, we have maintained the project within 
our FY12-16 Future Years Defense Plan (FYDP) for future consideration.
    b. The Facility Sustainment efficiency saves $1.7B across the FYDP. 
The efficiency allows the Air Force to fund Facility Sustainment at 80 
percent of the requirements identified by the Office of the Secretary 
of Defense Facility Sustainment Model without mission degradation. In 
fact, the Air Force MILCON and Operation & Maintenance (O&M) programs 
are funded at increased levels from the FY11 PB. The MILCON program is 
$3.0B greater across the FYDP and $1.8B higher in the near years (12, 
13 & 14) over the FY11 PB position. The FY12 MILCON program hits the 
highest priorities--as analyzed through the lens of efficiencies and 
``tail to tooth''--only the most critical aspects of our program are 
funded. Similarly, the Air Force had a net increased investment of 
$160M in FY12 from FY11 in active infrastructure O&M accounts to ensure 
our most critical requirements are met. We continued our focused 
investments in dorms and energy reduction initiatives and initiated 
focused investments in airfield pavement repair. Additionally, the Air 
Force increased investment in demolition and consolidation initiatives 
to ``shrink from within'' and reduce future O&M requirements.
    c. The Air Force will implement the Facility Sustainment efficiency 
by leveraging sustainable facility design, demolishing excess 
infrastructure, sourcing strategically, enforcing common standards, and 
employing smarter support practices. The Air Force facilities and 
infrastructure programs include Facility Operations, Sustainment, 
Restoration and Modernization and MILCON. These programs have 
interdependent relationships where a funding reduction in one account 
typically has ramifications across the others. In this case however, 
because the reductions are driven by efficiencies, with defined 
implementation plans, we believe the reductions to the Facility 
Sustainment account will have minimal impact on other programs over the 
long term.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL
    Mr. Kissell. How well is the Air Force balancing shifting mission 
expectations, training facility and installation capabilities against 
reductions in budget?
    Secretary Donley. Over the past decade the Air Force has 
substantially reshaped itself to meet the immediate needs of today's 
conflicts and position itself for the future. While we have grown in 
some critical areas it has been at the expense of others. We've added 
intelligence, surveillance and reconnaissance capacity with 328 
remotely piloted aircraft and over 6,000 airmen to collect, process, 
exploit and disseminate intelligence. We've added over 17 aircraft and 
nearly 2,400 airmen to bolster Special Operations capacity so necessary 
in counter insurgency.
    We've added over 160 F-22s and 120 C-17s to our inventory and 
funded over 30 satellites and added 2,200 airmen for critical nuclear 
and cyber operations and acquisition support. In the same period, 
however, we retired over 1,500 legacy aircraft. We've cancelled or 
truncated procurement of major acquisition programs, shed manpower in 
career fields less critical to the fight and deferred much-needed 
military construction in order to balance these capabilities within the 
resources available.
    In all, during the past seven years the size of the active duty Air 
Force has been reduced from 359,000 in 2004 to approximately 333,000 
today and the Air Force's baseline budget, when adjusted for inflation 
and setting aside the annual wartime supplemental appropriations, has 
remained flat. Looking ahead, we face a multiyear effort to 
recapitalize our aging tanker, fighter, bomber and missile forces, to 
continue modernizing critical satellite constellations, meet dynamic 
requirements in the cyber domain and replace aging airframes for pilot 
training and presidential support. We continue to recognize the 
requirement for fiscal restraint and are committed to remaining good 
stewards of every taxpayer dollar, improving management and oversight 
at every opportunity.
    The FY12 budget request incorporates over $33 billion in 
efficiencies across the Future Years Defense Plan which will be shifted 
to higher priority combat capability by reducing overhead costs, 
improving business practices and eliminating excess, troubled or lower 
priority programs.
    By consolidating organizational structures, improving processes in 
acquisition and procurement, logistics support and streamlining 
operations, we have been able to increase investment in core functions 
such as global precision attack, integrated intelligence, surveillance 
and reconnaissance, space and air superiority. We are reducing risk by 
adding ``tooth'' through savings in ``tail.'' We are fully committed to 
implementing these planned efficiencies and have already assigned 
responsibilities to senior officials and put in place the management 
structure to oversee this work and track progress on a regular basis.
    Mr. Kissell. What lower priority initiatives (for example) Silver 
Flag Site, are being impacted by shifting budget thresholds?
    Secretary Donley. The Air Force is committed to reducing excess 
overhead and support activities, to ensure sufficient funding for force 
structure and modernization. We are taking on the President's challenge 
to reduce the deficit by eliminating waste, improving efficiencies and 
effectiveness through a comprehensive review of our mission 
capabilities and roles in a changing world environment. Some of these 
lower priority initiatives include programmatic adjustments to reduce 
Air Force management infrastructure, and reducing some low priority 
installation services and headquarters programs. Many other initiatives 
are identified in the budget documents provided to the Committee. The 
Air Force, through its normal budgeting process, will continue to 
identify cost savings and additional efficiencies in future budgets in 
order to meet mission needs. In reference to the Silver Flag Site, the 
decision to not beddown a fourth site was not based on shifting budget 
thresholds. It was based on being able to fulfill the training 
requirements at the already existing Silver Flag sites so that the 
fourth site was no longer required.
    Mr. Kissell. What readiness areas are being impacted that simply 
did not make the report language; has a low visibility but high Airmen 
impact?
    Secretary Donley. Lower visibility issues with high impacts to 
readiness include stressed career fields and reduced dwell times for 
high demand skills.
    The Air Force has identified six officer specialties and sixteen 
enlisted specialties as ``stressed'', in terms of deploy-to-dwell time. 
Stressed officer specialties include Control and Recovery (13D), 
Airfield Operations (13M), Intelligence (14N), Public Affairs (35P), 
Contracting (64P), and Civil Engineer (32E). Stressed enlisted 
specialties include Airborne Cryptologic Language Analysts/Airborne ISR 
Operators (1A8), Tactical Air Control Party (1C4), Structural (3E3), 
Explosive Ordnance Disposal (3E8), Contracting (6C0), Command Post 
(1C3), Geospatial Intel 1N1), Network Intel (1N4), Combat Control 
(1C2), Pararescue (1T2), Pavement/Construction Equipment (3E2), 
Operations Intel (1N0), Special Ops Weather (1W0), Utilities Systems 
(3E4), Engineering (3E5), and Security Forces (3P0). The high OPSTEMPO 
in these career fields has resulted in reduced dwell times that have 
diminished readiness for full spectrum operations due to missed 
training opportunities.
    Finally, the Air Force may have to reduce the Combat Air Force 
sponsored GREEN FLAG/RED FLAG exercises as we balance meeting the 
warfighter's needs in a fiscally constrained environment.
    Mr. Kissell. With the availability of numerous advanced engines and 
the JSF now 4 years behind in engine development, when will the engine 
be ready for full deployment?
    Secretary Donley. The F135 is in full deployment. Both Pratt & 
Whitney engine variants have achieved Initial Service Release (ISR) 
(Conventional Take-Off and Landing/Carrier Variant (CTOL/CV) in Feb 
2010 and Short Take Off and Vertical Landing (STOVL) in Dec 2010) and 
production representative engines have been delivered to the 
government, installed in production aircraft, and flown in the case of 
the CTOL (AF-6 in Feb 2011).
    Mr. Kissell. With the increased use of older air platforms, are we 
allocating enough funding for training and is the Air Force providing 
enough training opportunities to maintain a robust personnel capability 
in support of these platforms? Additionally, how does the continued use 
of older platforms impact the readiness of the Air National Guard and 
Reserve forces?
    Secretary Donley. Until the Air Force modernizes aging air and 
space inventories, legacy platforms will continue to provide 
significant contributions in our Active Duty, Reserve and Air National 
Guard forces. The current fiscal environment, ongoing combat 
operations, and delays in standing up new weapon systems have stressed 
our ability to maintain our aircraft and train our aircrew. Despite 
these challenges, the Air Force continues to meet standard training 
requirements for our legacy platform operators and maintenance 
personnel.
    The Air Force is currently able to sustain our legacy aircraft and 
manage associated risk to balance total force needs in today's high-
tempo operational environment. Although the Reserve and Air National 
Guard components have legacy platforms, the Air Force budgets to meet 
warfighters' requirements by investing in improvements, such as service 
life extension programs and capability upgrades, to ensure the Air 
National Guard and Reserve have a viable combat force. While reductions 
in worldwide deployments are expected to improve recent declining 
readiness levels, the increased resources that are needed to maintain 
legacy platforms will continue to challenge Air Force efforts.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Mr. Secretary, on the same date which the Air Force 
announced its F-35 Basing Plan Preferred Alternatives--which included 
Luke AFB as the Active Duty Training site, the Department proposed 
other force structure adjustments. One of these was moving two Luke F-
16 training squadrons to Holloman AFB because of F-22 consolidation. 
What is the basis to move two (of four) critically needed F-16's 
squadrons from Luke given its Active Duty F-16 training mission, while 
it awaits confirmation of a future F-35 Active Duty Training mission 
starting in 2015; and what are the associated additional costs? What 
would be the annual net through-put of F-16 pilots trained be if the F-
16's remained at Luke vs. splitting these assets between Luke AFB and 
Holloman? Won't there be an actual reduction in the number of pilots we 
can train given this division of the F-16's between the two locations--
a clearly inefficient configuration? Luke currently operates two models 
of F-16's for training. What is the concurrent impact on training tempo 
and curriculum at Luke given the movement of either model aircraft to 
Holloman? Which model F-16 is under consideration for transfer? What is 
the net personnel impact to Luke if the Air Force proceeds with the 
transfer of half of its F-16 training assets as announced and what is 
the net impact to Holloman's total manning if the F-16's remain at 
Luke, given the recent addition of the RPA mission the status of F-22 
manning at Holloman prior to the July announcement?
    Secretary Donley. The Air Force long-term vision is to make 
Holloman Air Force Base our primary F-16 formal training unit, and the 
decision was made to move two squadrons of our more advanced Block 42 
aircraft to Holloman. At the time the decision was made, F-35 
deliveries to Luke were expected to start in 2013 and training was to 
start within the year. As F-35 programmatic changes occur, the Air 
Force will continue to evaluate the best timing for the transfer. The 
current cost estimate for the move is $100M. During the move itself, 
the Air Force loses the ability to produce 32 new F-16 pilots (16 
pilots in FY12 and 16 pilots in FY13). Once the move is complete in 
FY14, the net loss of training will be marginal. After the move, the F-
16 squadrons will be able to train the same number of initial F-16 
pilots, however there will be a marginal reduction in capacity for 
transition and/or instructor upgrade courses. Luke will retain one 
Block 42 squadron and one Block 25 squadron for the foreseeable future. 
The net effect is approximately 52 percent of Luke's current F-16 
training will be transferred to Holloman by the end of FY13. Finally, 
regarding manning impacts at Luke and Holloman, Luke would transfer to 
Holloman 432 billets in FY12 and 556 billets in FY13. If the F-16s were 
to remain at Luke, Holloman would gain 153 billets in FY12 from 
Remotely Piloted Aircraft growth with a manpower total of 4,694 
positions, and they would lose 463 positions in FY13 due to the 
drawdown of the 7th Fighter Squadron (F-22s).
    Mr. Franks. Mr. Secretary, the Air Force Fiscal Year 2012 RDT&E 
Budget Request includes $15.9M for the completion of concept 
development activities and initiation of the Technology Development 
phase for the T-X Advanced Trainer Replacement Program, a family of 
fully integrated systems that will modernize how effectively and 
efficiently we train Air Force pilots. Given the significance of this 
major acquisition effort in the coming years, how does the Air Force 
plan to meet a 2017 Initial Operational Capability (IOC) for the T-X, 
and given budget constraints, how do you intend to prioritize and 
demonstrate life cycle costs within this program?
    Secretary Donley. The Air Force plans to meet a 2017 initial 
operational capability date for the T-X by pursuing an acquisition 
strategy that minimizes schedule risk. Specifically, the Air Force is 
giving primary consideration to existing, non-developmental advanced 
trainer aircraft. The Air Force is developing a 30-year life cycle cost 
estimate in accordance with Department of Defense and Service 
guidelines. This estimate will project life cycle costs for a variety 
of alternative courses of action, including service life extension of 
the current aircraft as well as non-developmental and developmental 
solutions.
                                 ______
                                 
                   QUESTION SUBMITTED BY MRS. CASTOR
    Mrs. Castor. I represent MacDill AFB, home of the 6th Air Mobility 
Wing (6AMW). There we also operate the KC-135. As you know it has been 
serving with the USAF since 1957, it is one of just six military fixed 
wing aircraft with over 50 years of continuous service with its 
original operator. I don't have to tell you Mr. Secretary and General 
Schwartz, that we need new ones. I'm hearing we are scheduled to hear 
an award announcement soon. My question is what are we going to do if 
we have another protest of the award? How long can we expect the 
process to continue?
    General Schwartz. The KC-X contract was awarded to Boeing on 
February 24, 2011. The tanker is designated the KC-46A. On March 4, 
2011, EADS-NA announced at the National Press Club that they would not 
protest the award.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. CONAWAY
    Mr. Conaway. In January, the Secretary of Defense announced a 
reduction of 124 F-35s over the FYDP. He further stated that the 
savings from this reduction would be used to fund $4.6 billion to 
extend the development period and add additional flight tests; as well 
as using $4 billion for additional purposes, such as purchasing more F/
A-18s for the Navy. How does this decision impact you? Would any of the 
$4 billion being used for additional purposes be used to support Air 
Force requirements?
    General Schwartz. The impact on the program is positive in nature. 
The resources applied to the development program add realism and 
prudent reserve, to absorb expected further learning and discovery. The 
difference between the decrease in the procurement account and the 
increase in the Research Development Test & Evaluation account cannot 
be traced precisely by the Air Force to any particular Service or 
program. The Department used these funds in the areas of greatest need 
across all Services and programs.
    While resources cannot be directly attributed to any program, the 
Air Force places a high priority on the F-16 Service Life Extension 
Program (SLEP) program. The program will ensure sufficient fighter 
strength in the years to come in lieu of the previously expected F-35 
fleet.
                                 ______
                                 
                    QUESTION SUBMITTED BY MS. SUTTON
    Ms. Sutton. One issue I believe has significant relevance to 
discussions of cost reduction and readiness is the concept of corrosion 
prevention and mitigation. A key component of modernizing our 
infrastructure, preserving our military assets, and saving money in the 
process is adopting a robust corrosion prevention and mitigation 
strategy. As you know, the DoD Office of Corrosion Policy and Oversight 
plays an important role in this process, and each of the services faces 
a unique set of issues with respect to the maintenance of their assets. 
For the FY2011 Defense Authorization bill, this committee's report 
discussed the issue of corrosion and how it impacts the Air Force. The 
report cited the grounding of the F-22 Raptor fleet due to corrosion on 
ejection seat rods due to poorly designed drainage in the cockpit.With 
respect to the Air Force, what potential issues do you face with 
corrosion? Are there any specific Air Force programs or assets 
currently experiencing these issues? How can this committee best 
support DoD efforts to tackle these problem and do you believe 
sufficient funding and resources have been devoted to address these 
issues?
    Secretary Donley. In order to perform its mission, the Air Force 
must train and fight in all environments including many of the most 
austere and corrosively aggressive on the planet and in space. In the 
broadest sense, designing, employing and sustaining weapons systems, 
equipment and infrastructure able to not only perform our unique 
mission but also endure these harsh conditions at an economical cost 
remains our most significant challenge related to corrosion. Operating 
in these conditions makes our weapons systems and equipment susceptible 
to corrosion. All aircraft experience some form of corrosion during 
their life cycle. The Air Force attempts to mitigate the effects of 
corrosion by inspecting and repairing corrosion during Program Depot 
Maintenance, phase, and isochronal inspections.
    Additionally, the Air Force mitigates corrosion by periodically 
rotating aircraft out of highly corrosive environments and by 
performing clear water rinses at various intervals depending on the 
aircraft's proximity to salt water as directed by Air Force Technical 
Orders. The Air Force closely monitors aircraft specific corrosion 
issues from initial discovery until a repair is designed and completed. 
For example, there are currently fifteen F-16s that are restricted from 
carrying wing tanks due to wing pylon rib corrosion; inspection 
procedures are in place to closely monitor the remainder of the fleet. 
Furthermore, we worked closely with industry to develop an F-16 wing 
pylon repair, saving millions of dollars. On the F-22, we continue to 
mitigate corrosion concerns by working with industry partners to 
develop new materials not as susceptible to corrosion. We also 
research, develop, and field aircraft modifications to restore known 
problem areas to serviceable conditions and apply treatments to reduce 
risk in the future. Our C-130 fleet is replacing the Center Wing Box 
due to corrosion and there are several components on the C-5, C-130, 
and KC-135 that are being replaced during Program Depot Maintenance. To 
repair, control and mitigate the effects of corrosion on our critical 
assets is both a sustainment and a design issue. The Air Force 
sustainment effort centers around the rigorous process of inspection, 
prevention, treatment, repair and modification identified above. 
Additionally, with respect to design, we have initiated a comprehensive 
revitalization of our systems engineering processes to instill 
discipline and improve processes to help our design engineers take a 
total life cycle, total systems approach to planning, development and 
implementation of systems to meet warfighting capability requirements.
    Congress can best support the Air Force's efforts by continuing to 
support the Department's strategic planning efforts to influence 
acquisition design and development to incorporate corrosion resistant 
technology and materials as a key consideration during acquisition of 
all new aircraft, weapons systems and equipment as well modification of 
existing Air Force assets. We do have sufficient funding and resources 
to devote toward addressing these issues. Our ongoing DoD-wide 
efficiency initiatives are reducing costs and enabling us to invest in 
newer technologies to combat the effects of corrosion and improve our 
readiness.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Why is the Air Force continuing with its insourcing 
policies while the Army stopped? What direction did DoD give to the Air 
Force concerning this issue?
    Secretary Donley. It is our understanding that the Army did not 
stop in-sourcing but raised the approval level to the Secretary of the 
Army. In-sourcing can be an effective tool in re-balancing the 
workforce, and the Air Force continues to comply with applicable 
statutory and policy guidance in using this tool.
    Title 10 United States Code, Section 2463 requires Department of 
Defense (DoD) to ensure consideration is given to DoD civilians to 
perform duties currently performed by contractors.
    The Air Force is committed to complying with the statutory 
requirement of 10 USC 2463. Given the Secretary's direction to hold to 
FY10 civilian funding levels, any future civilian increases as a result 
of in-sourcing in most instances will have to be offset through 
realignment of existing civilian end strength, although the exceptions 
may be made for critical functions and needs such as the acquisition or 
cyber workforce.
    Mr. Lamborn. With all the near-term position and personnel cuts and 
freezes (both contractors and defense), are they all synchronized so 
that we don't have a gap in covering the mission and services?
    Secretary Donley. The Air Force is conducting a senior-level 
strategic review to effectively position our civilian workforce to 
accomplish essential joint/Air Force mission areas. This group is also 
assessing trade-offs to balance risk to include reevaluating our in-
sourcing plans as we rebalance the workforce within authorized end 
strength levels. We will work with Congress in FY2012 to inform more 
refined decisions in the Air Force's FY2013 President's Budget 
submission.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. WITTMAN
    Mr. Wittman. Admiral Mullen spoke of the extensive high operational 
tempo of both the Navy and Air Force over the past ten years of 
sustained combat in Iraq & Afghanistan; do you feel that the Air Force 
has an adequate budget to carry on enduring missions while balancing 
critical life cycle maintenance programs? How has the past ten years 
affected the service life of your force? Do you have a budget that 
allows for sustained life cycle management and operation and 
maintenance cost for new acquisition?
    General Schwartz. Yes, with requested Overseas Contingency 
Operation (OCO) funding, the Air Force sustainment budget is adequate. 
Currently, the Air Force is developing a plan to realign OCO to 
baseline funding and ensure maintenance programs are sufficient for 
enduring missions. Despite an aging fleet and extensive use in 
contingency operations, less than 0.5 percent (1 percent last year) of 
aircraft are grounded and fewer than 1.7 percent (5 percent last year) 
are flying with operational restrictions. Over the past ten years, 
service life has been preserved by funding structural improvements and 
Service Life Extension Programs. The FY12 budget submission adequately 
funds sustainment of newly fielded weapon systems.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. I understand that personnel retention has not been 
problematic for the US Air Force. In fact, personnel retention in the 
Air Force is actually higher than projected, therefore complicating 
achieving ultimate end strength goals. Given the retention rate in the 
Air Force, how would you characterize the performance and practicality 
of the all-volunteer force?
    Secretary Donley. By all accounts, the all-volunteer force 
continues to provide world-class Airmen while meeting our Combatant 
Commanders' needs. In an all-volunteer environment, recruiting has 
continued to be successful with all quality indicators either remaining 
the same or improving over the last five years. The Air Force has 
continued to meet its quality objectives and recruiting goals since 
2002. To our advantage is a professional and dedicated staff of 
recruiters along with a motivated, bright, and eligible youth 
population. In addition, military pay remains high as compared to 
private sector earnings for high school graduates. An Oct 06 
Congressional Budget Office study on recruiting and retention states 
the combination of better educated Airmen and Airmen who score high on 
aptitude tests make them more likely to complete their initial training 
and remain in the service beyond their first term of enlistment. 
Generally, the all-volunteer force is less expensive to train since 
they stay longer and become more effective and experienced performers.
    However, there are still challenges to our Air Force to maintain 
our recruiting and retention success. We anticipate that the current 
environment will become more challenging as the economy improves. We 
also believe that maintaining steady recruiting resource levels will be 
critical to our future efforts if we are to be successful in achieving 
our longer term goals. Although the Air Force is currently experiencing 
high retention, there are some significant shortages in some skill sets 
which highlight the need for continued enlistment and retention bonuses 
in these critical occupations.
    The Air Force has been engaged in a multi-year effort to reduce 
excess military end strength and associated costs through voluntary and 
involuntary measures. Without action, the Air Force projects we would 
have exceeded FY12 end strength of 332.8K by approximately 7K Airmen. 
This is especially burdensome considering the real cost of an Airman 
increased 26 percent from $76K in FY01 to $96K in FY12 (normalized to 
FY12 dollars). This equates to an approximately $5B increase in the 
Military Personnel Account from FY01 to FY12 (normalized to FY12 
dollars and not including health care costs). Therefore, it is 
absolutely essential for the Air Force to continue its efforts to 
maintain the force at its funded end strength.
    Mr. Coffman. For the F-35 basing issue, what data was used to 
determine the airspace and other factors that made up the ``objective 
criteria'' by which prospective basing locations were evaluated? Who 
provided the data for the criteria? Were units evaluated for possible 
F-35 basing briefed on their score and given an opportunity to respond? 
Was the airspace attributed to Buckley Air Force Base limited to the 
state, or was the airspace of nearby states considered as well? What 
weight did unit quality have on the grading? Why were bases without 
runways (such as Cheyenne Mountain Air Force Station) scored and how 
did they score better on airspace than bases currently conducting the 
air sovereignty mission? Finally, how much infrastructure will need to 
be constructed at the selected bases and has this factor been weighed 
against existing operational facilities?
    Secretary Donley. The criteria applied to the enterprise of Air 
Force installations for basing F-35A operational and training missions 
were designed to evaluate an installation's ability to support specific 
mission requirements. Data such as pilot qualification syllabus 
training events, recurring readiness requirements for combat coded 
units, logistics support infrastructure, existing operational 
facilities, base operating support, and environmental considerations 
were all dimensions of criteria development. Unit quality was not a 
specific criterion.
    Applying the criteria in an enterprise-wide look was accomplished 
through mining authoritative data sources coupled with Major Command 
and installation data calls. Real property and civil engineering 
databases were the sources for a majority of the physical 
infrastructure data. Mission-specific data (airspace, weather) was 
sourced from the Federal Aviation Administration, National Geospatial-
Intelligence Agency, Department of Homeland Security, United States 
Census data, and the Air Force Weather Agency. Data layers were 
imported into a geographic information system (GIS) for analysis as 
required. The airspace for all installations, including Buckley Air 
Force Base, was evaluated through GIS geospatial referencing. No state 
boundaries were considered in this analysis and all airspace within 120 
nautical miles for training locations and 200 nautical miles for 
operational locations was scored. The score for an airspace complex can 
be expressed through the following formula:

    airspace attributes X airspace capacity X distance to the 
installation = total score

    Scores for individual installations in their Congressional district 
are available to the delegation upon request.
    Installations without runways were also scored in the interest of a 
thorough, transparent analysis. If an installation scored well in the 
enterprise-wide look based on distance to appropriately configured and 
sized airspace, subsequent analysis and military judgment would be 
required to determine whether there could be future military and fiscal 
value in constructing a runway at that location. For the recent round 
of F-35A basing, none of these installations were considered as 
candidates or preferred or reasonable alternatives for the required 
basing actions.
    Infrastructure requirements vary by base. During the Strategic 
Basing process, site surveys are conducted to determine facility and 
other infrastructure requirements. Use of existing facilities is the 
preferred option. In the event existing facilities are unavailable, new 
construction would be required.

    Mr. Coffman. There are thousands of Air Force personnel stationed 
on the Korean Peninsula, including units of the 7th Air Force. Recently 
there have been initiatives to increase the number of families allowed 
to accompany their deployed service members in South Korea. 
Accordingly, new infrastructure, housing, and support facilities must 
be built to accommodate these families. What is the cost incurred by 
the increase of accompanied tours to the Korean peninsula by Air Force 
personnel and how much--if any--of this cost is being borne by the 
Republic of Korea?
    General Schwartz. In accordance with Department of Defense (DoD) 
policy, Air Force has recently increased the opportunity for service 
members to bring their families to the Republic of Korea. By the end of 
2010, Osan Air Base had increased the number of families to 632, 
including more than 100 Army families. This was done by using existing 
capacity on base for support and off-base rentals for housing. In their 
report released on 15 Apr 2011, DoD Cost Assessment and Program 
Evaluation identified the marginal cost of families in Korea. 
Extrapolated for current Overseas Housing Allowance (OHA) rates, a 
family in Korea costs $83k/yr and the cost for an unaccompanied soldier 
in Korea with his family collecting housing allowance in the 
continental United States (CONUS) as $55k/yr. If we apply these 
generalizations across the 700 accompanied USAF service members in 
Korea (including Seoul and other locations), the marginal cost is $2M/
yr. This includes PCS costs (transportation), moving costs, training, 
tuition and the difference between OHA and CONUS housing allowance. No 
additional funds were expended for facilities. There are 695 Air Force 
families in Korea, including those supported in and around Seoul. We 
are currently developing plans to further increase the opportunity for 
accompanied tours, but no funds have yet been programmed for this. 
There are currently no plans for Republic of Korea to contribute to the 
cost of accompanied tours. The cost to the U.S. Government will depend 
on several policy decisions and financial arrangements with local 
developers, but will be a combination of construction costs for new 
schools, housing and other support facilities, maintenance of those 
facilities, and the cost of moving families to and from Korea and 
supporting them there. The Office of the Secretary of Defense is 
currently gathering data from the Services and will prepare a report 
and recommendation to the Secretary of Defense not later than 31 March.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. RUNYAN
    Mr. Runyan. I am very proud to represent New Jersey's Third 
District, home to Joint Base McGuire-Dix-Lakehurst. As you are aware, 
the Joint Base is an Air Mobility Center of Excellence extending total 
force global air mobility through the movement of troops and cargo. 
Over the past 10 years, air mobility studies have lowered the number of 
aircraft for the airlift capacity requirement even as world situations 
are becoming more complex and we go into more hostile environments. 
General Schwarz: Has the requirement for the number of mobility 
aircraft been lowered because we have less equipment, people, and 
missions or because this number is all that the Air Force can 
``afford'' to provide?
    General Schwartz. The current Million Ton Miles Per Day (MTM/D) 
requirement is based on the Mobility Capabilities and Requirements 
Study 2016 (MCRS-16), conducted by the Office of the Secretary of 
Defense, Cost Assessment and Program Evaluation, and United States 
Transportation Command, and utilizes current OSD approved wartime 
planning scenarios for 2016. The previous Mobility Capabilities Study 
2005 requirement was based on OSD wartime scenarios considered valid in 
the 2005 timeframe.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GRIFFIN
    Mr. Griffin. Can you provide us with the details on the business 
case for the C-130 Avionics Modification Program (AMP)?
    General Schwartz. An official Business Case Analysis was not 
performed. However, the Nunn-McCurdy certification process was 
performed in two phases. The first phase assessed five alternatives for 
the Air Force C-130 fleet and determined the Air Force Avionics 
Modernization Program (AMP program) provides the most military 
capability at the lowest cost. The second phase identified an 
affordable, low-risk acquisition program for certification.
    The first phase assessment identified five alternatives based on an 
extensive review of on-going and potential C-130 upgrades, as well as 
procurement of new C-130J aircraft: 1) Global access and navigation 
safety upgrade; 2) Global access, navigation safety, and survivability 
upgrade; 3) Navy/Marine Corps AMP program; 4) Air Force AMP program; 
and 5) Replacement with C-130J aircraft.
    Additionally the alternatives were evaluated against four criteria: 
1) Performance measured against Joint Requirements Oversight Council 
(JROC) validated capability gaps; 2) Number of aircraft modified during 
the Future Years Defense Program; 3) Cost (acquisition and life cycle 
cost); and 4) Program risk.
    Only alternatives 2 and 4 met the criteria for further evaluation. 
While the acquisition cost for alternatives 2 and 4 were nearly 
identical, alternative 4 provided greater military capability at a 
lower life cycle cost. Based on these results, the Air Force C-130 AMP 
provides military capability equal or greater than alternative programs 
and at less cost than those programs.
    The second phase identified the subset of C-130 Mission Design 
Series (MDS) that best met Department of Defense affordability and 
acquisition risk goals. All C-130 MDS were evaluated using this 
assessment to identify the lowest risk alternative within the total 
acquisition cost. This alternative provides for upgrade of 222 
aircraft, consisting of C-130H2, C-130H2.5 and C-130H3, and is the 
basis of the certified program. The Department recognizes this program 
covers only a portion of the JROC-validated capabilities deemed 
essential to National Security and has directed the Air Force to 
develop an investment strategy for the remaining 166 C-130 aircraft not 
included in the certified program.
    Mr. Griffin. Is it necessary that Congress pass an appropriations 
bill to ensure the funding for the C-130 AMP?
    General Schwartz. The C-130 Avionics Modification Program (AMP) 
program would have required either an appropriations bill to legally 
issue FY11 Aircraft Procurement Air Force (APAF) funds, or an exception 
clause in a Continuing Resolution authorizing the C-130 AMP program to 
expend APAF funds. The Air Force is grateful that the Congress passed 
H.R. 1473 to provide appropriations for the remainder of Fiscal Year 
2011.
    Mr. Griffin. How many years of combat service will modernization 
add to the C-130 fleet?
    General Schwartz. The C-130 Avionics Modification Program (AMP) 
modernization does not directly add any years of combat service to the 
C-130 Fleet. C-130 AMP is primarily focused on capability enhancements 
to enable C-130 aircraft to operate well into the future in compliance 
with Federal Aviation Administration (FAA) and international airspace 
mandates. AMP will allow the modified C-130 aircraft unlimited access 
to United States airspace past 1 January 2020 when the FAA's NextGen 
airspace access mandates take effect in United States airspace. Similar 
international airspace mandates are anticipated. Although C-130 AMP 
does not extend the service life of the aircraft, select C-130s are 
receiving center wing box replacement modifications, extending expected 
flight hours from 38,000 hours to 67,500 hours.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. Remotely Piloted Aircraft have played a large role in 
our ongoing military operations in the Middle East and are now being 
used in a homeland security role. I believe it is extremely important 
that we continue to develop this technology and train new operators. 
What kind of partnership has the Air Force had with the FAA to 
facilitate continuing training and testing here in the U.S.? Do you see 
any specific problems with domestic access that you believe we must 
change to ensure we are able to fully utilize these tools?
    Secretary Donley and General Schwartz. The Air Force is working 
closely with the Federal Aviation Administration (FAA), Department of 
Homeland Security, National Aeronautics and Space Administration 
(NASA), Department of Commerce, state aviation authorities and academia 
to facilitate training and testing. The Air Force fully supports the 
language in the FAA Reauthorization Bill that calls for establishment 
of Unmanned Aircraft Systems (UAS) training sites and Centers of 
Excellence to move forward integration of UAS into the National 
Airspace System (NAS).
    During the last 18 months, Air Force, FAA, US Army, Customs and 
Border Patrol and NASA worked together to develop an airspace access 
plan supporting beddown of MQ-1 Predators at Grand Forks Air Force 
Base, North Dakota. The Air Force also participated in two Certificate 
of Authorization (COA) Working Groups that identified 24 specific 
improvement areas. Those improvements will streamline the COA process 
and result in more timely access to the NAS. Finally, the Air Force, as 
a member of the interagency UAS Executive Committee, developed a 
Congressionally directed joint FAA and Department of Defense UAS NAS 
Access Plan. The plan established the roadmap for improving remote 
piloted aircraft (RPA) access to the NAS. The Air Force is in the 
initial planning stages to validate two of the access profiles, 
vertical and horizontal.
    While much work is being done to improve RPA/UAS airspace access, 
the development of standards and procedures is hindered by the limited 
number of areas to test and develop technical solutions. The Air Force 
will continue to work with the FAA to increase RPA test sites.

    Mr. Palazzo. On February 9th you offered some strong words to a 
group of defense contractors regarding industry making promises that 
they are not always able to keep. You were quoted as saying, ``If 
industry makes a commitment you will have to deliver.'' We can all 
agree that the system is being abused and some contractors are no 
longer held to the same requirements that most businesses are. Do you 
have any specific plans about increasing the accountability of 
contractors?
    General Schwartz. The Air Force Acquisition Community strives to 
deliver warfighter requirements on cost and on schedule. For example, 
we are complying with the Office of the Secretary of Defense's guidance 
in being more deliberate with choosing contact type, like fixed-price 
and incentive structures, which better share the risk with our 
contactors and increase their accountability to the Air Force and our 
tax payers. Additionally, we continue to incorporate our Services 
Acquisition Post Award reviews (which assess contractor proposal 
promises to actual performance) to a broader population of service 
contracts.
    Furthermore, part of holding our contractors accountable is 
increasing our understanding of our contractor performance across the 
enterprise. In October of 2010, by direction of the Secretary of the 
Air Force, the Air Force stood-up SAF/AQXL, the Air Force Industrial 
Liaison Office. Central to the mission of SAF/AQXL is improving the 
knowledge and insight of the Air Force as a consumer, and to provide 
Air Force senior leadership, program managers, contracting and other 
acquisition organizations with actionable business intelligence to 
improve the Air Force position as a consumer in the marketplace, 
increasing Air Force buying power. Increasing our understanding of our 
industrial counterparts enables our ability to incentivize corporate 
behavior in the manner most advantageous to the Air Force.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
